<html>
<title> - INFRASTRUCTURE INVESTMENT: ENSURING AN EFFECTIVE ECONOMIC RECOVERY PROGRAM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         INFRASTRUCTURE INVESTMENT: 
                ENSURING AN EFFECTIVE ECONOMIC RECOVERY PROGRAM 

=======================================================================

                                (111-2)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            JANUARY 22, 2009

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure














  INFRASTRUCTURE INVESTMENT: ENSURING AN EFFECTIVE ECONOMIC RECOVERY 
                                PROGRAM


















                       INFRASTRUCTURE INVESTMENT:
                         ENSURING AN EFFECTIVE
                           ECONOMIC RECOVERY
                                PROGRAM

=======================================================================

                                (111-2)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 22, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

46-857 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 






















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v
Chart of Additional Infrastructure Investment Formula Funding 
  Provided Under H.R. 1, the ``American Recovery and Reinvestment 
  Act of 2009'' (as passed by the House).........................  xxix

                               TESTIMONY

Bacon, Nancy, Senior Advisor, United Solar Ovonic and Energy 
  Conversion Devices, Inc., Rochester Hills, Michigan............    92
Bendick, Bob, the Nature Conservancy.............................    73
Blunt, Roger, P.E., President, Essex Construction, LLC, Upper 
  Marlboro, MD...................................................    49
Brown, Carole L., Chairman of the Board, Chicago Transit 
  Authority......................................................     9
Clark, John D., III, Executive Director and CEO, Jacksonville 
  Aviation Authority, Chairman, Airports Council International - 
  North America..................................................     9
Donohue, Thomas J., President and CEO, U.S. Chamber of Commerce..    49
Dorn, Terrell G., Director, Physical Infrastructure Issues, 
  Government Accountability Office...............................    92
Doyle, Hon. Jim, Governor, State of Wisconsin....................     9
Fuller, Stephen S., Ph.D., Director, Center for Regional 
  Analysis, George Mason University..............................    92
Glynn, Hon. Astrid, Commissioner of Transportation, State of New 
  York...........................................................     9
Juon, Sharon, President, National Association of Development 
  Organizations..................................................    92
Larson, Larry, Association of State Floodplain Managers..........    73
Marinucci, John, Senior Executive, New Flyer of America, Inc.....    49
Orfeo, Marian, Director of Planning and Coordination, 
  Massachusetts Water Resources Authority, Boston, Massachusetts, 
  and President, National Association of Clean Water Agencies....    73
Poupore, Raymond J., Executive Vice President, National 
  Construction Alliance II.......................................    49
Sullivan, Ed, Chief Economist, Portland Cement Association.......    49
Weakley, James, Lake Carriers Association........................    73
Withington, Tony, Amalgamated Transit Union International 
  Representative.................................................    49

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Boozman, Hon. John, of Arkansas..................................   128
Carnahan, Hon. Russ, of Missouri.................................   131
Cohen, Hon. Steve, of Tennessee..................................   132
Costello, Hon. Jerry F., of Illinois.............................   134
Duncan, Jr., Hon. John J., of Tennessee..........................   142
Mica, Hon. John L., of Florida...................................   147
Mitchell, Hon. Harry E., of Arizona..............................   152
Oberstar, Hon. James L., of Minnesota............................   153
Olson, Hon. Pete, of Texas.......................................   160
Rahall, II, Hon. Nick J., of West Virginia.......................   161

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bacon, Nancy.....................................................   164
Bendick, Bob.....................................................   185
Blunt, Roger.....................................................   191
Brown, Carole L..................................................   194
Clark, John D., III..............................................   202
Donohue, Thomas J................................................   213
Dorn, Terrell G..................................................   236
Doyle, Hon. Jim..................................................   246
Fuller, Stephen S................................................   255
Glynn, Hon. Astrid...............................................   261
Juon, Sharon.....................................................   273
Larson, Larry....................................................   281
Marinucci, John..................................................   289
Orfeo, Marian....................................................   300
Poupore, Raymond J...............................................   302
Sullivan, Ed.....................................................   306
Weakley, James...................................................   308
Withington, Tony.................................................   315

                       SUBMISSIONS FOR THE RECORD

Dorn, Terrell G., Director, Physical Infrastructure Issues, 
  Government Accountability Office:

  Response to request for information............................   106
  Response to request for information............................   118
Edwards, Hon. Donna F., a Representative in Congress from the 
  State of Maryland, NACWA List of Ready to Go Projects 
  (construction to begin within 120 days)........................   321
Oberstar, Hon. James L., a Representative in Congress from the 
  State of Minnesota, excerpt from document provided by the 
  Federal Highway Administration to the Committee on 
  Transportation and Infrastructure..............................    38

                        ADDITIONS TO THE RECORD

Air Transport Association, ``Equipping Aircraft Will Create Jobs 
  and Achieve Environmental and Safety Benefits Now,'' coalition 
  economic recovery request......................................   347
Airport Minority Advisory Council, Gene Roth, Executive Director, 
  written statement..............................................   352
Genesis. the Los Angeles Bus Riders Union, Public Advocates Inc., 
  and Urban Habitat, written statement...........................   361

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  INFRASTRUCTURE INVESTMENT: ENSURING AN EFFECTIVE ECONOMIC RECOVERY 
                                PROGRAM

                              ----------                              


                       Thursday, January 22, 2009

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:17 a.m., in Room 
2167, Rayburn House Office Building, Hon. James Oberstar 
[Chairman of the Committee] presiding.
    Mr. Oberstar. The Committee on Transportation and 
Infrastructure will please come to order.
    Apologies from the Chair for a delay. I was at the meeting 
of the Democratic Caucus this morning, and as it came time for 
me to leave our Speaker was addressing the Caucus, and it is 
very bad manners to walk out on the Speaker.
    At the outset, I would like to say that there will be four 
opening comments, very concise. Our purpose of this hearing is 
to get to the core issue of delivering jobs and the mechanics 
of how State departments of transportation, transit agencies, 
city governance, wastewater treatment public facility 
authorities are going to deliver the contracts, get jobs under 
way, people working within the 90 days that we envisioned in 
the language that we crafted in this committee.
    So, at the outset, I ask unanimous consent for the newest 
member of our committee, Mr. Olson of Texas, to sit during the 
hearing. It is not committee practice to allow nonmembers of 
the committee to sit, except by unanimous consent and under 
very rare circumstances and then not to participate in the 
hearing. But Mr. Olson has been assigned but not confirmed on 
the floor.
    So I yield to the ranking member, the gentleman from 
Florida Mr. Mica, to introduce our soon-to-be newest member of 
the committee.
    Mr. Mica. Thank you.
    Again, the Republican conference has made a change. I had 
introduced Mr. Scalise, I believe from Louisiana, who has gone 
on to another committee; and Mr. Pete Olson from Texas, Texas 
22, is going to replace him. And it has been confirmed by our 
conference but not on the floor by the full House.
    Well, I take it back, Mr. Chairman. I just got word that 
that has been completed. So I would ask unanimous consent that 
he be added to the roster of the T&I.
    Mr. Oberstar. Without objection, so ordered, per order of 
the House.
    Mr. Mica. Welcome, thank you.
    Mr. Olson. Mr. Speaker.
    Mr. Oberstar. I'm not Speaker yet.
    The gentleman from Texas is recognized.
    Mr. Olson. I just want to thank the committee for your 
courtesies towards getting me here and giving me this seat. 
Thank you very much. I look forward to working with you to make 
our transportation infrastructure what it should be.
    Thank you.
    Mr. Oberstar. Welcome. I'm glad to have you here.
    For over a year, this committee has been working on an 
economic stimulus or economic recovery and revitalization, 
"Rebuilding America" we called it in this committee. In 
December of 2007, we set forth our first proposal. Over time, 
that grew. It was part of the stimulus initiative passed by the 
House in September of 2008. Of course, that measure didn't pass 
the Senate.
    Later, we were invited to increase investment through the 
various programs under the jurisdiction of this committee; and 
we together crafted a proposal, had a hearing on it in the end 
of October and invited witnesses on the various aspects of our 
programs from around the country to testify. They validated our 
proposition that we can create a minimum of a million jobs by 
the beginning of June, assuming signature into law of this 
economic recovery package in the first week of February.
    Since then, the Congressional Budget Office has raised a 
number of issues that led them to produce an analysis of our 
surface transportation proposal, not the rest of the plan, but 
just the surface transportation portion, highways, bridges, 
transit, saying that the spendout would be too slow. Well, this 
is an organization that is supposed to tell Congress they are 
spending too much money too fast, and now they are saying we 
are spending too little too slowly. It doesn't make sense to 
me.
    And Chairman Obey of Appropriations had attempted to 
reconcile the differences. And each of the forcing mechanisms 
that we had established in this legislation, the 90-day use-it-
or-lose-it proposal, the waterfall of reporting, of requiring 
the States, the transit agencies, the wastewater 
infrastructure, drinking water infrastructure, public financing 
authorities to report to our committee, to the Senate, to the 
executive branch of the Federal Government every 30 days on the 
contracts awarded, on the jobs created, with job description, 
payroll so that we could track the effectiveness of this 
program.
    I have learned from three previous stimulus initiatives, 
Accelerated Public Works in 1962, 1963, 1964, 1965, 1966, the 
jobs didn't come into effect as quickly as anticipated. We on 
this committee then attempted to change that in local public 
works 1 under the Ford administration. Jobs came up faster but 
not as fast as we anticipated. Local public works 2 in the 
first 2 years of the Reagan administration similarly compressed 
the time frame, but still jobs didn't move out fast enough.
    So in this initiative we took the lessons of the past, 
applied them to the conditions of the present, required the 
States to come up with AASHTO, produce a list from all their 
member DOTs. So we have over 5,000 projects in the States that 
have gone through right of way reacquisition where necessary, 
design and engineering down to final design and engineering, 
through the environmental impact statement process.
    So there has been a public review and public discussion at 
the community level. No one can say, "we weren't consulted." 
They have been through this process. All they need is the money 
to go to construction. Can you award bids in that time frame? 
Can you get contractors on site?
    I met with the Underground Utility Contractors Association 
and the Minnesota Public Facilities Authority, the one that 
does the revolving loan fund in Minnesota. They said, in 30 
days, from the time we are told the money is available, we can 
issue invitations for bid. We can award bids, resolve any 
contract conflict and have people on the job in 30 days; and we 
will report to you every 30 days.
    In a conference call I had with several DOT commissioners, 
Will Kempton, California Transportation Department, said, not 
only do we have contractor capacity, we have well over 100,000 
building trades craftsmen out of work. We are getting eight and 
nine contractor bids per contract that we put out for bid, and 
those bids are coming at 25 percent below engineering 
estimates. So, yes, we can deliver. The contractors are ready. 
The contractor community is prepared. We have got to stick to 
this time frame.
    So I laid that all out for the CBO specialists, and they 
said we weren't talking to the same people you were talking to. 
We were talking to some lower-level persons. We were getting 
information from the Federal Highway Administration from the 
outgoing administration, who were providing us with information 
we asked for.
    So the purpose of this hearing today is to nail down 
specifically your ability, the ability of the States to meet 
these deadlines, to deliver the jobs, to create the employment, 
to put people to work so that we are paying them to work, not 
paying them not to work with unemployment compensation. We need 
unemployment compensation, yes, for people who do not have a 
job and can't get one. But this is to create the opportunity 
for jobs so they can go to work.
    Now I just want to read a couple of things.
    The purpose of this resolution is not to affect adversely 
or otherwise decrease going rates of wages paid for work. Rates 
of wages shall be determined in advance of any bidding thereon. 
Wherever practicable, the full advantage shall be taken of the 
facilities of private enterprise.
    We establish and operate a division of progress 
investigation to ensure the honest execution of the work 
program. We will require uniform periodic reports of progress 
on all projects and recommend appropriate measures to eliminate 
delay and recommend termination of projects where they are not 
affording the amount of employment warranting their 
continuance, administer a system of uniform periodic reports of 
employment on such projects.
    That was from the WPA of Franklin D. Roosevelt in 1935. I 
hadn't read this when I set forth our reporting proposal, our 
90-day use-it-or-lose-it. If there were some way of eliminating 
projects that aren't working we would put that in, too, but we 
can't do that in the current context. But Roosevelt did it 70 
years ago. We can do it today.
    Mr. Mica.
    Mr. Mica. Well, first of all, I want to associate myself 
with the remarks of Mr. Oberstar.
    He started out by telling you sort of the brief history of 
our efforts to try to get the economy going through job 
creation. We passed on September 28th a $30 billion measure. 
The Speaker called us back. Mr. Oberstar asked me to come back 
the week before the election to put together a package, which 
we did. We were looking at $45 billion at that time. We met in 
unprecedented fashion just days before the election. A very few 
members were able to come back, but we heard what it would take 
to get the economy moving and create jobs.
    Quite frankly, I am disappointed by the sequence of events 
that have taken place, that the appropriators have acted. Mr. 
Oberstar and I came up with a very good list of documented 
investments in infrastructure which will create jobs. And every 
time the chairman has sat with me, I said, I would support you. 
I would support you, whether it was 30 billion, 45 billion, and 
even if we get to 90 billion. It is about the activities of 
this committee are directed towards one thing, creating jobs.
    I didn't do very well at math. This is my chart in Exhibit 
1 here. Okay, if we go the full measure and we do $90 billion, 
you don't have to be very good at math to figure out how many 
jobs. Anyone will tell you that in infrastructure spending and 
investment, a billion dollars will create between 28,000 and 
35,000 jobs. We will round that out to 30,000 for those slow at 
math. So 30,000 would create 2.7 million jobs.
    Now we are talking about a package, and I am supportive of 
this president's and his effort to put people to work. He asked 
for--what--3.5 million jobs. We would create just about the 
whole number of jobs by this amount of investment.
    Now the package that has been recommended is either 825 and 
I heard this morning it may go to $850 billion. Well, they used 
to ask the question: Where's the Beef? I want to know where the 
jobs are? Even if we go to $90 billion and we expend $800 
billion, where are the jobs?
    Right now, when I go back to my district--I have to go back 
tonight and tomorrow--people will be asking me about 
opportunities for employment. I just got this memo this morning 
from the head of our Florida transportation builders 
organization. Bob Brillson said, I am very disappointed in the 
House allocation to roads and bridges, $30 billion. Nothing 
will provide both short-term and long-term benefit of 
transportation construction. Each billion dollars, as I have 
said, will create--he used the low figure--28,500 new jobs. 
This is about jobs. I am disappointed that we have this much 
money that we are doing in infrastructure. Mr. DeFazio said 
about 7 percent, maybe 8 percent of the entire package in 
creating jobs.
    Then, finally, just let me tell you what you could do with 
some of this money. $165 billion, ladies and gentlemen, would 
build out the entire high-speed rail system for all 11 
designated quarters. We create 5 million new jobs by spending 
$165 billion for that. We would reduce toxic emissions and a 
dramatic change in air quality across the United States. We 
would reduce 70 percent of our air traffic congestion, and we 
would have dramatic improvement in highway congestion across 
the United States. That is for $165 billion.
    Then, finally, one other example of what you could do with 
$150 billion in energy, you could build enough wind and solar 
generation farms or plants, whatever you call them, to cut 30 
percent of our energy costs. And, added to that, 100 nuclear 
plants. You could eliminate almost all American dependence on 
imported oil for power production in the United States energy 
production with that kind of money.
    So somewhere there is a disconnect. I have supported the 
chairman in his efforts, the other side of the aisle in their 
good efforts to create jobs. I'll continue to do that, but at 
some point we've got to say: Where's the Beef? Where is the 
jobs? And you do the simple math, and I just don't see them. I 
am disappointed.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Well, that is bipartisan disappointment. I 
appreciate those illustrations. They are well taken and well 
deserved.
    Most of you are familiar with Field of Dreams. Field of 
Dreams was about the doctor of my hometown, Chisholm, Doc 
Graham. He was a real doctor. He really did play one inning for 
the New York Giants, but he also was our athletic doctor for 
all the athletic teams, and he gave the physicals to all kids. 
In those days, we had a school doctor, could afford it.
    The ballpark, the Field of Dreams, was built in 1936 by the 
CCC and the WPA. It is still there. We still play baseball on 
it. The football field on which I played was built by the CCC 
and WPA. It is still there. So is the stadium, where some 2,000 
people can sit and watch a football game.
    The investment in city hall was made in 1937, 1938. One of 
my district offices is in that building. City council meets in 
that building. The investment we made in the WPA and CCC is 
still benefiting this generation. Let's work so that, as Mr. 
Mica said, the investments we make benefit next generations.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you for your 
advocacy on this issue.
    We have an economy recently in crisis, although the crisis 
out of view to most of us may have been building some time 
because of corruption on Wall Street. But we do know and we 
have advocated on this committee for the entire time I have 
been here now 22 years that we have an infrastructure in crisis 
in our Nation. We know we are spending about a third of what we 
need every year from all sources to have a 21st century 
transportation infrastructure for America.
    Sixty percent of our road services are in less than good 
condition. That means Americans spending billions of dollars on 
front end work and repairs because of crummy roads every year, 
but we can't afford to fix the roads.
    We have 30 percent of our bridges on the national highway 
system are either falling down, that is, structurally deficient 
or functionally obsolete, causing collisions and delays, 
costing us billions of dollars, but we are told we don't have 
the money to repair it.
    We cannot continue down that path.
    Now there is some misunderstanding about this bill. This 
bill has nothing to do with reauthorization, it has nothing to 
do with the long-term needs of this country, and, in fact, it 
is a pathetic amount of money just to begin to deal with our 
deferred maintenance, and that is where most of the money is 
going, into deferred maintenance. Because when our highway 
departments are confronted with, oh, God, the bridge is going 
to fall down or we are going to have to divert trucks for 100 
miles up over the Cascade Mountains, better put the money in 
the bridge, what goes? All the maintenance goes.
    So most of this money is going into projects that are easy 
to do, they are overdue, but it is not in any significant way 
going to begin to deal with our long-term deficit.
    And with transit there is no money in here for operating 
assistance at the insistence of Mr. Summers and others who 
oppose the inclusion of money for helping our transit systems 
with their operating deficits. This year, transit was loved to 
death by the American people; and the ironic thing is being 
loved to death by the American people and people flooding onto 
transit in record numbers is that deficits are bigger than ever 
and their fuel costs were up, too. But there is no money in the 
bill to help with that, let alone all the deferred issues in 
transit.
    So this bill, as much as we have been able to get in there, 
and the Chairman has been dogged on this, is not even near what 
we need for short-term needs and does not in any meaningful way 
address the long-term needs for our country, but it is better 
than nothing. So we need to get this through, and then we need 
to begin to work on a long-term vision for 21st century 
infrastructure.
    Thank you, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman for his impassioned 
presentation, in which I fully concur.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman. I appreciate you 
holding this hearing today and giving me a brief opportunity to 
say a few words this morning.
    I want to make a couple of points. I think that as this is 
being discussed around the kitchen tables and water coolers 
around America, around this country, I believe most people are 
imagining that we are going to spend a significant amount of 
money to rebuild our infrastructure, whether it is roads, 
bridges, water. And $64 billion is a significant number, but it 
is less than 10 percent of the entire package. I think that is 
far too small.
    Furthermore, I was very disappointed to see that spending 
was reduced, the amount proposed by the chairman on rail was 
reduced, and, in fact, transportation enhancements, some of 
which include beautification, transportation museums and 
vehicle-caused wildlife mortality, they will get more money 
than the rail programs combined in this piece of legislation.
    I know Governor Doyle is here today to support the $300 
million in this proposal, as opposed to the $1.3 billion that 
is in the enhancements that I just mentioned. Total State 
funding is less than half of the $650 million going towards TV 
converter boxes or the $726 million that is going into after 
school snack programs. I know that the Governor in Wisconsin 
has about $130 million in proposed rail projects in Wisconsin 
alone, and there is a backlog of about $1.6 billion across this 
country. So I think we really missed the mark here, and I 
believe that the public is going to be very disappointed when 
they finally see this and understand what is going on and that 
we haven't invested in infrastructure in this country.
    In addition, I know that the Chairman proposed to put some 
funding out there for short lines, which is extremely important 
to the rail network in this country; and that has been 
eliminated, as far as I can see. So I hope when we get to 
conference we can put some of the Chairman's proposals back in 
this bill and make some changes to make it a far better piece 
of legislation than I think it is now.
    Thank you. I yield back.
    Mr. Oberstar. I thank the gentleman for his comments, for 
his observation and support for rail.
    Unfortunately, some of our initiatives fell victim to the 
tax cut. Two other initiatives came forward; and, too, the 
Congressional Budget Office, very, very conservative, very 
restrictive view of the spend-out rate. And we disagree with 
that. And so I called a meeting yesterday of the top five 
persons of CBO and went through point by point how we plan to 
make these investments, how we have agreed to in a bipartisan 
understanding, and showed them new avenues of thinking. They 
are watching this hearing.
    I hope you are listening carefully, CBO.
    Mr. Mica. Mr. Chairman, just yield for 30 seconds.
    Mr. Oberstar. Yes.
    Mr. Mica. Just in closing here, I do want to reiterate our 
support for what we discussed in the follow-up hearings. This 
is not going to be a TARP "where did the money go?" We wake up 
and find out. We may have a smaller piece of the pie, but I 
fully support you in your efforts to have 30-day follow-up 
hearings. We will know where the money is, how much money has 
been spent, and we can identify the projects and investments 
that have been made. And then if money is not expended, we have 
talked also about making certain that that money goes back into 
the system and those that are ready will have access to those 
funds again.
    I thank you, and we will work on that together.
    Mr. Oberstar. I appreciate your participation, your 
support. And, again, I want to reiterate we are going to hold 
the States and the cities and the rest of the recipients of 
these funds, we are going to hold their feet to the fire on 
this.
    Chair recognizes the gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Mr. Chairman, I just want to ask unanimous 
consent to place a statement in the record at this point.
    Mr. Oberstar. Without objection so ordered.
    Mr. Duncan. Thank you.
    Mr. Oberstar. All members may have leave to include 
statements in the record.
    Now, our first panel: The Honorable Governor of Wisconsin, 
Jim Doyle; the Honorable Astrid Glynn, Commissioner of 
Transportation, State of New York; Carole Brown, Chairman of 
the Board of Chicago Transit Authority; and John Clark the 
third, Executive Director and CEO of the Jacksonville Aviation 
Authority.
    And I might note for the record that Frank Kruesi, who 
worked with the CTA for some time, is in the audience here. In 
years past, a frequent presenter for this committee.
    And we have Mr. Kagen who would like to make a statement 
and Mr. Petri welcoming Governor Doyle.
    Mr. Kagen. Mr. Chairman, I will allow my ranking member 
from Wisconsin, Congressman Petri, to go first.
    Mr. Petri. Well, thank you.
    It is an honor for me to present to the committee the 44th 
Governor of the State of Wisconsin. Two days ago, we 
inaugurated the 44th President of the United States. We have 
little shorter terms in Wisconsin for a while. But Jim Doyle is 
a person of great experience in public service, having been a 
Peace Corps volunteer in Tunisia with his wife and working on a 
Navajo reservation in education in addition to being district 
attorney of the Madison area, Dane County, and a distinguished 
Attorney General of the State of Wisconsin. And he is in his 
second term as our Governor.
    We look forward to his testimony on initiatives that 
Wisconsin is working on and our Midwest region and country on 
passenger rail initiative. Thank you very much for taking the 
time to be with us here today.
    Mr. Oberstar. I thank the gentleman.
    Mr. Kagen.
    Mr. Kagen. Governor Doyle, welcome to Washington. I hope 
your stay is profitable and instructive. We need your input in 
terms of where we should be focusing these hard-earned Federal 
tax dollars that we have to invest in America's future. I am 
very proud of the work that you are doing and of our State for 
being one of the leaders not just in the environmental movement 
but also in guaranteeing that people have healthy water and 
healthy air to sustain themselves.
    And, most importantly, I would like to also point out that 
we have a chairman of transportation who brings forward a bill 
and is probably going to vote for this bill, the American 
Recovery and Reinvestment Act, even though Minnesota has nearly 
$100 million less than Wisconsin is going to be receiving in 
this Act. This is just a measure of his graciousness, and also 
it is a bipartisan effort that Congressman Petri and I will be 
working to hopefully deliver a better package to everyone 
across the country.
    So welcome, Governor Doyle.
    Mr. Oberstar. I thank the gentlemen for those observations.
    I also want to say, Governor, I watch your stewardship of 
the State of Wisconsin very closely as I visit my oldest 
daughter and three precious granddaughters who live in Kenosha, 
Noelle Tower and Emma, Lily, Coryn and their father, Todd. You 
are doing a great job there.
    You also have submitted for us through Frank Busalacchi, 
your commissioner, a list of infrastructure projects. So we 
look forward to your discussion of how the State will implement 
this program and comply with the waterfall of reporting 
deadlines, and I ask the staff to pass out this waterfall of 
oversight so that all members may have it and it may be 
available for the public and it also can projected on the 
screen.

   TESTIMONY OF THE HONORABLE JIM DOYLE, GOVERNOR, STATE OF 
    WISCONSIN; THE HONORABLE ASTRID GLYNN, COMMISSIONER OF 
TRANSPORTATION, STATE OF NEW YORK; CAROLE L. BROWN, CHAIRMAN OF 
 THE BOARD, CHICAGO TRANSIT AUTHORITY; AND JOHN D. CLARK, III, 
 EXECUTIVE DIRECTOR AND CEO, JACKSONVILLE AVIATION AUTHORITY, 
    CHAIRMAN, AIRPORTS COUNCIL INTERNATIONAL - NORTH AMERICA

    Mr. Oberstar. Governor.
    Governor Doyle. Mr. Chairman, and to the ranking member and 
Congressmen Petri and Kagen and all the members of committee, 
thank you so much for giving me this opportunity.
    First of all, I want to say this--and I speak for myself. I 
am also here on behalf of the States for Passenger Rail 
Coalition. But I believe that every State in the country feels 
and every Governor feels as I do. We share your view that this 
recovery act should be designed to get people to work and get 
people to work quickly. And so in Wisconsin we have already and 
for the last 3 or 4 weeks been working every single day, trying 
to make sure that we have the projects ready to go, that we 
have cleared out whatever excessive State hurdles may be in 
place, that we will collapse the time that it might normally 
take, while protecting transparency and good competitive 
bidding processes.
    We have already made a review of our labor needs and labor 
availability. And, believe me, there are plenty of people out 
of work who are ready to get to work. We have made a review of 
our construction industry about what the capacity is. Because 
we share with you the goal, which is to get people to work, get 
them to work quickly and get them to work on projects that add 
long-term value to the State of Wisconsin and the United 
States.
    So we will work with you in any way, the reporting 
requirements we will meet. We are your partners here in seeing 
that whatever the dollar figure that comes out is put to use as 
quickly and as effectively as possible.
    I want to thank the Chairman for his extraordinary 
commitment towards recognizing how important infrastructure is 
to the recovery of this country and of the economy; and I also 
want to say I do thank the incoming administration and, of 
course, our great Wisconsin Congressman, David Obey, for the 
work he has been doing to get this country back to work.
    If I might be able to address the rail infrastructure 
issue, because this is one that we care deeply about in 
Wisconsin. There are many other infrastructure issues, water 
quality, roads and bridges, that are also vitally important, 
but I want to focus if I can briefly on the rail 
infrastructure.
    States, and Wisconsin among them, have long believed that 
passenger rail is the missing link in our national 
transportation policy. There are 14 States currently that 
support rail corridor services with State funds. And I am proud 
to say that Wisconsin is one of those 14 States that commits 
State funds every year to support rail corridor services, 
particularly on the Hiawatha line from Chicago to Milwaukee. 
The State of Wisconsin and the State of Illinois share the 
operating costs, and I hope that your family in Kenosha makes 
use of that train.
    The States have been at the center of passenger rail 
renaissance. We have been investing in our street 
transportation funds in quarters that enhance existing Amtrak 
services.
    To show you the kind of strength that was alluded to 
earlier in the comments, ridership on Hiawatha service 
Milwaukee to Chicago continues to increase and set all-time 
records. Year to date, the ridership on this line is almost 28 
percent higher than the comparable time of a year earlier. And 
for anyone who has ever driven from Milwaukee to Chicago, if 
you are in a car, you don't know whether that is going to be a 
4-hour right or a 1-hour ride. But if you are in a train you 
know actually when you are going to leave and when you are 
going to arrive.
    So I am pleased that there is money and a focus in the 
recovery legislation that is directed at Amtrak and for State 
investments in this system. This is a critical time to 
recognize the opportunity for expanding passenger rail 
services. States want to invest; and with the opportunity to 
carry out their plans with a Federal partner, we can lead the 
Nation to a new era of passenger rail service.
    Inner city passenger rail development also has long-term 
benefits. For example, a study of the nine-State Midwest 
regional rail system, of which the Chair has been the great 
champion, shows the full development of this regional high-
speed rail system arrayed around Chicago will produce 57,450 
new permanent jobs, $4.9 billion in increased property values 
in the 102 cities that will be served.
    Wisconsin right now has $137 million in projects with the 
Canadian Pacific Railroad that are ready to go within 90 days. 
The project will complete a substantial portion of the high-
speed rail corridor from Milwaukee to Madison, and it will also 
increase frequencies between Milwaukee and Chicago. And it will 
be part of what we hope is the long-term development--or maybe 
not that long term, but the development of the Midwest regional 
rail system plan.
    So, Mr. Chairman and members of the committee, thank you 
for giving me an opportunity to be here today. We commit to 
work with you to make sure we understand what your objectives 
are to get people working quickly on projects that we can get 
out the door quickly, and we will pledge to do everything we 
can at the State level to make sure that that happens.
    Thank you very much.
    Mr. Oberstar. Oh, it is music to my ears and I am sure to 
Mr. Shuster as well, who raised that issue of rail.
    Ms. Glynn, thank you for your participation, and 
cooperation all the way through this process, beginning late 
last year.
    Ms. Glynn. Thank you, Mr. Chairman, and thank you and 
Ranking Member Mica as well as the other members of the 
committee, particularly those from New York, for allowing me to 
be here today.
    As you said, during the recent debate, we have repeatedly 
heard: Can we meet the need? Is the recovery program sized 
correctly? Can the States deliver a large infrastructure 
program quickly and create jobs to spur the economy? In 
essence, can we answer the new President's call to help begin 
the work of remaking America and provide a new foundation for 
growth?
    And the answer from New York is an emphatic yes. We can, we 
must, and we are ready to do so.
    Soon after Congress settles on the funding levels and 
project criteria, New York can advertise and award a myriad of 
transportation projects. These projects will create both 
thousands of jobs and provide real transportation benefits. 
Based on discussions with other State DOTs, I know that they 
are ready, too.
    Governor Paterson has our State ready to implement the 
Federal recovery program. We have more than $1.8 billion in 
highway projects, more than $1.6 billion in transit projects 
and many rail and an aviation projects all ready to go. That 
investment will create more than 70,000 jobs. Those projects 
are needed, just as the jobs are.
    Last year, we analyzed our transportation system and found 
that we are going to need to more than double our total 
Federal, State and local investment in transportation if we are 
going to have the transportation system that our people need to 
thrive. The story is the same in many other States. You can 
rest assured that States, even in these very difficult times, 
will not only apply any new Federal aid to real infrastructure 
needs but also make every effort to harness all available 
resources to meet the investment challenge that you give us.
    This program will benefit the Nation as a whole, but all 
these programs begin with local choices for growth, community 
and travel. The very projects that bring about economic 
recovery, that put shovels in the ground and that create jobs 
in communities across the Nation will also make our 
transportation system better and help make it ready for the 
demands that we must meet.
    To get the most from the recovery, we will need a diverse 
package, diverse modally, diverse across levels of government, 
which is why we have been reaching out to cities, our towns, 
our counties and our MPOs to make sure that we are all partners 
in preparing the menu of projects for this effort and also 
diverse socially and geographically. Everyone has to have a 
part of this process. States will need to be able to use these 
funds in the ways that best meet their needs, and we have 
processes in place that will allow us to do this. A program 
such as this with short deadlines for use we would suggest is 
best managed by a statewide entity, and we hope that if 
Congress decides to suballocate a portion of the funds that the 
States will have a last clear chance at any suballocated funds 
before they are moved to another State.
    But the economic recovery program needs to be flexible in 
terms of process at the Federal as well as the State level. We 
are looking forward to working with our Federal agency partners 
to make sure that the processes are streamlined at the State 
level and at the Federal level, and we would suggest that you 
may wish to invest the new Secretary of USDOT with the powers 
to make the decisions that he deems necessary to move the 
projects through his bureaucracy as we are preparing to do 
through ours.
    We know that the primary goal of the recovery is job 
creation, but I hope you will not overlook the other benefits. 
They can be substantial. They can move us to asset management 
principles which, as was said earlier, is something we need to 
do more of. We can invest more in transit and rail that will 
give us long-lasting environmental and energy benefits. And the 
recovery program will help us enlist the skills of more diverse 
groups, including small and disadvantaged businesses.
    New York can deliver a significant number of State and 
local highway, rail, transit and airport projects within the 
time frames being discussed in Congress. But we, of course, do 
hope, as was said earlier, that this will not be the end of the 
effort, that this will be a prelude to a more lasting 
investment through reauthorization.
    I know that it will not be easy to find the funds that we 
seek, no matter how great the need. So let me take what little 
time I have left to give you a better sense of the good you can 
do with this effort.
    The projects that we are readying in New York are large and 
small. On Long Island, we are looking at improving the 
structural ratings of historic bridges and extending their 
useful life on some of the parkways that Robert Moses helped 
build.
    We are looking at resurfacing roads in virtually every 
county, again to save millions by investing now rather than let 
them continue to deteriorate.
    We are looking at fixing the I-84 bridges in Putnam County. 
This bill could allow us to start this project 3 years earlier 
and save deterioration and reduce future costs by millions of 
dollars.
    We are looking at providing long-awaited congestion relief 
to the people who daily depend on the Staten Island Expressway.
    And we are looking at improving an important highway that 
connects key business and commercial districts in Oneida 
County, not to mention buying some 400 new hybrid electric 
transit buses that will be used from Buffalo to Broome County.
    So, in closing, I just want to assure you again that we can 
deliver an effective economic recovery program. We are working 
with our MPOs and our cities. We will need to work with them to 
move these projects through the process, and that is how we 
will spend the time you give us. We will be looking to work to 
make sure that the projects that we have ready are indeed 
ready. That is already going on, and it will continue to go on.
    We look forward to working with the Federal agencies, who 
will need to be proactive partners with us throughout this 
effort; and we hope that the work that you are doing here will 
be followed by even more difficult tasks we will all face next 
fall with the reauthorization.
    So, again, thank you very much for the opportunity to be 
here and to assure you of our ability to deliver.
    Mr. Oberstar. That is a strong affirmative statement, and I 
appreciate that very much. Thank you.
    Ms. Brown, thank you for being here.
    Before you begin, let me ask unanimous consent to include 
in the record the formal statement of the ranking member, Mr. 
Mica.
    Ms. Brown. Thank you, Mr. Chairman, Ranking Member Mica and 
the rest of the committee. Thank you for having me here today 
to speak about Chicago's transit needs.
    I need to echo my other panelists' opinion when I say that 
we definitely could spend whatever money comes to our system in 
a 90-day framework. The reason that I am so confident about 
that is because our system is so sold. We are the oldest "L" 
line in the country. Our first "L" line was built in 1897, our 
oldest subway line in 1943.
    We have got a $6.8 billion need just to bring our system up 
to a state of good repair. That doesn't include our 5-year 
capital plan, which is fully funded; and it does not include $4 
billion in expansion projects.
    Our system is old. Our largest maintenance need is for rail 
mod. That is $4 billion for signals, structure, track and 
stations. We need approximately $1.2 billion to repair and 
replace an aging rail fleet. Twenty-eight percent is over 32 
years old. As you know, the FTA standard is for 25 years.
    Of our 2,200 buses, 15 percent are past its intended life. 
The FTA standard, as you know, is 12 years. So I don't need to 
tell this committee that there are significant needs for 
transit and the importance of transit.
    As Ranking Member Mica pointed out, investment in transit 
creates jobs but also saves our region almost $800 million 
annually in time and fuel. And so without the transit network 
and with the investment in the transit network we can save our 
region $800 million included with adding jobs.
    In fact, Metropolis 2020 estimated that for every dollar 
invested in transit in our region it returns $1.34 in economic 
benefit. And so we have always looked at this package as not 
only a jobs bill but also an economic development bill. For us 
to spend the money we need to have the money flow quickly and 
directly to CTA using a streamlined process, not being held up 
through the State or the regional level.
    We believe that we can obligate up to $500 million in the 
90 days to fix our slow zones on our rail system to buy rail 
cars and buses. That would crate an additional $670 million in 
economic benefit in our region, including over 1,000 
construction jobs in Chicago and hundreds more in places like 
St. Cloud, Minnesota, where New Flyer manufactures our buses.
    Again, our economic recovery bill could not only make it 
better for our riders in big cities like Chicago but also for 
workers in small towns like St. Cloud, Minnesota. So this still 
is an investment for us, but it is also an investment for the 
economy of the region. We think that the package that was 
advocated could help meet the goals of strengthening 
transportation infrastructure, reducing the country's oil 
dependence and creating green jobs; and so we believe a robust 
investment in transit is critical. We believe that more money 
for transit would help to improve the job situation and 
economic situation in our region.
    I don't need to remind the committee that issues facing 
public transit are not just Chicago's. In fact, just this week, 
I was one of those million people who were on the Metro system 
in D.C. going to President Obama's inauguration. I don't need 
to ask you what you think the city would have been like if 
Metro hadn't been there.
    But despite the fact that national ridership in 2008 
reached a 50-year high with over 10 billion trips, agencies 
like CTA in Chicago and D.C. And Atlanta are talking about 
reducing service and raising fares because the investment just 
isn't there.
    And so, in closing, I would just like to thank you all for 
your continued commitment to invest in an infrastructure in 
this region. I would like to thank you for your commitment to 
creating jobs in economic development in the country. And I 
would be happy to answer any questions.
    Mr. Oberstar. Thank you very much for your presentation.
    Splendid observation. You are so right about the Metro. If 
we hadn't had Metro, they could have used 10-car trains, 8-car, 
and normal 6-car trains.
    Does the gentlewoman from Florida wish to introduce our 
next witness?
    Ms. Brown of Florida. Yes, Mr. Chairman. It is my pleasure 
to introduce Mr. John Clark, who is over at the Jacksonville 
Airport Authority. He is going to make a presentation.
    I have to mention that my director of JTA, our transit 
authority, is here, also, Mr. Mike Blaylock. Just wave your 
hand.
    The airport has tremendous needs, and I guess I am just a 
little stunned. I am very disappointed with the transit 
package. I do think that we, as Members of Congress, need to do 
our job. We have a coequal branch of government. That is why I 
want to thank you for having this hearing to lay it out. But we 
need to put a package that makes sense. And we know for every 
billion dollars that we spend on transportation it generates up 
to 47,000 permanent jobs.
    You said that my constituents was on the transit system 
here and, you know, even though it worked somewhat--I can't 
believe it. My people were 4 and 5 hours trying to get on the 
transit.
    So we must build up and put money in the system that makes 
sense--intermodal, airports, trains. We are the caboose when it 
comes to rail in comparison to our competitors. Whether it is 
the Japanese or Chinese, it goes on and on. We need to move the 
country forward.
    The key is jobs, jobs, jobs. When you think about where we 
are, a person cannot buy a car if they don't have a job. And we 
know when we invest in transit it generates permanent jobs.
    So thank you, Mr. Chairman; and I do have some questions at 
the proper time.
    Mr. Oberstar. Thank you, very much.
    Mr. Oberstar. Mr. Clark, please proceed.
    Mr. Clark. Chairman Oberstar, Ranking Member Mica and to my 
Congresswoman, Corinne Brown, thank you for this opportunity to 
participate in this very important hearing.
    As my Congresswoman said, my name is John Clark. I am the 
Executive Director and CEO of the Jacksonville Aviation 
Authority.
    I also serve as the 2009 chairman of Airports Council 
International for North America. We represent 366 member 
airports in planning more than 95 percent of the domestic and 
virtually all of the international air passenger and air cargo 
traffic in North America. We have nearly 400 aviation-related 
businesses that are associated with Airports Council 
International, providing goods and services to the airports.
    Mr. Chairman, before I begin my oral remarks, I would ask 
that may full written testimony be submitted for the record.
    In my 25 plus years of working in the field of aviation, 
which primarily has been working at several different airports 
around the United States, from California to, most recently, 
Florida, I can tell you without exception, other than the 
situation that occurred after 9/11, I don't think I've ever 
seen our industry in such a critical position.
    Clearly, airports are tied to the fate of the airlines and 
air traffic, but at the same time airports must maintain 
facilities and meet passenger needs. And as we look to meet 
those needs we must always ensure that we are the catalyst to 
ensure that infrastructure is in place to ensure the current 
and future operations of our airports. While airports must be 
financially responsible businesses and be responsive to market, 
it is also our responsibility to ensure that our system is 
safe, secure and efficient.
    Airports throughout the United States are currently facing 
reduced passengers, fewer flights, less competition from 
service and unsecure financial markets. Yet we are committed to 
maintaining our facilities and readying the airport for the 
return growth over the next several years. It is anticipated 
that that growth will be better than 25 percent over the next 8 
to 10 years.
    Airports financing is extremely complicated. Any one 
individual project at an airport can rely on several sources 
for funding. Those sources would include bonding, passenger 
facility charges, airport improvement funds, locally generated 
revenues from aeronautical users, parking and other concessions 
associated with airports.
    Since the creation of the Airport Improvement Program in 
1982, AIP has distributed over $45 billion in grants, 
accounting for over 2000 grants to over 1,500 airports 
annually, to enhance safety, security, capacity and 
environmental compliance of our Nation's airports.
    The best way to accomplish the quick flow of funds from a 
stimulus package in the airport arena is through an AIP 
program. Let me explain why I believe this is the case.
    To be eligible for an AIP grant, airports must meet the 
following criteria: They must be publicly owned or privately 
owned but designated by the FAA as a general agent reliever 
airport or privately owned but with scheduled commercial 
service and at least 2,500 annual enplanements. Airports must 
be included in the NPIAS, National Plan of Integrated Airport 
Systems.
    Projects which are eligible for AIP grants include those 
related to enhancing airport safety, capacity, security and an 
environmental concerns. In general, airports can use AIP funds 
on most airfield capital improvements or repairs except for 
things like terminals, hangars and nonaviation development. Any 
professional services associated with such programs are also 
eligible, such as planning, surveying and design. Aviation 
demand at the airport must be justified, which also meets the 
Federal environmental and procurement requirements. Hence, AIP-
approved projects are largely construction projects that help 
produce good-paying engineering and construction jobs. 
Furthermore, FAA uses a comprehensive oversight to ensure that 
these projects are in compliance.
    I believe in October of 2007, through a report of the 
Department of Transportation, found that the FAA effectively 
insured the highest priorities of projects were funded, meeting 
our systems need. So embedded in the AIP program administered 
through the FAA we believe the accountability is established.
    Furthermore, in this program is the opportunity to ensure 
that disadvantaged business enterprises also share in the 
opportunities associated with building our Nation's airports.
    There is a current requirement to have a local match. We 
are asking this committee's consideration to waive that or to 
adjust that during this time. Because, as airports are 
challenged with less revenues, in some cases to meet that 
matching requirement may be difficult. But if these projects 
are to be done in the 30, 60, 90-day time frame, we would ask 
that there would be consideration to a temporary waiver.
    Additionally, beyond AIP projects, we would ask that this 
committee would also support the amendment on the alternative 
minimum tax. I know in another committee of Congress that has 
been taken up, and we do support the elimination of the 
alternative minimum tax.
    I will wrap this up. I have plenty of examples of airports 
that are needing of the money that could immediately put 
infrastructure in place, creating jobs and also long-term 
investment into our aviation system.
    I have run out of time; and I thank you, Mr. Chairman and 
members of this committee, for the opportunity to present. 
Thank you.
    Mr. Oberstar. Thank you very much, Mr. Clark.
    I will just start with you.
    You mentioned the FAA process for evaluating projects under 
the NPIAS, National Plan of airports. Do you continue to 
believe that process is fair, equitable and responsive to the 
needs of airports across the country?
    Mr. Clark. I do, sir. If I look at the years that the 
program has been in place, clearly, communities could say that 
the process is a little slow from time to time. But, overall, 
the accountability is there. The projects are vetted, they are 
prioritized, and, therefore, the investment into the overall 
system I think is a fair and equitable system.
    Mr. Oberstar. We have never allowed earmarking of aviation 
projects in this committee in the years I chaired the Aviation 
Subcommittee, in the years Mr. Mica chaired that subcommittee 
in the years prior to my chairmanship. Because we have always 
felt that it was open, clear, fair. It is unlike the highway 
program, where improvement in a highway in northern Minnesota 
doesn't do anything for Boston. But improving Boston Logan 
means better access from the east coast to the heartland to the 
south to the west and vice versa.
    So your assessment I think is very important, and you have 
reviewed the list of projects that FAA has selected and they 
meet our criteria? Are you saying that? They have been through 
the environmental review process, through design and 
engineering down to final designing and engineering. They can 
be under construction within 30 days of receiving, that is, 
bids issued within 30 days and within 40 days contractors on 
the job.
    Mr. Clark. Based on our discussions, we believe that we, 
the airport community, have projects that are ready and if the 
funding were there--and in some cases, like I said, the local 
match may be a challenge because of reduced revenue 
opportunities experienced at the airports, but I would tell you 
that they are absolutely ready.
    Mr. Oberstar. Thank you.
    Governor Doyle, just completely by coincidence this 
morning, I saw in the daily newspapers in Virginia and 
Minnesota in my district, Bill Hanna, Executive Editor, wrote 
of his travel by train from Minneapolis through Wisconsin to 
Chicago, then to Alabama in 1965. In a way, nostalgia, saying, 
we need to be able to do that again.
    Now, I am greatly encouraged with your comments about your 
enthusiasm for intercity passenger rail and reviving the 
Midwest High Speed Passenger Rail Initiative that 20 years ago 
then Governor Rudy Perpich and I launched.
    Now Mayor Daley and Mayor Coleman--need I say Mayor Daley 
of Chicago? I don't think you need to say that. Just say Daley, 
and Chicago is synonymous--and Mayor Coleman of St. Paul got 
together at my request and are developing a coalition of mayors 
and governors and local governance individuals and private 
sector to--under the Mica-Brown Amtrak resuscitation 
legislation- to launch that initiative.
    That may be a little longer term than we envisioned in this 
stimulus package, but I still believe we should have had the $5 
billion at a minimum for stimulus. Because there are Amtrak and 
other intercity passenger rail projects that are ready to go, 
that can create jobs, and those are very intense and very good 
jobs and very job-intensive work on building rail, putting 
ties, switches and electrifying routes that need to be 
electrified.
    For you, are there sufficient numbers of contractors with 
capacity to bid on the projects that Commissioner Busalacchi 
has set forth, a copy of which I have here.
    Governor Doyle. Yes, there are. As I remarked earlier, we 
made a survey of the contractors, of where they are. Like in 
most States, we have a large number of road contractors that 
are on the brink, a lot of workers out of work that can get 
back to work right away. There is a lot of capacity in the 
workforce to get to work.
    So this is one of the--as we have watched this develop, we 
are not sitting there passively. We understand there is very 
likely to be--I don't want to presume you are going to do 
anything, but it is very likely something will be coming out of 
Congress at a very large scale, and we are working today and 
yesterday and a week ago to make sure that capacity is there.
    If I could say on the rail, without getting overly 
nostalgic, but the final chapter of one of the great American 
novels, Great Gatsby, the Great Gatsby is the narrator riding 
on a rail from Chicago back--from the east back to his hometown 
of St. Paul and crossing through the Wisconsin countryside. So 
when we get that high-speed rail built, let's call it the 
Gatsby Express, and it'll be a great thing.
    Mr. Oberstar. Thank you.
    Well, I assure you that the Great Gatsby was not Bill 
Hanna. He is the great Bill Hanna, but he writes well about 
this.
    Now, CBO has this problem. They say States will not be able 
to handle this large influx of funding. Your commissioner of 
transportation, your colleagues among the governors and their 
departments of transportation, says the CBO, will not be able 
to move this money out within this time frame that we have 
imposed.
    Seven days from signing into law, DOT--OMB will allocate to 
DOT their proportionate share. The Federal Highway 
Administration then will notify the States of their 
suballocation. That is, their incremental apportionment of the 
funds. And then, within 10 days of that, we expect the 
governors to sign off on their program of projects. They will 
commit to these projects, maintain the existing flow of 
projects from the current fiscal year 2008 and do these 
additional projects at the same time.
    In effect, they are saying you can't walk and chew gum at 
the same time. Can you do this?
    Governor Doyle. Well, we are going to do it. We want to get 
people to work. And so I recognize that that time limit puts us 
up against an enormous challenge, but it is a challenge that we 
have to meet to get people to work. And we will meet it. And we 
can meet it, as difficult as it is.
    And, as I say, I think we are typical of most States; and 
we are already looking at our process. We are figuring out 
where we can shorten the let periods, how we can streamline 
this process to get it done within the time line that you put.
    So the answer to the question is, we want to do--we all 
have the same objective, getting people to work quickly; and we 
will do what we have to do at the State level to make sure that 
that happens.
    Mr. Oberstar. Have you identified conformity issues? Can 
you advertise bids in advance of project approval?
    Governor Doyle. We have identified conformity issues, and 
we can submit some of those which we see are the problems. We 
are looking at what we can put out before actual issue. We are 
looking at what State regulations may have to be changed. We 
have a legislature that is ready to act immediately as part of 
this. We are going to have a State stimulus package that will 
meet the needs of the Federal stimulus package to make sure 
that we are aligned with what your timetable is and with what 
you want to have done.
    The worst tragedy of this would be that the money was there 
and that we would all be stumbling around. I am not going to 
let that happen in Wisconsin, and I do not think there is a 
Governor in the United States that is going to let that happen.
    Mr. Oberstar. Could I invite you to be Governor of 
Wisconsin and of Minnesota?
    Governor Doyle. Well, I have great respect for the Governor 
of Minnesota. As you may have seen, we have recently announced 
ways that, in this budget crisis, we are going to look for ways 
that Wisconsin and Minnesota can actually do things together.
    Mr. Oberstar. He needs a lot of help because he said the 
investment we proposed does not do anything for the budget in 
Minnesota. Fortunately, our legislature has a different view.
    Mr. Mica.
    Mr. Mica. Thank you. I think we have already hit some of 
the problems on the head. Some of the problems have been 
created by Congress. I think Governor Doyle, Commissioner 
Glynn, Ms. Brown, and Mr. Clark have all talked a little bit 
about the process.
    I heard you talking. One of the big pieces that I want to 
put in the next reauthorization is, I call it the Mica 437-day 
plan. The 437 days are the number of days it took to construct 
the bridge over the Mississippi River that collapsed in 
Minneapolis. Mr. Oberstar star and I were on the floor when 
that occurred. We acted immediately. I stood on that bridge 
when it was very near completion, and it was done on time, well 
within budget, in 437 days. I will ask the staff to go back to 
our hearing of when we asked the commission that was created by 
TEA-LU to look at how we could improve this process for the 
next reauthorization.
    Tom Scancke from Nevada, who is on the commission, and I 
got into a little discussion on process. He said, when you add 
one Federal dollar to a project, it adds 14 years to the 
delivery time. Then he said, for a $1 billion project today in 
2008 dollars, by the time the project is completed in 2022, the 
cost to the American taxpayer public is an additional $3 
billion to $4 billion.
    Is that your take on it, Governor?
    Governor Doyle. It is a long process.
    For all of you who hear from your constituents about 
projects in your districts that are coming through State 
transportation departments and authorities, it is a long 
process.
    Mr. Mica. Well, I will tell you what. We all need to work 
together, every one of us, to get provisions in to move this 
process forward.
    The problem Mr. Oberstar and I are having is we have gone 
three times now to put together packages, and we get into 
arguments. We have a new OMB and a CBO, but they come back and 
say, well, you can't spend the money fast enough. Then I asked 
staff also to look at some existing balances. For example, we 
have got money in here for the Corps of Engineers. I have 
projects all up and down my district. You all have projects. 
This is what I am told:
    The Army Corps of Engineers' water construction account, 
unobligated balances--money that has been appropriated but not 
yet obligated--is projected to reach $3.2 billion by the end of 
this year.
    Let me give you another one. We have got money in here Jim 
and I both agreed on. Even though they cut us down some on 
public buildings, from $9 billion to $7.7 billion, the GSA has 
$3.3 billion in unobligated balances for Federal buildings, and 
we are going to give them another $7 billion.
    So the problem we have got is moving money through the 
system. Do you agree, Governor?
    Governor Doyle. I agree. It is one of the reasons we have 
to get all aligned and moving very quickly.
    Mr. Mica. Commissioner, what do you think? Am I whistling 
Dixie or is this the whole truth and nothing but the truth?
    Ms. Glynn. Well, fortunately, those bundles of projects 
that we have teed up have already gone through that extended 
process.
    Mr. Mica. Well, yes.
    Again, we go down there. We started out with 90 days. It 
has been moved to 120 days. Then you have got 180 days. Then we 
will turn around the money, but then we get beyond that, and 
you have got pent-up projects.
    I have a little community that was hit by unprecedented, 
500-year flood rains and everything. We had approved money for 
water removal system drainage and all of that, and everybody 
was going crazy saying, well, the city residents voted for a 
bond to support the Federal money and other money. So I got 
down there, and I said, well, what is the problem? It ends up 
it is in an agency with this long list of approvals; that this 
approval has to be done before that approval. I am not talking 
about running over any of the environmental stuff, but we have 
got to put this in fast forward, a 437-day plan.
    Are you going to support it, Ms. Brown?
    Ms. Brown. Yes, I will.
    Mr. Mica. For the record, she said she is going to support 
it.
    Ms. Brown. We are always robbing Peter to pay Paul, if you 
will, to get our projects done. So, for us, we have identified 
the projects. We are ready to go, and we have in place the 
processes to make sure the funds are obligated as soon as we 
have them.
    Mr. Mica. Well, hopefully, we have made a point here.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you, Mr. Mica.
    I also want to point out that regardless of how the 
legislation turns out, if there is language for 120 days or for 
the 180 days, no State is required to take 180 days. This is 
what CBO has told the Appropriations Committee is the time 
frame in which they believe that money can be spent. We expect 
you to do it in 30 days, and you have said you can do it. Ms. 
Glynn said you can do it. Ms. Brown said you can do it. Mr. 
Clark said you are ready to do it. Mr. DeFazio is going to say 
you are going to do it.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Ms. Brown, I thought your testimony was particularly 
compelling. You say there is $500 million out of your $5 
billion of deferred maintenance that you could commit within 90 
days.
    Ms. Brown. That we could obligate within 90 days, yes, sir.
    Mr. DeFazio. No problem.
    Ms. Brown. No problem.
    Mr. DeFazio. You do not have any contracting rules or 
publication requirements or bid specifications or anything that 
is going to drag you out here?
    Ms. Brown. Well, as I said, Congressman, we are always 
resource-constrained, so for many of our ongoing maintenance 
projects, we do those processes, and then we do them contingent 
upon funding.
    Mr. DeFazio. So you put them on the shelf, ready to go?
    Ms. Brown. Yes, sir. We are ready to go.
    Mr. DeFazio. You have got $500 million ready to go?
    Ms. Brown. If you write me a check today, I will be 
spending the check tomorrow.
    Mr. DeFazio. Well, we want to do that. I just want to point 
out, then, that under the provisions that we are proposing, if 
there are other agencies less equipped and less capable than 
you, then that money would be recycled through the system and 
would be channeled back, because under the bill as proposed, 
you are only getting $280 million, which is about half of what 
you could commit without any problem in 90 days.
    Ms. Brown. Right. It is less than 10 percent of what we 
need, so the more the better.
    Mr. DeFazio. Right. Some of those examples you used went 
far beyond Chicago. We are talking about buying power, 
basically, right? You talked about buses.
    Ms. Brown. We have an option right now with New Flyer that 
cannot go forward--New Flyer is based in Saint Cloud, 
Minnesota--because we have not identified the funding. That is 
hundreds of jobs in Minnesota, and we are one of their largest 
customers. So, yes, it goes well beyond the city of Chicago and 
the Chicago region.
    Mr. DeFazio. So we are very likely to get to at least the 
multiplier flagged, you know, that we have consistently talked 
about. We are saying, when we invest so much, we create so many 
jobs. Here, you are talking about not only in Chicago are we 
going to have the direct jobs, the construction, the more 
efficient movement of people, et cetera, but we are creating 
jobs in Minnesota and perhaps elsewhere where there are 
suppliers for New Flyer.
    Ms. Brown. Exactly. Our factory that does our railcars is 
located in another city in the United States as well. So, 
again, that is more jobs. And if we could do more railcar 
orders, then that would create more jobs in the region outside 
of Chicago.
    Mr. DeFazio. Excellent.
    Mr. Oberstar. How soon can your railcar producer begin 
construction on facilities that you order?
    Ms. Brown. Well, we have a major order right now going on 
with Bombardier, so we already have a place in line. As you 
know, that is the big issue with capacity in a place in line 
with the railcar orders, and so I believe and I am assuming we 
can increase that order.
    Mr. Oberstar. You have existing contracts, you are saying?
    Ms. Brown. We have existing contracts with Bombardier. We 
have options to increase that order if we had funding 
identified.
    Mr. DeFazio. One other quick point in transit. As you know, 
at the insistence of some people who, I think, are not 
enlightened, the operating assistance has been stripped out of 
the package. Your budget is, obviously, you know, inadequate in 
total. So if you have to take more money into operating, you 
are having to transfer from part of your deferred maintenance 
or deferring that out further; is that correct?
    Ms. Brown. Yes. The challenge also is most people do not 
understand that no transit agency in the country pays for its 
operating costs through its fares. So, even though it sounds 
counterintuitive, as ridership goes up it strains our operating 
budget. So, if there were operating assistance, then we could 
expand the capacity of ridership and do what I think, from an 
environmental standpoint and from an economic standpoint public 
transit is designed to do; it enhances economic development, 
but it is also great for the environment. So the operating 
assistance was something we were very excited about because we 
get none from the Federal Government right now, and it is 
always a challenge for us and for other large urban agencies.
    Mr. DeFazio. I will point out, as far as I know, no transit 
system in the world operates at a profit. I believe, when I was 
in Barcelona, we were told that their unbelievably overcrowded 
line where they are using pushers, like in Japan, is about at 
that point, but as soon as they add their new line where they 
are spending $9 billion, that will drop off. It is not a 
desirable thing that you can put that many people in that small 
a thing.
    Governor Doyle, again I do not want to recapitulate and 
recapitulate, but is there a barrier in your advertising 
guidelines, in your bidding guidelines? Are there absolute 
barriers that would preclude you from committing this money?
    In addition, one argument we hear is States are already 
flat-out just trying to get into the next construction season, 
let the contracts that they already have programmed. And if you 
add this on top, either those will go away so you have no net 
gain, or they will not be able to do it.
    Can you address that?
    Governor Doyle. Well, in the road world as well, deferred 
maintenance is all sitting there, ready to go very quickly. It 
does not take big design plans. It can move very quickly. For 
example, at the level that is currently in the bill, about 80 
percent of that would go to maintenance projects, major 
projects, but not big new-start sorts of things, and those can 
move very, very quickly.
    To be direct, there are a few little parts of our law and 
of our process that would be very difficult to do in the 90 
days, but those can all be changed and streamlined and 
improved, and that is what we are doing right now. So we want 
to make sure there is still a good, fair, open bidding process. 
But some of the time limits that are in there for the bids to 
go out and to come back and the challenge periods and all those 
sorts of things, that are very good things and that are there 
in normal circumstances, we can collapse all of those. So we 
are, as I say, very hard at work right now.
    Mr. DeFazio. Do you do it administratively?
    Governor Doyle. I believe most of them are administrative. 
If any of it is legislative, we have talked to our legislative 
leadership. There is not going to be any barrier on getting 
this thing done immediately.
    Mr. DeFazio. Well, let us say you had a less enlightened 
legislature or that you were a less enlightened Governor. Do 
you think that the prospect of using it or losing it would lead 
one to getting the legislature or the Governor to make the 
changes necessary to spend the money? Do you think that would 
be an incentive?
    Governor Doyle. It sure would to me. I think any Governor 
would have a pretty hard explanation about why the State next-
door or the other State is actually using the money while they 
are losing the money.
    Mr. DeFazio. In fact, maybe getting their money if they 
could not spend it.
    Governor Doyle. I think use it or lose it, obviously, is an 
enormous incentive to get this done. I want to emphasize that I 
think most people--I would hope all Governors and State 
representatives understand we are in an economic crisis in this 
country and that the purpose of this recovery act is to get 
people to work. We are not trying to find barriers to get that 
done. We want to be there and make that happen.
    Mr. DeFazio. Thank you, Governor.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Mr. Petri.
    Mr. Petri. Thank you.
    First, I just want to make one observation, which is, it 
may be a little counterintuitive but true, that if we really 
want to stimulate the economy and get jobs out there, saying we 
have to do it real quick is not going to be as effective as 
saying we have a 5-year plan to ramp-up needed spending on 
infrastructure so that people can build factories to make more 
equipment and to enter into contracts.
    This is not a simple, easy business unless you are just 
shoveling dirt. You are talking about a whole system of 
production which involves factories, making equipment and 101 
other things. I agree we want to fill in as quickly as possible 
to stabilize the economy, which we are doing, in part, by 
helping State and, hopefully, local governments maintain 
employment.
    Mr. DeFazio. Would the gentleman yield for a second?
    I just want to say we want to do both. The short term is a 
down payment. I think I made that point in my opening remarks. 
We have much larger long-term needs that we have to plan for.
    Mr. Petri. To really be effective, someone is not going to 
build a factory or order more equipment if he perceives it as 
possibly being a one-shot thing. So we will just be utilizing 
assets that might otherwise be idle in the short term, but we 
will not really be turning things around, I fear.
    Governor, as it does others, the size of this troubles me. 
You list in your testimony $137 million that you feel are ready 
to go in rail projects in Wisconsin and in 5 of the other 50 
States. I added it up. It is nearly $1 billion. It is $900 
million or $850 million of projects in just five States.
    Could you talk a little bit about the Wisconsin part of 
it--the $137 million of projects that, I think, have already 
been more or less certified? You would be working with the 
Canadian National Railroad and other people to upgrade tracks. 
How quickly would that work, and what would be the benefit of 
it?
    Governor Doyle. The work would be done. There are two major 
components of it.
    The first is to add capacity to allow more freight trains 
between Milwaukee and Chicago, a desperate need, and that can 
be with the current contract. We can be moving on that 
immediately.
    The second is to extend passenger rail service towards 
Madison. You would understand this, Congressman. It would go to 
Watertown, which is where the right-of-way is all in place. 
What we need to get moving on it is all done.
    As to putting the rail in the context of what you just, I 
think, very wisely recognized about the need for this to be 
part of a longer-term plan, the rail improvements, Chicago to 
Milwaukee, are needed immediately. The rail improvements we 
would make from Milwaukee going to Madison really would have to 
be seen in terms of a much longer-term commitment made by this 
Congress and made by the State of Wisconsin and by our 
adjoining States to a passenger rail service.
    As you know, in having the train go from Milwaukee to 
Watertown, if that is all it finally ends up doing, it is not 
going to help much. But if it goes from Milwaukee to Madison 
and then, hopefully, on to the Twin Cities, that would be 
tremendous. Connecting Chicago to Milwaukee, to Madison, to the 
Twin Cities would bring tremendous economic benefits to our 
region of the country. So it is a good example of what you were 
just saying about this package being a down payment on a 
longer-term infrastructure vision.
    When you are talking about rail, we can make major 
improvements that will help us now, immediately, where we can 
get the money out the door right away; but it will be part of 
the bigger picture in which we hope to build a real passenger 
rail service in the country, including not only just the 
trains, but we hope we are going to create passenger rail 
manufacturing capacity in this country as well.
    Mr. Petri. Thank you very much.
    Mr. Oberstar. I thank you, Governor, for those comments. 
That is very uplifting.
    This morning, I met with the Upstate New York congressional 
delegation and Amtrak and the Federal Rail Administration on a 
similar high-speed passenger rail initiative to link Upstate 
New York and Albany and New York City. They are fired up about 
it. It can work. We have got to transform America in this way. 
So I invite you to join and to partner with Mayor Daley and 
Mayor Coleman in getting this moving.
    Ms. Brown.
    Ms. Brown of Florida. Thank you, Mr. Chairman.
    Before I get to Amtrak and to rail, I have just one 
question for the Governor.
    After 9/11, we passed a Jobs and Growth Tax Relief Act, and 
we sent money directly to the States. My Governor at the time, 
Jeb Bush, took the money and used it to subsidize a biotech 
company that did not work, and the citizens of Florida did not 
benefit. That money was supposed to help with social services.
    What assurances do you have for Congress that you all are 
going to take the money, are going to use it like we said, and 
are not going to supplant our money and use it on other 
projects?
    I know it is very hard to pass a bill and for all of the 
Governors to do the right thing. A lot of the Members have a 
lot of confidence in the Governors. Sometimes I don't have as 
much confidence in them, so I think we need to spell out what 
it is we expect.
    Governor Doyle. Well, as I understand the bill, it is going 
to have some very, very strict reporting requirements. I can 
say again, on behalf of Wisconsin, we will meet those reporting 
requirements to show you that we are doing what the bill was 
intended to do.
    Ms. Brown of Florida. Also, Ms. Glynn, we met with the Tri-
Caucus: the African Americans, the Hispanics and the Asians. 
There was a concern, particularly about New York, like my 
grandmother's sweet potato pie, that if we pass this bill, 
minorities and females will not have an opportunity to 
participate. Some local governments have some provisions that 
are not favorable because of training or bonding.
    What assurances will we have, if we are going to send 
billions of dollars to New York and to other places, that the 
people who need the jobs the most are going to have an 
opportunity to participate?
    Ms. Glynn. Well, that has been one of the priorities not 
only for the DOT but also for the administration over the last 
year. We are working very aggressively with our DBE community 
to make sure that they are aware of what projects are under 
consideration and what skills are likely to be needed. One of 
the things we are going to be pressing all of the construction 
industry on is that we have good-faith efforts that result in 
good participation, not simply good paperwork.
    As a matter of fact, we are holding a DBE conference in New 
York City on February 4, where we hope to attract a number of 
existing and potential DBE firms, and we look forward to the 
attendees at that conference being part of how we deliver this 
package.
    Ms. Brown of Florida. The next question, back to Governor 
Doyle.
    The Chairman and we had recommended $5 billion for rail. 
Now it is $1.1 billion. I hate to say, well, if we cannot get 
this right, I will not vote for the bill.
    What recommendations do you have? Because, you know, the 
administration and the Members of Congress have been talking 
about rail and about how we need to move this country forward 
and about how we need to be green. The fact is, this bill does 
not offer any hope for passenger rail in this country. I mean, 
it is a poor marker.
    Governor Doyle. I guess I have learned over time that I 
should not be telling Congress what number they should put in. 
Obviously, we are in a position in Wisconsin that if that 
number is bigger we will put more money to work in passenger 
rail.
    Ms. Brown of Florida. Well, will it work if we put the 
money there?
    Governor Doyle. The money that is there would work in 
Wisconsin. More money will work better in Wisconsin.
    Ms. Brown of Florida. In your testimony, you mentioned that 
a number of States have passed ready-to-go projects. How many 
jobs do you foresee that you all could generate? How many jobs? 
If you got X amount of money, how many jobs would it generate?
    Governor Doyle. From the current level?
    Ms. Brown of Florida. Yes.
    Governor Doyle. We estimate in Wisconsin that it would be 
somewhere between 5,000 to 7,000 jobs, and these are good jobs. 
The multiplier of that would just be from the construction 
package we are talking about. There are many other parts of 
this bill--hospital construction, public school pieces and 
others--that would add many more than that, and those are all 
good jobs that add a great deal to our economy.
    Ms. Brown of Florida. Thank you.
    Mr. Clark, I want to ask you a question. You said that you 
all are ready to go, you have your projects ready to go. But 
mainly you talked about the Alternative Minimum Tax. How does 
that affect this package? I was a little confused about that.
    Mr. Clark. Well, in many airport projects that are dealing 
with the Alternative Minimum Tax, airports will go out and will 
get financing from the bond market. If it is considered a 
public use, then you can get an exemption from that. Other than 
that, it is all treated as though it is a private use. Right 
now, with the financial market being constrained, airports, 
even though they have a credit rating, cannot get the funding.
    What we are hoping to do is to be able to change that to 
help loosen up airports' ability to go out and borrow money, 
which actually helps to build the infrastructure and to create 
jobs. The way the legislation is proposed now it is just 
basically for a 2-year period. Our belief is that, while there 
is a crisis now, that is something that can help us even long 
term, so we get the opportunity to fix the situation for now 
and into the future.
    Ms. Brown of Florida. How important is the waiver of the 
AIP program?
    Mr. Clark. I think it is pretty significant because 
airports now--like I said, with the loss of potentially some 
revenue sources, it may be more difficult for the airports to 
come up with the matching fund. It also considerably adds an 
element of time delay, so we are asking that there at least be 
some consideration to that.
    Ms. Brown of Florida. Last question. How many jobs will you 
be able to create in addition to that? I know safety is a very 
important factor for what you all are doing with the airports.
    Mr. Clark. Congresswoman, I cannot sit here and tell you 
exactly how many jobs will be created. Unfortunately, I am not 
prepared to do that, but I can give you by way of example.
    In Jacksonville, we have two projects that are slated, 
representing about a $6 million project to deal with security 
fencing and a runway overlay. We are estimating that will 
create, roughly, 100 to 110 jobs directly.
    Ms. Brown of Florida. Thank you. Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you, Congresswoman Brown.
    Before I go to our next member, I want to read "just in," 
as they say, this news just in from the Office of President 
Obama on the CBO report.
    "The CBO does not fully reflect the extraordinary steps 
being taken to invest quickly and effectively. The CBO is 
conservative," says the President, "about spendout rates, and 
it does not reflect the extraordinary actions the 
administration, State and local governments will take to combat 
the worst economic crisis of our lifetime--shortening the 
deadline for Federal agencies to commit funds, setting 
deadlines on the Federal awarding of formula grants, specific 
deadlines for State and local governments to commit funds they 
receive for infrastructure, specific focus on ready-to-go 
projects."
    It looks like they have embraced the Transportation and 
Infrastructure Committee program. Elections make a difference.
    The gentleman from North Carolina.
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Chairman and Mr. Ranking Member, I have been in a 
Judiciary hearing. So I apologize for my being late in my 
arrival. I have missed a lot of the testimony. It is good to 
have the panel with us.
    Let me make a general statement, Governor. I will start 
with you. There has been much discussion about projects that 
are shovel-ready. I am told that the only thing that many of 
these projects lack is funding to begin construction, meaning 
that it is completing all environmental and application 
processes. Provide for us, if you can, Governor, and other 
members, some detail on projects that meet this threshold and 
detail plans for the projects to go forward without a stimulus 
versus with a stimulus.
    Finally, let me say this. American taxpayers are growing 
increasingly skeptical of Congress and of our spending habits. 
Personally, I believe that infrastructure, Mr. Chairman, is an 
investment that is important, but at the same time, I am 
concerned about our Nation's checkbook.
    How would you defend this investment to the taxpayer, 
Governor? What mechanisms should be included to ensure these 
dollars are spent effectively? That is sort of an elaborate, 
two-part question.
    Governor Doyle. Well, as to the first part of it, I would 
be happy to provide you a list of the projects that we have 
that are shovel-ready. These have been designed. They are ready 
to go, and they are in our queue, and they are not going to be 
funded for many, many years to come. I will give you an 
example.
    We are in the process of a major interstate improvement 
between the city of Milwaukee down to our State line towards 
Chicago, and we have projects that are not planned to be 
started for quite a number of years. There are intersections 
and bridges along that road that we can get going immediately 
with the stimulus package. We also have a long list of deferred 
maintenance programs on our roads and bridges that are all 
ready to go and that will continue to be deferred in this very, 
very difficult economic time unless the stimulus package is 
there. That is just on roads and bridges.
    We talked earlier in my testimony on rail on projects that 
we do have ready to go. We have existing contracts with 
railroads to do the improvements, but the funds are not there 
to do them. So we can get money moving out the door 
immediately.
    I will say this. On the second part of the question, in the 
way I talk about it in Wisconsin, I think most people in the 
State of Wisconsin understand this, which is that we are moving 
into a very difficult economic time. Our unemployment rate in 
the State in the last 2 months has increased at a higher rate 
than at any time since the Great Depression. Good, good 
companies that were talking to me about expanding as recently 
as the late summer, and even into September after the collapse 
of the financial markets, are now laying people off.
    Unfortunately, in my job, almost rarely a day goes by that 
I am not getting a call from a good Wisconsin business that is 
saying, I am sorry. An example is one of our great printing 
companies. Just because advertising is so down, it is now 
having to lay off 400 people in the State, whereas they were 
talking about expanding this last summer.
    I do not need to tell this committee, because you all 
understand it better than anyone. Infrastructure investment, if 
you look at what the return for the dollar of infrastructure 
investment is about, it is the best investment we can make. 
These are good jobs. They are jobs that spur economic growth. 
They are decent-paying jobs, and they are jobs where we have 
the capacity right now and the people who can get to work 
immediately. So I think most economists on both sides are 
saying you need this kind of jolt to the economy and you need 
this kind of immediate stimulus. It seems to me that 
infrastructure is a place that we can get people to work at 
good jobs and very, very quickly.
    Mr. Coble. Thank you, Governor.
    Does any other member want to add anything to that?
    Ms. Glynn. Sir, if I may, I would just add that the real 
waste is the waste of deferred investment. If we can invest 
now, if we can protect our infrastructure now, we can do the 
job more effectively and more cost effectively.
    Mr. Coble. I thank you for that.
    Mr. Clark. Yes, sir.
    The FAA has at least $5 billion worth of what they consider 
projects that are ready to go. As a normal course of action, 
airports, because the demand for funding is always greater than 
what the supply is, are always in the position of having 
projects ready to go, "ready to go," meaning that they have 
actually been vetted, and it is just a matter of a lack of 
funding that keeps you from moving forward.
    So I will tell you that there clearly is, one, the 
accountability for ensuring that the projects have been vetted 
through the FAA's process and, secondly, that there are 
projects that are ready to go that can meet that time period.
    Mr. Coble. Thank you, sir. Thank you all for being here.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman.
    I want to say, Mr. Coble, a factor often overlooked in this 
process is that we are putting people back to work. Instead of 
paying them for not working, through unemployment compensation, 
we will be paying them to work. And they in turn will be paying 
taxes. On $1 billion of investment, you will pay $180 million 
in taxes to the Federal and State governments. So we are 
getting a double benefit out of our portion. I do not speak for 
the rest of the package, but in our portion of the package, 
there is a real return on investment.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I have had about 12 meetings or so just in my own district 
of Washington State. I think, geographically, we are the 
farthest north and west in the lower 48 that you can get from 
this place, which makes it an enjoyable place to get back to 
and also an enjoyable place to represent, but it means I have 
got to get back there and bring these concerns here.
    One of the concerns I hear from the local transit folks has 
been this debate about the split, for lack of a better term. 
How much goes to the States? How much goes to the local 
government or to the MPOs and to the RTPOs?
    I am encouraged to see that at least the resolution in our 
package indicates that the local MPOs or RTPOs will have a say 
without having to go hat in hand to the States for some of 
those dollars. That is my view of it, and I would like to think 
that that debate, then, is largely over and that the Senate 
will have its say as well.
    Governor Doyle, not to color the question, but because you 
do not represent me and I do not represent you, you can say 
anything you want. Can I get your view of where the debate is 
headed and what you think the split ought to be? Is this an 
amicable resolution?
    Governor Doyle. It is a resolution that I, in Wisconsin, 
will live with, of course. I mean I am just going to say the 
State point of view. We think we have a fair and equitable way 
that money does go out and that we do provide for regional 
transit and that we are able to balance all of these better, 
but I understand that there are a lot of different views. And I 
assume Ms. Brown has a very different view of that than I do.
    Mr. Larsen. She will get a chance.
    Governor Doyle. I think the bill that has been proposed has 
tried to strike a fair compromise of those competing views.
    Mr. Larsen. Ms. Brown.
    Ms. Brown. Surprise, surprise. I think that given some of 
the issues that are facing my State right now, that the 
challenge of spending the money and spending the money quickly, 
is how quickly can you get it to the agencies and not have it 
caught up in State processes that right now might be a little 
inefficient or where attention is directed elsewhere.
    Historically, we have always said that the quicker you can 
get it to the agencies with the least amount of process, the 
more efficient and effective it could be. So, if I were writing 
the bill, it would come directly to the agency and would bypass 
everyone. But that is probably why I am sitting here and you 
all are sitting there.
    Mr. Larsen. Well, if I were writing the bill, Washington 
State would have a $30 billion infrastructure package. But I am 
not. You would get some, too.
    Ms. Glynn, did you have a comment from a statewide 
perspective?
    Ms. Glynn. Well, I think where we are now in terms of the 
distribution is workable. I would also suggest that the answers 
are different between highway and transit. A lot of the transit 
money already goes directly to the larger properties, and that 
is a very feasible, easy, established solution as long as we 
are working closely with FTA.
    On the highway side, we are fortunate in that FHWA has 
really stepped up and is prepared to work with us on the TIPs 
and on some of the MPO-based processes. So I have no doubt that 
on the highway side, we will be able to work well with the MPOs 
and with FHWA to move the projects out in accordance with the 
priorities that have been locally established.
    Mr. Larsen. Yes. I wanted to bring this up because we are 
talking about, maybe, some of the legal legislative/
administrative restrictions. This is one of the restrictions, 
too, in terms of how to get the dollars down on the ground the 
fastest and how many steps you have to go through.
    I will make a note here and then will yield back, but I 
will make a note here about the ferry system. Washington State 
has the largest ferry system. The Bay Area, North Carolina--my 
good friend Mr. Coble, our new member Mr. McMahon from Staten 
Island, and Alaska all have ferry systems, and those are part 
of our transportation system. They are not tourist attractions. 
They are part of the legitimate transportation systems in our 
States. We are not addressing the shortfalls in that, even 
though we are addressing shortfalls in some of the other 
specified programs that we fund out of U.S. DOT. We are not 
doing it with the ferry programs. I think folks are going to be 
hearing more from us as we move forward on this.
    Thank you very much, Mr. Chairman.
    Mr. Oberstar. The next authorization will be a robust 
program for ferry boats.
    Governor Doyle. Mr. Chairman, if I could just say, we build 
ferry boats in Wisconsin. The Staten Island ferry boat is built 
in Wisconsin, so we are all for that.
    Mr. Larsen. Well, see. We would find something to work on 
together.
    Mr. Oberstar. Very good.
    Mr. Ehlers. Mr. Ehlers passes.
    Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    One observation I would like to make is that I agree with 
you that elections do matter. But in my lifetime, I have never 
seen an election change the speed or increase the speed of the 
bureaucracy working. So I will be pleasantly surprised if the 
bureaucracy speeds up to a much greater speed than it has 
operated.
    Mr. Oberstar. The President just says he is going to do 
that, so we will hold him to that.
    Mr. Shuster. I will be pleasantly surprised.
    Mr. Oberstar. Believe me, this committee is going to keep a 
blowtorch on their behinds.
    Mr. Shuster. I believe that, although I do have some 
concerns, and they are not just my concerns. I have seen the 
bureaucracy in action both here in Washington, in my State of 
Pennsylvania, and across this country in a lot of State and 
local governments. I have heard from different DOT State 
leaders across the State, and there is a concern out there that 
this timeline may be ambitious but that it may be unrealistic. 
They have not said they want years added on, but they are 
concerned that 90 days is going to be very difficult, not from 
the standpoint that the work is not there--the private sector 
has the capacity to do it--but just from the manpower to get 
through the contracts that currently are in New York and in 
Wisconsin.
    Do you have the manpower? For instance, in New York, I 
think you said you will spend $1.8 billion this year in highway 
and bridge funding; is that accurate?
    Ms. Glynn. We hope to spend about $1.6 billion.
    Mr. Shuster. What did you spend last year?
    Ms. Glynn. Last year was about the same.
    Mr. Shuster. What kind of contracts are let and bids are 
accepted in the first 6 months of that $1.8 billion?
    Ms. Glynn. The work does tend to be very seasonal. Of 
course, we would be entering the period where we are best able 
to put out this work. As a matter of fact, what we have right 
now is an industry that is operating under capacity. We had a 
cement factory just a little bit south of Albany start to close 
a few weeks ago because it did not have enough work.
    Mr. Shuster. I am not concerned. I believe the private 
sector has the capacity to do much of this work. My question 
is, if you have $1.8 billion as the number for this year, in 
the first 6 months of the year, at what amount of money will 
you let in bids of that $1.8 billion?
    Ms. Glynn. We generally elect a good deal of it during the 
first 6 months.
    Mr. Shuster. One billion dollars, is that a good estimate?
    Ms. Glynn. No, probably not $1 billion.
    Mr. Shuster. Less than that?
    Ms. Glynn. As a matter of fact, today we are having a 
significant letting--rather, award being made. I would suggest 
that in terms of our internal capacity, we have the internal 
capacity to move this because a good deal of it is simply 
coordination. These are small projects that can be processed 
very quickly, and when a Governor puts his mind to it, as 
Governor Paterson has, we can deliver very expeditiously, and 
we will do so.
    Mr. Shuster. Still, my concern--and you have not given me 
an exact number, so I know that that is a fluid thing, but if 
you put out $700 million in the first 6 months--and say for 
argument that is what you do--we are going to give New York, I 
think it is, $1.2 billion or $1.3 billion and require you to 
put that on top and bid it out. Do you have that manpower in 
place to be able to do that?
    Then, Governor, I am going to ask you the same question if 
you have those figures. That is my concern, is not that they 
can't spend it, not that the private sector, if you get it out 
there--rather, are you going to have the manpower to do 100 
percent more bidding, going through the bid process? That is 
the concern. I think that maybe this timeline is a little 
unrealistic when you talk about the manpower that it takes to 
do that.
    Mr. Oberstar. Will the gentleman yield?
    Mr. Shuster. Certainly.
    Mr. Oberstar. The gentleman's overall number is correct, 
which is roughly $1.2 billion for New York, about $563 million 
for Wisconsin, but half of that under the Appropriations 
Committee proposal goes out in the first 90 days. So the real 
question is, what would be the average size of contract and the 
number of contracts that you would have to award bids on in the 
first 90 days on $600-plus million?
    Ms. Glynn. The range would be from adding money into 
existing contracts, which is a bit of what we would do, to new 
contracts. A bridge contract would be $2 million. A bridge 
contract in ramps in Staten Island, although they might not be 
in the first 90 days, could be $40 million or $50 million. So 
the range of contracts would be all over, you know, quite 
varied.
    I want to make the point that we have existing contracts. 
So in a lot of cases, it is simply a question of a contract 
amendment, not a full bid. And because we have those existing 
contracts, we can use those contracts in the earliest days and, 
as the Chairman suggested, not wait the full time to start 
moving some of this money out. We are prepared to move more 
significant contracts out--some within the 90 days--which is 
why we are glad that a portion of the funds would follow after 
90 days.
    Mr. Shuster. Governor.
    Governor Doyle. I am sorry, I just do not have the numbers 
of how many contracts. We can certainly get them from our 
Department of Transportation, but the general gist of the 
question is certainly a really legitimate one, and it is one of 
the things that keeps me awake at night, worrying about are we 
going to end up without being able to take care of this 
opportunity.
    I guess I am here to say, in talking with our 
transportation people, we will meet this. We will do whatever 
it takes, and we will meet it. We obviously feel we would have 
a little bit more ease if it were 120 instead of 90, but if it 
is 90, we are going to get this job done.
    Mr. Shuster. I understand that Governors across the country 
are saying, "We will take the money. We are not complaining." I 
just want to make sure that 90 days out, we do not have all of 
this money coming back because Wisconsin and Pennsylvania and 
California just could not do the timeline, which is pretty 
tight.
    If I could just ask, really, a question to you, Mr. 
Chairman, and to the staff. In the legislation that I cannot 
find--and we have looked through--are there any teeth in there 
that say, for instance, a State spent $1 billion in maintenance 
last year, and now we are going to give them $1 billion more, 
what is to stop the Governor and the legislature who are having 
budget trouble from going in and saying, Okay, We are going to 
cut our transportation spending by $500 million and replace it 
with that from the Federal Government? Are there any teeth in 
there so we can stop that from happening? Because I think the 
idea is not to just have a shell game here.
    Mr. Oberstar. From the outset it has been our position, and 
our legislative language is about maintenance of effort, that 
each State has announced its program of projects for the 
current fiscal year. You stick with it. In addition to that, 
this money that comes into your State--this $563 million, this 
$1.2 billion for New York, this $563 million for Wisconsin and 
so on, Pennsylvania is in the $1.2 billion range. That is in 
addition, and we do not expect the States to take 100 percent 
funds and substitute that for 80-20 projects. You have your 
program of 80-20 projects. The law will require the State to 
continue on that course, and this will be a supplement. The 
purpose is to have a net gain in jobs, not standing and 
treading water.
    Mr. Shuster. I agree with you, Mr. Chairman. But are there 
teeth in the legislation to be able to say you cannot cut your 
transportation budget?
    Mr. Oberstar. That is our legislative language.
    Mr. Shuster. I have seen my Governor. He can dance pretty 
well, and I have seen him tap dance around issues. It would not 
surprise me to have the Governor of Pennsylvania slash the 
budget, because we were facing, I think, about a $1.5 billion 
shortfall in our State budget. This is an easy way, unless 
there are real teeth in the legislation, to do that.
    Mr. Oberstar. The specific language, sayeth the gentleman, 
is "As part of this certification, the Governor shall submit to 
the covered agency--" that is Federal highways in this case--"a 
statement identifying the amount of funds a State planned to 
expend as of the date of enactment of this act from non-Federal 
sources of the period beginning on the date of enactment of the 
Act through September 30, 2010."
    Then we will find a way to cut them off if they are 
substituting.
    Mr. Shuster. Thank you very much.
    Mr. Oberstar. I thank the gentleman from Pennsylvania for 
that. That goes to one of the core issues that we are 
addressing in this legislation. We intend to hold the States to 
that.
    Now the gentleman from New York, Mr. Bishop.
    Mr. Bishop. Mr. Chairman, thank you.
    I want to thank the panel. Commissioner Glynn, thank you 
very much for your efforts on behalf of the people of the State 
of New York.
    I want to just sort of follow up on sort of the import of 
the question that Mr. Shuster was raising. His concern is that 
States will simply not have the manpower to push as much money 
out the door as possible. I know you and I have talked about 
this. You are committed to that, and you make the point that 
you have existing contracts that can simply be expanded.
    It seems to me that a way to make sure that we push as much 
money out the door as possible is to see to it that the 
suballocation process works as quickly or as well as possible, 
because the same way that the State has existing contracts, so 
also do the counties, so also do the towns, so also do the 
villages.
    So my question to you is, in New York, how well do you feel 
that suballocation process currently works? Further, have you 
been working with your colleagues on the county levels and on 
the town levels to see to it that they have projects and that 
they are, in fact, shovel-ready?
    Ms. Glynn. Yes. This is going to cause us to do something 
that we probably should have been doing all along, but we are 
reaching out to our counties and to our cities and towns 
directly, not just to the MPOs but going with our MPO partners 
a level deeper and making sure that we are hearing of and have 
an opportunity to screen projects that might be good candidates 
for this.
    Now, as a matter of fact, we had a task force go out to 
Long Island last week--we had one then go to New York City, and 
it is going to be replicated across the State--meeting with 
local leaders and meeting with local industry to make sure that 
if there are projects that are good candidates, we hear about 
them. If they are not good candidates, we tell people what the 
problems are, because we need to make sure that we are getting 
to the projects that are, in fact, ready to go. And we want 
this to be an ownership-blind effort, which means that we need 
to reach out and work with government stakeholders at every 
level.
    So the suballocation, as it has been framed to date, is 
workable, and we have had very good discussions with New York 
City as a beginning part of that. We have an MPO meeting coming 
up which I trust will be very fruitful. It is going to 
challenge us to do what we should be doing, and I think we will 
end up with a better, more workable transportation planning 
system because of it.
    Mr. Bishop. Well, I thank you for that, and I know that I 
have been meeting with my county people and with my town people 
and so on. So, to the extent that we can see to it that as much 
money flows to local government as possible, I think would be 
helpful to all of us, with all due respect to New York City, 
Mike.
    Again, when you and I spoke, you were committed to getting 
as much money out the door as possible, but you were also 
concerned about how certain constraints that New York law 
imposes on the process by which Federal funds are awarded would 
have an impact on your ability to do that.
    Can you talk a little bit about that in ways those concerns 
might possibly be mitigated?
    Ms. Glynn. Yes. Well, this is really a reflection of the 
Federal system we have. The New York State DOT does not have 
the capacity to do design-build. Most of the States in the 
country, the DOTs do have the capacity to do design-build. We 
are fortunate in that some of our authorities, particularly the 
transit authority and others, have that capacity and they may 
call upon it. We wish we did, and we have periodically and 
probably will again be encouraging our State legislature to 
give it to us.
    So that is a tool which we do not have available to us, but 
as everyone else is, we are simply going to find jobs that can 
be put out there without the benefit of design-build. If our 
State legislature chooses to equip us with that tool, we will 
be delighted to employ it.
    Mr. Bishop. If I can be helpful to you in that regard, let 
me know, please. Thank you all very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Oberstar. Mr. Shuster raised a question a minute ago 
about the slowness of State agencies in responding. We are 
being very slow on this committee because everybody has got 5 
minutes.
    In consultation with the Ranking Member, Mr. Mica, on our 
next round we will limit time, including the time of the Chair, 
to 3 minutes per member. And we will start from the junior 
members, going upstream, instead of upstream down to the junior 
members so they get a chance to participate early on. We will 
have votes at approximately 12:30--a 15-minute vote followed by 
a 5-minute vote. I hope we can get through this round of 
questioning.
    Mr. Schock, our new member from Illinois, took the seat of 
the incoming Secretary of Transportation, so we expect you to 
be right on the ball on transportation issues.
    Mr. Schock. Thank you, Mr. Chairman. I like your idea of 
the first shall be last. Is that what you said?
    I am going to be very brief. I just want to make a couple 
of comments. First of all, I thought by becoming a Federal 
officeholder and in coming from the State legislature, I might 
have more input on where Federal dollars go, since Article I of 
the Constitution gives us the power of the purse. However, I 
want to express my extreme displeasure with the impending 
stimulus bill, for a number of reasons.
    As you mentioned, I just want to echo: Where is the beef? I 
think we are completely lacking in terms of spending for 
infrastructure. In my district, in central Illinois, I know the 
public seems to believe that by and large this money in the 
stimulus package is going to be spent on infrastructure. At 
this point, that is not the case, and I think that is a point 
we need to make to the American people to again apply pressure. 
I think we are the most powerful committee in the Congress; we 
are the largest committee, and the last time I checked, our 
vote should matter.
    Second, I am very disappointed that we, as Members of 
Congress, are not going to have more input on where these 
Federal dollars go in our district. I would submit to you that 
we, as members elected by our constituents, know better than a 
bureaucrat in Washington or a bureaucrat in our home State and 
in these agencies, where the money ought to go. I find it 
offensive that some believe that we, as duly elected Members, 
cannot weigh in on where these Federal dollars go without doing 
it in some way that would be unethical; i.e., earmarks.
    I, for one, believe we should be able to submit projects, 
to defend those projects in the light of day on where that 
money ought to go. If I, as a Member, am going to have to vote 
on one of the largest spending increases in our country's 
history, then I believe we ought to be able to weigh in on 
where that money is spent.
    Now, I know we have the distinguished Governor here from 
Wisconsin, a neighboring State of mine. I am from Illinois, the 
proud home of our new President and the not-so-proud home of 
our Governor, Rod Blagojevich. I do not need to tell this 
committee or the world the situation we are in in our State.
    Once again, I would suggest that by limiting earmarks, by 
eliminating Members' input in where the money goes--that input 
being that of the Federal Members of Congress--and giving the 
blank check to the State governments, the State Department of 
Transportation, and thinking in some way that that money will 
be handed out more judiciously, I think is mistaken.
    So, for the record, I just want you to know that I am 
extremely unhappy with the process from the standpoint of how 
much money is actually going to be spent on infrastructure as 
it stands right now and also our lack of input on where the 
money will ultimately end up.
    Mr. Oberstar. The gentleman has a bright future on this 
committee.
    As our former Chairman, Mr. Shuster--predecessor of the 
current Mr. Shuster--said, "We are not potted plants on this 
committee or in this Congress." But the gentleman will have 
plenty of opportunity to support member high-priority projects 
when we come to the long-term authorization and to projects of 
greater significance.
    Right now we said we are going to go with those that are 
already designed, engineered, EIS completed, right-of-way 
acquired, and that can be under construction in 90 days. We are 
going to hold you to it.
    That is enough from my side now. We will jump to the 
gentleman from Pennsylvania, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman.
    Mr. Oberstar. I am sorry, I skipped the gentleman from 
Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. And I would like to 
applaud the gentleman from Illinois who preceded me there. I 
think that, unfortunately, there is a sense that $800 billion 
are going to, as I read in the Chicago Tribune yesterday, $800 
billion road projects bill. I wish it was 800 billion for 
roads. I would settle if all of infrastructure had 800 billion. 
I would settle for one-tenth of that.
    Unfortunately that is not the number that we are talking 
about right now, but that is what people see, unfortunately. 
Hopefully they will understand that that is not what this bill 
is right now. But we will have a long-term bill that I know the 
Chairman is ready to go on, get that moving in this committee, 
and look at the long term and take care of a real long-term 
view of transportation in this country. It is just critical to 
the entire economy that we do take care of our transportation 
infrastructure.
    Now, I just want to focus, since we have Carole Brown here, 
I want to focus a little bit on transit. I am a longtime CTA 
rider for many years, from when I was a kid through high 
school, taking the CTA to school, the hour, hour-and-a-half 
trip I took there on CTA. Fortunately we have the orange line 
now. It would have been a little bit simpler back then to get 
to downtown with the orange line.
    But in the stimulus bill you had stated--and I know it is a 
very tough job right now with the CTA in terms of what is 
needed for CTA to operate. So many more people have been taking 
private-public transportation since gas prices went up, and 
they are still taking it even though prices have come down.
    I know you are doing a great job there with the CTA and 
with managing all that, but I know that you had mentioned in 
your testimony that earlier the CTA could easily spend at least 
$500 million on fixing the slow zones, which really are a big 
problem there. You have come a long way, but still there are 
problems with that. So the CTA could spend the $500 million 
within 90 days. However, in the stimulus bill, Illinois as a 
whole will get, as it is written now, about 550 million for 
public transportation.
    So I just want to ask you, what do you see? How much money 
do you think could be spent, needs to be spent and could be 
spent within that 90 days to help fix the problems right now? 
And what is going to be the consequence that we are not going 
to be able to do that?
    Ms. Brown. Thank you, Congressman, and thank you for the 
support that we have gotten from you at CTA for transit. We had 
anticipated that we would get approximately from the bill, 
approximately $230 million which we would spend for tie work, 
for track construction work, to purchase buses, and do bus and 
rail car overhauls. As you know, some of our rolling stock is 
aged, and so to keep it safe and on the system we need to 
complete those overhauls. And so that is what we would spend, 
and this is an ongoing process for us. And so we know that we 
could get that money obligated in the first 90 days easily.
    We have also identified additional track, station facility 
work, and tie work that could be completed, substation work 
that could be completed if we had $500 million within the 90-
day period. Our entire capital need, as I have stated earlier 
to get our system to a state of good repair is $6.8 billion. 
And so if you were asking me how much money do we need, we need 
$6.8 billion. Can we spend all the $500 million coming to the 
State? Yes. Can we spend the 230 million that we think would 
come to CTA from the 500 million coming to the State? Easily.
    Mr. Lipinski. And what is going to be the issue that you 
are facing not having that funding?
    Ms. Brown. I think our biggest concern is the condition and 
age of our rolling stock. Particularly, as you know, rail 
travel is much more efficient, it is more cost-effective. As 
our railcars continue to age and we do not replace them, what 
tends to happen is that, one, we cannot meet the capacity 
demand, so as ridership increases there will be challenges with 
us, but as railcars age the maintenance costs go up. And so the 
capital cost required to run the system and maintain the system 
increases. So the biggest challenge for us would be not being 
able to replace the rolling stock in a timely fashion.
    Mr. Lipinski. Thank you. And I know Chairman Oberstar has 
been out to Chicago many times and has seen the issues here and 
is going to be a great leader in making sure that the 
reauthorization--or the authorization bill is going to make 
sure that throughout the country we do take care of public 
transportation.
    Mr. Oberstar. I thank the gentleman. Before I go to Ms. 
Hirono, I just want to--further to the question Mr. Shuster 
raised--the Federal Highway Administration-- in response to my 
question, has said that States may contract with management 
consultants to expedite State processes. Under current law we 
do not have to do anything to that. And those financial or 
those management services may include financial management, 
procurement, scheduling, cost control, design, and construction 
management and performance. So there are devices available, 
authorities available to States to move ahead under existing 
law.
    I just wanted to confirm that. The gentleman raised an 
important point and I think that should be included in the 
record at this stage.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Oberstar. Ms. Hirono.
    Ms. Hirono. Thank you, Mr. Chairman. We have had some 
discussion in this committee about the importance of thinking 
about our transportation in an intermodal way so that we look 
at highways, airports and transit as one system. And that when 
the system is working in concert, we get more bang for the 
buck. So I wanted to ask perhaps Governor Doyle, with your 
statewide perspective, three questions. And if any of the 
panelists vehemently disagree, you can pipe in. I wanted to ask 
you whether you think what I would describe as intermodal GLBL 
strategic spending, whether you think that that is a good idea? 
First question.
    Second, how much of this kind of strategic spending is 
reflected in the shovel-ready projects that you have on the 
books? I realize that that is hard to reflect that kind of 
intermodal thinking when time is of the essence with these 
projects.
    The third is, briefly, if there are any restrictions or 
limitations in the current formula funding, our siloed funding 
for highways, airports, et cetera that would make intermodal 
strategic spending harder or difficult?
    And if you have ideas along those lines perhaps we can talk 
about it later. I for one am very interested in promoting 
intermodal strategic spending.
    Mr. Governor.
    Governor Doyle. I will agree with you, and I will say from 
a Wisconsin perspective we have not done a very good job of it. 
It is one of the areas where the Recovery Act, I believe, 
actually will spur us to move in the right direction. We, for 
example, do not have regional transit authorities in the State. 
It creates a terrible problem in which one jurisdiction has an 
aging, decaying bus system and they don't have a method to 
integrate that with a train or a bus system.
    And I am prepared and will be proposing as I introduce a 
budget in the next several weeks that we will move to regional 
transit authorities in the State of Wisconsin, something, 
again, I am embarrassed to say we lag behind many other States. 
But it gives us an opportunity to merge our bus and rail 
systems, particularly in southeast Wisconsin, which is a 
largely urban area, extending north from Chicago to Milwaukee, 
in which we have a series of just isolated bus systems and some 
rail; but we really want to focus on how we will be able to 
have people move out of the Chicago area, coming north to 
Milwaukee, to be able to get on a train that moves quickly, get 
off a train, and get onto a bus that gets them to a place of 
employment. So this is extremely important. We are prepared to 
increase State funding for this.
    In terms of the maintenance effort issues. We are about to 
make major investments in Wisconsin of State money into 
intermodal transfer.
    I think others here who are real experts in the 
transportation field could answer a little better the question 
about what are some of the Federal silos and how it affects it. 
But I agree with you again. What our design is we want to have 
good passenger rail, we want inner city and we want to have 
good regional transit systems. It is an area where I wish I 
could tell you we had done a better job, but we haven't and we 
need to step it up. And actually, as I say, I think we can use 
the pressure that comes from this particular recovery package 
to say these are things that need to get done in this State.
    Ms. Hirono. We have about a minute, if any of the other 
panelists want to talk about the Federal funding silos and how 
we can overcome the silos in promoting intermodal strategic 
pending.
    Ms. Glynn. It is a very important objective. We have a 
project, not for the stimulus per se, called the Tappan Zee 
Bridge, which you will be hearing a great deal more about in 
the future. And the Federal institutions with the different 
authorities are not set up with concurrent processes. So to 
have an analysis that you look at highway and transit at the 
same time for meeting the same societal needs takes special 
effort by our Federal partners. And we have been fortunate in 
receiving that special effort, but it shouldn't be special, it 
should be everyday.
    Ms. Hirono. Thank you, I yield back.
    Mr. Oberstar. Well, we are quickly putting to rest a ghost 
of contracting past and ushering in a new era of quick action. 
I want to thank all our panelists for that.
    Mr. Carney.
    Mr. Carney. Are you sure?
    Mr. Oberstar. Yes. This time, yes.
    Mr. Carney. Thank you, Mr. Chairman. I certainly appreciate 
that. We must do that in Congress.
    A couple of points. First of all, I really want to 
associate myself with the remarks of Mr. Shuster. We want to 
make sure we do the contracting quickly.
    You mentioned that in the legislation we can actually hire 
contractors; is that correct?
    Mr. Oberstar. Yes. The Federal Highway Administration says 
under current law, we don't need anything new. They affirm 
States contract with management consultants to expedite their 
processes.
    Mr. Carney. Okay. Do the States have to contract with the 
contract contractors, then?
    Mr. Oberstar. There is a lot of authority, a lot of leeway 
for the States.
    Mr. Carney. Understood.
    Mr. Oberstar. I don't know what you have in mind.
    Mr. Carney. I hope the States do, because if we are going 
to be crushed by spending a lot of money that we can't, that 
we--if we are going to hire, I assume probably almost every 
State will be in a position where they have to hire at some 
point private contractors.
    Mr. Oberstar. If the gentleman would yield.
    Mr. Carney. Sure.
    Mr. Oberstar. I think the point Mr. Shuster was getting at 
is do you have the capacity in the State to do it. Governor 
Doyle wasn't quite sure how many contracts they would need to 
push out. Neither does Ms. Glynn. But if they don't have the 
capacity in house, personnel capacity to manage these contracts 
and get them out the door quickly, they can engage consultant 
services to do that for them.
    Mr. Carney. Okay, okay, thank you very much. I know in 
Pennsylvania, for example, it is an issue.
    The question I really have is for everybody. I was really 
struck by the multiplier effect of the stimulus package. And 
Mr. DeFazio earlier brought this up. How many, from all your 
perspectives, if we go to U.S.-only manufactured cars, buses, 
trains, things like that, would it affect in a negative way or 
positive way? Because if we are truly going to have a 
multiplier effect from the stimulus package, I don't want that 
multiplier effect to be outside this country. It has to create 
jobs in this country.
    Mr. Oberstar. If the gentleman would yield again. The 
BuyAmerican provision that I authored in 1982 still applies. It 
applies today and it is going to stick into the future. We are 
going to reauthorize it in the next authorization legislation. 
It requires American steel, American products, total final 
assembly for buses, for railcars, to be done in the United 
States with American-made materials.
    Mr. Carney. Thank you. And that is part of the stimulus 
package as well, correct?
    Mr. Oberstar. Yes, it is.
    Mr. Carney. Thank you very much.
    So you are all good with that? Okay. Make sure we do that, 
because that multiplier effect is critical. If the stimulus is 
actually going to stimulate, you have to have that. Thank you, 
Mr. Chairman.
    Mr. Oberstar. You certainly don't want it stimulating 
Bangladesh, as this economy has been doing for a long time. Mr. 
Hall.
    Mr. Hall. Thank you, Mr. Chairman. I would like to welcome 
all of our guests, especially Commissioner Glynn from my State 
of New York. Welcome. Thank you for the work you do for the 
State of New York and for the Hudson Valley. It has been a 
pleasure to work with you and your staff in meeting the 
transportation needs of the 19th district.
    You arranged a tour for me of the 13 bridges in my district 
that are on the deficient list, a couple of which you mentioned 
before. The I-84 bridges of Putnam County, I notice several of 
those bridges are scheduled to be repaired or perhaps have 
repair work already underway. If the economic recovery package 
is approved, hopefully it will be addressed sooner.
    I was struck by one of the charts in your submitted 
testimony showing that there is a gathering storm, as you said, 
of bridge needs approaching. According to your chart, almost 
3,000 bridges in New York State alone will become deficient in 
the next 10 years. How much money will it take to fix these 
bridges? And how will that money be raised? And is New York 
unique or are other States facing similar crises in similar 
time frames?
    Ms. Glynn. New York, unfortunately, is not at all unique in 
that respect. This is a story that has replicated across the 
country, partially because we are reaching the end of the 
useful life of great deal of investment that we made about 50 
years ago. So the bridges that we face in New York, those 3,000 
are our version of a story and a significant part of a national 
story. We look at those bridges and part of the answer to the 
question as to how much it will cost depends on when we can 
take the action. That is one of the reasons why this bill has 
such special benefits for us.
    If we can work on a bridge early, if we can do preventive 
maintenance and rehabilitation instead of full replacement, we 
can do it for anywhere from a third to a quarter of the cost 
that we would face if we had to defer it until time and money 
allowed.
    The bridge I mentioned earlier in Putnam County, if we can 
move it up because we have the money available, if we can do it 
now, save 3 years, we can save $3 million on that one bridge.
    So the answer to your question, I hope, will be a lot 
smaller dollar cost if we can make that investment now.
    Mr. Hall. Thank you, Commissioner. As a New Yorker I am 
particularly proud of our transit system which is one of the 
greenest transportation systems in the country, always striving 
to do better and to be more energy-efficient. Your testimony 
includes the fact that MTA needs to replace 600 subway cars and 
440 commuter railcars over the next 5 years, not to mention 
3,000 buses. On top of that, MTA has significant infrastructure 
and physical plant needs.
    I am disappointed by the amount of money in the proposed 
package for transit, and I wish it was higher not only to fund 
the needed improvements but also to modernize our transit 
systems and make them cleaner and more carbon-neutral. If 
increased Federal funding is not provided for these needed 
transit projects, how will they be financed?
    I also would ask as a second part of that question, I have 
seen hybrid buses in Colorado and we have some in Westchester 
in the county bus system. And are you or MTA, to your 
knowledge, moving toward hybrid buses and/or CNG buses?
    Ms. Glynn. MTA and the rest of the authorities throughout 
the State are working to make their fleets as clean as they 
can, as quickly as they can.
    As you know, MTA is facing significant financial challenges 
and we hope that the Ravage Commission which reported out about 
a month or so ago will enable MTA to make progress. But again 
the dimension of time comes in. As MTA moves further from the 
state of good repair, the ability to enhance and improve its 
fleet with needed improvements, such as moving to a greener 
technology, gets further and further away from the presently 
doable. So that is part of what we hope.
    Mr. Hall. Thank you. One last quick question. Can you 
discuss in more detail some of the proposals you make in your 
testimony of ways to improve the FTA processes with respect to 
the pending recovery package? And can those changes be made by 
regulation or agreement with the FTA, or does this committee 
need to pass legislation?
    Ms. Glynn. We believe that most of those changes could be 
done internally with the FTA and U.S. DOT. In most cases it is 
really a question of speeding up existing processes. For 
instance, grant approval could in most cases, particularly with 
standard items such as buses, be done in 30 days rather than 
the much longer period of time it often takes. These are one of 
the good parts about the ready-to-go quality of this, is these 
are fairly standard items. We are using existing procurements. 
FTA should be able to expedite their processes just as we are 
expediting ours.
    Mr. Hall. Thank you, Commissioner, thank you Mr. Chairman.
    Mr. Oberstar. I thank the gentleman. I thank you for the 
response. Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman. I don't have any 
questions, I know you want to move onto the next panel as 
quickly as possible. But I did want to say one thing, and that 
is that I have read many articles over the last 2 or 3 months 
about the various stimulus proposals, and I have heard many 
commentators discuss this legislation on television and on the 
radio. And almost all of them talk about stimulus, about 
building highways, roads, bridges and water projects; in other 
words, the work of this committee.
    And so it is disappointing to some of us, I think most of 
us, that we requested out of this committee 85 billion, which 
is about 10 percent of the package that they are talking about, 
the 850 billion, and that 85 billion was cut down to 63 
billion, 63.3 billion. So the support for the stimulus package 
is being built on the back of this committee, and yet you are 
talking about a pretty substantial reduction. And I just wanted 
to point that out, because I hope we can work to overcome this 
shortchange later on if we don't do it in this bill. Thank you.
    Mr. Oberstar. Well, I thank the gentleman for that 
observation. I think he speaks for Members on both sides of the 
aisle. I have heard it on both sides of the aisle, and in this 
committee there is hardly an aisle. The purpose of this 
hearing, I think, is being achieved, and the purpose was to 
demonstrate to CBO that we can overcome their concerns that the 
money won't flow fast, can't be committed in the time frame we 
envisioned, won't create the jobs in the time frame we set 
forth. I think we are painting a much more robust picture.
    Mr. Arcuri.
    Mr. Arcuri. Thank you, Mr. Chairman. I would like to thank 
the panel very much for being here. Sorry I was gone for a 
little bit. I would like to thank Commissioner Glynn, my 
commissioner in New York, for being here.
    Forgive me, because we had little of this discussion 
before, but there is a point I would like to make. And that is, 
probably one of the greatest infrastructure projects that this 
country ever experienced was the Erie Canal, and it was started 
in a little tiny community, a place called Rome, which of 
course happens to be in my district. Well, Rome wasn't even on 
the map, and a lot of people say they started it Rome because 
it is in the middle. But I think they started it because of the 
vision that they had. They were afraid that if they started in 
Albany, that they would only get to Schenectady, but if they 
started in Buffalo, maybe they would only get to Rochester. But 
if they started it in a very tiny community in the middle, they 
would have to get to the two points that they wanted to. They 
did that. And of course, as a result of that, it helped to open 
up the West and make New York City one of the greatest cities 
in the world.
    The real point of that story is that this little tiny 
community that didn't exist, called Rome, became a thriving 
city because it became part of the Erie Canal. That is the 
vision that our forefathers had and the vision that I think 
that this stimulus bill should have.
    It is critically important that we create jobs, but I think 
we should do it with a vision toward improving our 
infrastructure and improving our future. So I would like to 
direct the question primarily to you, Governor Doyle, and to 
you, Commissioner Glynn. What vision should the States be 
taking in terms of spending this money to not only create 
jobs--and I know you have spoken quite a bit about rail--but 
what kind of vision should we be looking at?
    Governor Doyle. Well, I do believe that there is a very 
important part of getting people to work. So before I sort of 
address the vision, I think we do have projects, and getting 
people to work quickly is what I consider to be one of the real 
priorities of the stimulus package. We also recognize that the 
level of funding that is talked about, this is not going to 
create our great vision of transportation in Wisconsin and 
across the country, but it can be a very, very important piece 
of it.
    So I will tell you what my vision is and everybody on the 
panel, other Governors, may have very different. I think the 
intermodal discussion that we have heard, we need to have a 
modern infrastructure from the airports that we go to.
    I just had a son and daughter-in-law, she is 7-1/2 weeks 
pregnant, try to get out of Dulles yesterday, and let's say 
they finally ended up getting out of Reagan about 12 hours 
later. So from improved air service to a Great Lake State like 
Wisconsin, improving our ports. Great Lakes shipping is coming 
back to life, particularly as gas prices hit the levels that 
they did.
    A modern road system that has been mentioned, we are 
replacing in Wisconsin and all across the country now, a road 
system that was built largely 50 years ago and now is in great 
need of repair. And as I talked about here, I really believe 
and hope that part of this is a vision of intercity passenger 
rail coming back to life.
    And in the Midwest, and again the Chairman has been the 
great champion of this, but if you think of what the benefits 
are of connecting with high-speed rail in our part of the 
country and in the East, with greater populations, it is even 
more so. But if you can connect the Twin Cities through Madison 
and Milwaukee and Chicago with high-speed connections that go 
to St. Louis or Cleveland or Detroit, Columbus, it would be 
just enormously beneficial to the economy of the middle part of 
this country.
    I do want to make one final point, though. It also to me, I 
hope our transportation policy--and somebody has talked about 
this today--is very tightly tied to a rebuilding of the 
manufacturing infrastructure of this country; that this isn't 
just about cars driving around or trucks driving around, but 
that we actually are once again committed as a national policy 
across this country of rebuilding. We are a strong 
manufacturing State. And we have seen the decline for a lot of 
different reasons we could talk about, but transportation is 
vital to that. So I hope that the transportation vision we are 
talking about is also a vision very closely tied to the 
rebuilding of the manufacturing infrastructure of America.
    Mr. Arcuri. Thank you. Commissioner Glynn.
    Ms. Glynn. I would echo a great deal of that, and 
particularly add, I would hope it would be not only a system 
that is in better condition than the system we have now, but 
one that is well balanced between modes and one that gives 
clean choices to people.
    Right now all too many of our people have no choice but to 
use a form of transportation that is not what we want from the 
standpoint of air quality. And I would hope that we could have 
a balanced transportation system so that our people could 
decide what works best for them and for their children and 
their grandchildren in terms of the quality of life to which it 
contributes.
    Mr. Arcuri. I won't ask any more questions, but one more 
point and I think the panelists here are in a good position to 
do something about it. I think one of the things we need to 
really focus on is connecting our big cities to our rural 
communities. And there are representatives from Chicago here, 
New York and Milwaukee, and clearly I think that is very 
important, representing a rural urban district. We need to 
connect and access people into our urban centers. So thank you 
all very much for being here.
    Mr. Oberstar. I thank the gentleman for his history lesson, 
it is a very important one. There will be plenty of time for 
vision in the authorization to come up in the next 6-year 
program, and your ideas are right on. Right now our vision is 
jobs by June 1st, a million construction jobs.
    Mr. Kagen. And we will have maybe just a few more minutes; 
it looks to me from my monitor here that they are wrapping up 
on the House floor.
    Mr. Kagen. Thank you, Mr. Chairman. I will not give an 
oration, but I will point out the contrast that with the amount 
of money that is in this bill, it is about almost 4 months of 
what we are spending over in Iraq. So where I come from in 
northeast Wisconsin, everybody I represent, when I ask them the 
question, hey, look, I am your hired hand and have your Federal 
tax dollars here, where do you want me to invest your tax 
dollars? In the sands of Iraq or here at home? Everybody said, 
Here in America, not other nations. So in terms of the dollar 
amounts we are spending, when you compare it with what we are 
doing in Iraq, there is clearly no argument that we need to 
move forward by rebuilding America.
    So let me ask just a few questions to Governor Doyle. Isn't 
it true that you have plans on the shelf with Frank Wislocki, 
Wisconsin Department of Transportation director, ready to go? 
Is it not also true that Wisconsin is a winter State and there 
are two seasons--winter and construction-- so we understand how 
to get things off the shelf and into the ground?
    Governor Doyle. Yes, obviously. And some of it goes back to 
the question about contracting in a State like Wisconsin. Our 
great bulk of when we do the big volume of this is as the ice 
is starting to melt and we can actually get to work again.
    Mr. Kagen. So we are ready to go.
    Governor Doyle. Ready to go.
    Mr. Kagen. Mr. Chairman, the shovels are ready. They are 
warming up in the garage as we speak.
    I would also like you to comment very briefly about the 
revenue-sharing percentage with regard to the railroads. There 
has been some suggestion there ought to be an 80/20 percent 
Federal-State ratio. Would you make a comment about that?
    Governor Doyle. Let me say I do think it is wise that there 
is a buy-in here to demonstrate a real commitment by the State 
and the communities. For purposes of the stimulus package on 
many of these matches, I believe, I hope, the Congress 
considered waiving them in a short-term period of time. I do 
believe you need to have buy-in. We do it as you go down the 
ladder when we are talking about cities and townships. We want 
them to be able to say, this is really important, because we 
are willing to put our resources behind us. I think that is 
important for rail. But again I can see a reason to suspend 
that right now for purposes of the stimulus package.
    Mr. Kagen. Is there any problem in the State of Wisconsin 
with regard to any commitments or restrictions on the use of 
the money? Is that a problem in terms of your leadership or any 
other government that you know of? Can't Governors live within 
that restrictive language?
    Governor Doyle. I can. I have not polled everyone, but we 
are going to live with what--if the money is coming and these 
are the conditions, we are going to meet the conditions.
    Mr. Kagen. Thank you, I yield back my time to the Chair.
    Mr. Oberstar. I just want to say in response to the 
Governor's comment, in what is left of the rail funding, we had 
$5 billion in our proposal; that has been cut to a billion. It 
is 100 percent Federal funding, so there is no local match 
requirement.
    Now we have 15 minutes to vote. And the gentlewoman from 
California, Ms. Richardson.
    Ms. Richardson. Actually, I have a question to you or 
comment to you, Mr. Chairman, based upon the testimony that we 
have heard today. Let me start off briefly by saying that 
during the break--and this is building upon my colleagues' 
comments--during the break I went to lease a car, which we all 
do, most of us do as Members. And many American companies, GMAC 
for example, received a substantial amount of money. And yet 
when I as a normal citizen went to lease a car, they said they 
were no longer leasing, and here they were leasing to the 
Federal Government. And then when they finally did agree to 
lease, they charged an interest rate of 25-1/2 percent.
    And so what I did, I went to another company, a foreign 
company, Toyota, who produces a hybrid which fortunately they 
make in Kentucky, in America, and I got for half of that rate. 
And so my comment is, to build upon my colleagues', we must 
ensure that the language is clear; that any State that has the 
benefit of these dollars must ensure that they will not take 
these dollars to balance their budget.
    In California we have stopped construction projects. So to 
say okay, now they have stopped construction projects waiting 
on this money, which is really balancing their budget. And so I 
urge you, as my other colleagues have said, and you stated what 
the current language is, but we must ensure--because it already 
happened to us once with the first $350 billion--we must ensure 
that these dollars, that the Governors are clear that the 
dollars should not be used to balance their budget, but in fact 
will be used for new construction projects.
    And then my final statement, Mr. Chairman. You know, I come 
from the old school of you can either give a man or a woman a 
fish or you can teach them to fish. And I am quite concerned of 
the testimony that I have heard. I have heard comments of, 
well, we are going to have seminars. I think it was Ms. Glynn--
we are going to have seminars, teach people, make sure they are 
aware of the skills that will be needed. I heard Ms. Brown say, 
well, we are going to utilize existing contracts. Existing 
contracts is only having people who are working today continue 
to work. The goal of the economic stimulus is when we walk 
away, new people will be working. And we can simply have people 
who have existing contracts work overtime if that is the case.
    And so we need to ensure that the language in this 
legislation says not only are you going to get this money, but 
you have to show what new jobs you are bringing to the table. 
And then I think we have answered the American people. And 
then, by the way, if we have new people who are trained, when 
our SAFETEA-LU reauthorization comes along, they will be ready 
and able to start those new projects. But otherwise we will be 
really losing the trust of the American people.
    Mr. Oberstar. The gentlewoman makes a very important point. 
First of all, it will not be reauthorization, it will be a new 
authorization.
    The legislation, our provision, our portion of the economic 
revitalization, requires a maintenance of effort. I have 
already read the language into the record. I will say it once 
again, that as part of the certification the Governor shall 
submit a statement identifying the amount of funds the State 
planned to expend as of the date of enactment from non-Federal 
sources in the period beginning on the date of enactment of 
this act through September 30, 2010. And these funds are to be 
in addition to, so there is a maintenance of effort required. 
They can't substitute these dollars for already planned 
dollars.
    On the use of existing contracts, what Ms. Glynn was 
speaking to is the transit agencies already have orders for two 
original equipment manufacturers. They can extend that contract 
and purchase additional equipment that will allow the OEM then 
to place orders for engines, transmissions, brake assemblies, 
air-conditioning, structural steel, so that we can get a jump 
start on building the additional. These are not just using the 
existing contract, but using that contracting authority to 
build on and build another segment of highway or order 
additional buses to expand your fleet.
    And the acquisition options can be exercised in days rather 
than months. They can place immediate orders to OEMs, companies 
and suppliers can increase their production rates, so that the 
language that she was addressing is very technical in nature, 
but it is something I have already discussed with these transit 
agencies nationwide. And I want them to use that authority so 
they can get a jump-start on extending the existing contracts, 
create additional jobs, while maintaining their current effort.
    Ms. Richardson. Mr. Chairman, no one has worked harder than 
you to make sure this is a good bill, and the public needs to 
know that.
    Mr. Oberstar. Thank you for your vigilance. Ms. Edwards 
will be our last member to comment.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to the 
panelists, for a very interesting discussion. My question has 
to do with the ready-to-go, shelf-ready, let's get it done in 
90-day formula, and what you believe that means to women, 
minority-owned, small businesses and their capacity to take 
advantage and get some of the opportunities, especially coming 
back down to local communities.
    And so I understand things are sitting on the shelf and 
there may be contractors waiting and the bids have been done. 
But can you just explain to me what you envision in your States 
to be able to create some of these opportunities for these 
particular businesses? And what might be some barriers that we 
can be on guard for to increase that, looking at things like 
capitalization, bonding, expanding the credit capacity for 
these businesses?
    Governor Doyle. We just completed the largest public works 
program or project in the history of the State of Wisconsin, 
which was rebuilding what we call the market interchange which 
is the largest State interchange in the State of Milwaukee. And 
we did it with about 25 percent women- and minority-owned 
businesses. And so we have developed a very strong outreach of 
how we get to let people know what the opportunities are.
    I think coming out of that, we developed a series of new 
contractors, not necessarily the biggest concrete people, but 
who do other kinds of work, who are ready to go. We have been 
using them.
    The second big project, without boring you all about our 
projects, it is a rebuild of the big interstate system between 
Milwaukee and the Illinois State line. And many of those 
smaller contractors are now lined up and ready to go.
    So we are have had a very, very effective outreach. Now 
this will be a little bigger challenge to us because of these 
very restricted time limits. We will not have the time to do 
that outreach, nor will we be able to probably break some of 
the bids into smaller component parts that let smaller 
companies. And what we have talked about doing as part of our 
major effort here is to probably require some of the larger 
contractors to come in with some smaller contractors as part of 
those large bids, to get it done. That is our big challenge. 
With this collapsed time period that we have to get it done, we 
will not be able to let the bids in smaller segments as we have 
done before. And I am worried about the time on the outreach, 
but we have put some pretty good models into place and we are 
just going to have to really move those models much faster.
    Ms. Edwards. I appreciate you saying that, because I do 
think that particularly bundling and capitalization and bonding 
are things that we really have to look to for these businesses 
if we truly want to expand the diversity of participation at 
the State and local level. I know that there will be others who 
will offer testimony on that, but it is a concern. And you 
perhaps want to share and others of you share with Governors 
and locals about how you do that, so that you do ensure the 
greatest participation of these companies. Because we are about 
creating new jobs, but also creating new opportunities and 
capacity for competition in the long run.
    And I know that we have got to go vote, don't we, Mr. 
Chairman?
    Mr. Oberstar. Well, the diligence of new Members, they feel 
they need to rush off and be there 5 minutes before the end of 
votes, but you don't have to go that fast. I know the Governor 
has to leave.
    And just before he does, I want to say that on the issue of 
the disadvantaged business enterprises, the DBE, Ms. Richardson 
is concerned about them, and Ms. Edwards raised it--I discussed 
it with the Congressional Black Caucus-- Federal Highway 
Administration, at our instance, has already taken initiative 
to urge States to begin the outreach now. The package is coming 
along the track to DBE contractors to mobilize, be ready, and 
to be certain that DBEs are in fact certified so that they are 
ready to go. We didn't have that participation 60 days ago, or 
30 days ago, or 20 days ago. But now the reality has set in. We 
have a new President. It is a new era. This incentive package 
is for real. It is going to happen, so get with it. All right.
    We will now hold this panel adjourned, recessed, and we 
will resume in about half an hour after these votes with Panel 
II, beginning with President of the U.S. Chamber of Commerce, 
Tom Donohue. Thank you very much for being with us, Mr. 
Donohue, and the questioning will begin with junior members 
going up to senior members.
    [Recess.]
    Mr. Oberstar. Maybe now the sound system is back in full 
operational condition. We had a longer time on the votes than 
anticipated. We will resume at sitting Mr. Brown and Chair and 
acting Ranking Member.
    Our next panel of witnesses include Mr. Donohue. As I said 
earlier, Tom Donohue is the President and CEO of U.S. Chamber 
of Commerce; Roger Blunt, president of Essex Construction in 
Upper Marlboro, Maryland; John Marinucci, senior executive of 
New Flyer, which is located in Minnesota; Raymond J. Poupore, 
executive vice president of National Construction Alliance; Ed 
Sullivan, chief economist of the Portland Cement Association; 
and Tony Withington of the Amalgamated Transit Union.

TESTIMONY OF THOMAS J. DONOHUE, PRESIDENT AND CEO, U.S. CHAMBER 
OF COMMERCE; ROGER BLUNT, P.E., PRESIDENT, ESSEX CONSTRUCTION, 
LLC, UPPER MARLBORO, MD; JOHN MARINUCCI, SENIOR EXECUTIVE, NEW 
   FLYER OF AMERICA, INC; RAYMOND J. POUPORE, EXECUTIVE VICE 
  PRESIDENT, NATIONAL CONSTRUCTION ALLIANCE II; ED SULLIVAN, 
    CHIEF ECONOMIST, PORTLAND CEMENT ASSOCIATION; AND TONY 
      WITHINGTON, AMALGAMATED TRANSIT UNION INTERNATIONAL 
                         REPRESENTATIVE

    Mr. Oberstar. So we begin with a familiar face at our 
hearings, on a wide range of subjects going back to the time 
when Mr. Donohue represented the America Trucking Association. 
Welcome, glad to have you with us.
    Mr. Donohue. Thank you very much, Mr. Chairman and members 
of the committee. The Chamber, for your information, is the 
world's largest business federation, representing more than 3 
million businesses and organizations of every size, every 
sector, and every region of the country. And we particularly 
appreciate the opportunity to testify today on this important 
subject. You may have heard the phrase "Never let a good crisis 
go to waste." Well, today we are experiencing the worst 
economic crisis since the Great Depression, but with every 
crisis comes an opportunity.
    Today we must seize that opportunity to provide both a 
short-term and then a long-term boost to the economy through 
smart investments in infrastructure. We should start by funding 
ready-to-go projects as part of the Economic Recovery Package. 
And, Mr. Chairman, parenthetically let me say that the division 
of assets in that package are much too few to infrastructure, 
and I hope we can work together to put the heat on that 
decision.
    Mr. Oberstar. We welcome your support.
    Mr. Donohue. Thank you.
    Experts have identified hundreds of such projects that 
could be under contract within 180 days of passage of the bill. 
Congress should adjust current legislative language to ensure 
that the funds are obligated quickly. The money would be an 
important down payment on meeting some of our most immediate 
infrastructure needs, put thousands of people back to work and 
help to jump-start the economy. But we must not stop there. We 
need a new-long term plan to rebuild America. Such a plan will 
require a revolution, and how we plan, fund, and bill these 
systems cannot be business as usual.
    Congress should use the full slate of expiring 
transportation legislation to advance these efforts this year, 
including the reauthorization of the Aviation, Water, and 
Surface Transportation bills.
    And if I make another comment Mr. Chairman, I have heard 
from people that run all those associations, aviation people, 
water people, and they all want folks to understand this is not 
just roads and bridges, it is all of our infrastructure. Across 
all modes, it is critically clear that we willneed additional 
revenue; therefore, every option should be on the table.
    Take our highway and public transportation programs, for 
example. They are running on fumes and facing imminent 
bankruptcy. Congress will face a very difficult choice this 
year: to cut Federal highway investments by as much as 50 
percent in 2010, followed by similar cuts in transit in 2011; 
or to find more revenue to support these efforts.
    Clearly, more public money will be needed and we should 
seriously consider an increase in the Federal gas tax, which 
hasn't been raised in 16 years.
    Mr. Chairman underline that, that just came from the 
Chamber. But Congress----
    Mr. Oberstar. I have taken due note and great heart.
    Mr. Donohue. Good. But Congress needs to change the way it 
spends the money first. Congress should adhere to the following 
principles. Earmarks as we know them should be limited, except 
when the criteria that are in the law are met. And projects 
should be subject to rigorous cost-benefit analysis that puts 
the public good above political expediency. Money should go 
towards projects that advance the national interest, and 
project delivery should be streamlined, eliminating red tape 
that leads to endless delays and unnecessary cost. And revenues 
must be dedicated to the Highway Trust Fund and not diverted to 
non-infrastructure projects.
    If these conditions are met, the Chamber would support a 
sensible increase in the gas tax, structured in a way that 
would not impose unfair burdens on our motorists. I believe you 
could also count on the support of a large and diverse 
coalition that I chair, Americans for Transportation Mobility, 
that includes businesses, labor groups, public transportation 
providers, and construction stakeholders throughout the 
country. The coalition's faster, better, safety campaign is 
already generating public support for repairing, rebuilding, 
and revitalizing America's aging transportation system.
    It also is vitally important that Congress remove 
regulations that limit the ability of private firms to inject 
billions and billions of dollars into infrastructure projects. 
Simple steps like lifting or eliminating the caps on private 
activity bonds for airports, water and highway projects, and 
exempting public purpose debt from alternate minimum taxes 
could help free up billions of dollars.
    Removing regulations that make it impossible to build 
nuclear power plants and to put in new energy-producing, power-
producing opportunities and to put in new lines that we need to 
support the development of new jobs in business could all come 
from the private sector if we were smart enough to take away 
some of the prohibiting regulations.
    For those who are concerned about private ownership of 
public assets, I have a little news for you, the private sector 
already owns most infrastructure, from 80 percent of energy to 
all of broadband.
    Mr. Chairman, if we are to rebuild America--and we must--it 
would cost hundreds and hundreds of billions of dollars. 
Americans have every right to ask what they will get in 
exchange for such a significant investment on the private side 
or the public side. They will get cleaner air, safer roads, 
less time spent in traffic, goods and services delivered more 
quickly and cheaply, and a more competitive U.S. economy.
    If Congress were to fix only the Nation's 233 worst truck 
and car bottle-ups, we would see a huge return and increased 
efficiency and productivity, but most of all, a significant 
reduction in mobile source emissions and fuel use. It sounds 
like a good deal to me.
    In his inauguration address this week President Obama spoke 
about Americans working together with a common purpose to 
achieve great things. He spoke about confronting our big 
challenges, not abating them. He talked about making difficult 
choices, not taking the easy out. Rebuilding America's 
infrastructure is a challenge worthy of our greatest effort. It 
would be a tremendous accomplishment that would pay dividends 
to our children and our grandchildren for years to come.
    Let me conclude with this paragraph. If we make the tough 
decisions now and choose the right course, our transportation 
network will be the foundation of a 21st century economy that 
can move people quickly, safely, and goods easily, to handle a 
growing volume of freight in everything we do and to protect 
our environment.
    We have got a great opportunity, let's do it. Thank you, 
Mr. Chairman.
    Mr. Oberstar. Thank you for that resounding affirmation of 
the work of this committee. Although we don't have jurisdiction 
over nuclear power plants, except insofar as they come under 
the authority of the Tennessee Valley Authority, we are there.
    Wait until you see our transformational program for the 
future of surface transportation that Mr. DeFazio has been 
working on for the last 2 years. You are going to love it. We 
are going to have an Office of Project Streamlining in the 
Federal Highway Administration. We are going to have an Office 
of Liveability in the Federal Highway Administration. We are 
going to change the way that the money is invested. We are 
going to create the 30 mega-project areas to deal with the 30 
most congested areas of America, and combine resources of 
various revenue streams to do these things.
    Mr. Oberstar. Mr. Blunt.
    Mr. Blunt. Chairman Oberstar, it is a delight for me to be 
here, particularly to hear the last panel before this one went 
on.
    I am going to begin first by giving you a context for this 
presentation. It won't be long, because I would like you to 
open it up to questions and give the other panelists some time 
to speak. Yes, I am Roger Blunt, resident of Upper Marlboro. I 
have a business office in the same place, and I own a company 
that I started in 1971. Much of my first career was in the 
Corps of Engineers. I have been involved in the transportation 
and infrastructure construction field since its founding in 
1971.
    I am a professional engineer with registration in the 
District of Columbia. I hold two master's degrees at MIT, one 
of which is in civil engineering. And if you are in the nuclear 
field, I would be talking nuclear; I have one there too. My 
company built and operated an asphalt batching plant which 
supported my road building companies in the seventies. I was a 
member of the District of Columbia Chapter of the American Road 
and Transportation Builders Association, ARTBA. I also served 
the National Asphalt Paving Association, NAPA, as its State 
director for the District of Columbia from 1979 to 1984.
    The projects my company undertook included total 
replacement of two bridges in the District, asphalt runway 
repairs at Reagan, the first parking facility at Dulles, 
concrete apron construction as well as parking lot construction 
all over the place. And I think before I finished, I put about 
50,000 tons of asphalt in the last year on the roads in the 
area.
    The Architect of the Capitol congratulated my company for 
the fine job we did on Constitution Avenue. Additionally, my 
affiliate and commonly owned company performed extensive work 
as a subcontractor for the Washington Metropolitan Area and 
Transit Authority. I guess my last job was about 10,000 liners 
for the tunnel system that I did for J.F. Shea.
    In my work over the years, I have concluded that the 
principal impediment to growth of a small business in the 
construction arena is undercapitalization and universal 
inability to access capital, credit, and bonding.
    Now, I am going to state here that there is adequate 
technical capability in Maryland's small business community 
available today, whereby many small firms could engage stimulus 
package opportunities as prime contractors if they had bonding.
    Now, let me digress just a little. Very recently, I guess 
it was in October, I was a keynote speaker at the Small 
Business Conference at GSA. One of the things I did in my 
research is I looked at the SBA advocacy instrument, which kind 
of startled me because it said as of 2007 there were 27.2 
million businesses in these United States. Unfortunately, most 
of them are small. There were only 17,000 large businesses. 
And, incidentally, the large businesses have been growing by 
merger, acquisition and the financial strength that they can 
bring to the table.
    In our current environment there is a real short supply of 
bonding. And to play the game, one has to have bonding. And if 
you don't have an adequate capitalization, you can't indemnify 
the bonding company, so you don't get bonding.
    Interestingly, I heard in the first panel, I think the 
Chairman referred to a past depression, and I heard him cite 
President Roosevelt and what he did very quickly. What he also 
did that year was, I think his administration passed the Miller 
Act, and I think we all know what the Miller Act is. It says if 
the government engages with a contractor, the public must be 
protected by some kind of instrument that will come to the 
table and assure that the prime contractors pay their subs.
    Well, over the years it is still in place, and over the 
years the majority of contractors who have the capital and 
credit and bonding have passed that risk off to the 
subcontractors. Now, interestingly, the SBA advocacy instrument 
indicated that net new job creation every year, 60 to 80 
percent is by small businesses. So it is important, as we think 
about this legislation, that we find ways to ensure that labor 
really gets involved, because most of it is going to be through 
small businesses.
    I suggest that however adequate our small business 
technical capability is, there should be assurance in this 
legislation that an alternate indemnification means is provided 
for small businesses who can't get to the table.
    I will also say why that is. Bonding companies look for 
adequate capital to come to the table when there is a default. 
The majority of contractors who want to engage subcontractors 
quite normally will say, Can you put up a bond? And, quite 
frankly, the banks don't lend money to small companies except 
on the value of their homes, their real estate.
    In this particular environment, the adequacy of the capital 
that could be relied upon by the bonding companies in small 
businesses is damaged, it is weak. And so I have been working 
at a program that I used several years ago. It was a guarantee 
program in the State of Maryland through the Maryland Small 
Business Development Finance Authority. I noticed that they 
have a bond guarantee program. It is too small, it should be 
enlarged.
    The next thing I noticed was that while I gave some advice 
and assistance as that program went along, I found it 
remarkable that for the companies they have served over the 
years, managed by Meridian Management Group, they have had 
remarkable experience with respect to defaults. I think over 
the years, probably less than $300,000.
    But the point I make is that that program provides working 
capital, contract financing, and, at the same time, bonding. It 
is positioned, where SBA couldn't be positioned, to relate to 
highly skilled completion contractors, so that the money is in 
the bank providing service to the contractor. It is monitored. 
And if the contractor gets into difficulty, a completion 
contractor can come to the table and solve the problem.
    So I ask you to look at that as a typical mechanism. It 
should be expanded. It will ensure that jobs can be expanded 
and that small businesses can participate in a realistic 
fashion.
    Now, I have heard people say we are moving fast, that we 
have contractors in place, that we have good-faith efforts, 
but, in my judgment, it takes more than good faith. With 
bonding, the small firms can be in the lead, and they will not 
be abused. From my experience, a lot of this is unit-priced 
work where you can take a typical Federal contract in doing 
work--transportation and infrastructure work--and one can also 
hook up with a large contractor. After all, I had an asphalt 
plant, but there are people who have concrete plants. There is 
no reason why teaming arrangements or joint ventures, where 
both parties have bonding, cannot work together to expand the 
jobs that are created.
    I would say, finally and lastly, that I also chair the 
construction committee of the BRAC Small and Minority Business 
Advisory Board for the Governor. So we are working together to 
achieve a point. The first panel basically were bureaucrats and 
representatives with a system to demonstrate how fast they 
could get the work out into the market.
    I would ask you, please, to consider what could be done at 
this particular time of change to make it possible for the 
small companies to play the game without being the middleman.
    Mr. Oberstar. Thank you for your testimony and for raising 
the issue.
    Congressman Cummings and Congresswoman Edwards have been a 
couple of steps ahead of you. They raised that issue with me 
and with the Congressional Black Caucus about 3 weeks ago. 
There is now language in the stimulus initiative that builds on 
the provision of the current surface transportation law that 
provides $20 million for transportation and technology training 
under the DBE provisions of current law, and $20 million for 
disadvantaged business enterprise bonding assistance, 
paralleling the program of the State of Maryland, which both 
Mr. Cummings and Ms. Edwards brought to my attention. They laid 
it out just as you did a moment ago, and that language is now 
in the bill with funding.
    Mr. Blunt. Well, Mr. Chairman, that is great. That is 
powerful. That is very helpful.
    Mr. Oberstar. Mr. Marinucci.
    Mr. Marinucci. Thank you, Chairman Oberstar and members of 
the committee, for allowing me to address the committee today.
    I am a director with New Flyer and was past president and 
CEO for the past 7 years.
    We were established in 1930, the leading manufacturer of 
transit buses in North America, with about 42 percent market 
share. We have manufacturing and assembly facilities in 
Crookston and in St. Cloud, Minnesota. We have parts 
distribution centers in Kentucky and in California. We employ 
over 1,000 Americans in manufacturing. As well, we have parts 
service support throughout North America. We have ongoing 
relationships with 240 transit authorities, including 19 of the 
top 25. We are the industry R&D leader; first to North America 
with low-floor buses, articulating buses, natural gas buses, 
low-emission hybrids, and all-electric, rubber-wheeled 
vehicles. We are building zero-emission fuel cell vehicles 
currently for the North American market.
    Our proposal today is to invest U.S. $1 billion to 
stimulate the exercise of options and create and maintain 
44,500 personyears of employment.
    We believe there are eight benefits to this proposal. One, 
it is quick to market. Options already exist. They can be 
effected in 1 to 4 weeks. The contracts exist. The commercial 
terms are set. The equipment is specified. All we really need 
to do is to provide revised pricing, which is easily calculable 
under the PPI index, section 1413, and to provide delivery 
dates.
    I cannot speak for the entire industry, but in our company, 
we have 5,500 options available and just under 500 options that 
we could actually put to market this year in 2009. The 
manufacturing infrastructure already exists in the United 
States to support this because our industry is only running 
currently at 70 percent. We can build 7,000 buses a year, but 
currently we are only building 5,000.
    Secondly, significant job creation and maintenance in a 
very high-value-add, knowledge-based space, which does comply 
with all regulation governing health and safety, environmental 
DBE legislation, and, of course, gender diversity.
    The $1 billion investment will create $2.2 billion of 
direct payroll. This is work at our plants and work at our 
supplier plants. Most of our suppliers are in the U.S. This 
excludes the benefit, the multiplier benefit, which we believe 
to be about six times the wage of $2.2 billion. In other words, 
once you pay those wages in the United States, we believe some 
of that and, perhaps, a lot of that will be spent and will 
create further economic activity.
    Number three, we believe it is a good proposition because 
the current infrastructure is aging. In fact, 20,000 buses 
currently operating in the United States, according to APTA, 
has gone beyond the 12-year economic life cycle, and that is 
important because that is the guideline set by the FTA to allow 
for the FTA funding on these vehicles.
    In our view, these dollars must be spent because we serve 
an essential service. Without transit, the economy could not 
move. As well, ridership is growing very, very quickly as the 
economy deteriorates. In fact, this year we are seeing 
ridership gains of 5.2 percent year to date. That is two and a 
half times the growth that we have been seeing annually over 
the last 15 years.
    Fourthly, the productivity benefits of a renewed fleet, a 
fleet that is properly sized to the economic life cycle curve, 
will allow service expansion, which will create jobs at transit 
authorities. The service must expand to meet the ridership 
increases, but we do not believe the operating expenditures 
will increase, because the new equipment will eliminate 
spending inefficient dollars to keep old and aging and 
unproductive equipment on the roads.
    We believe the fifth benefit comes from the environment. 
Seventy-eight percent of our current backlog of 5,500 buses is 
actually in green vehicles. We utilize hybrid, diesel, 
gasoline, electric trolley, fuel cell, and CNG/LNG 
technologies. As well, though, the 22 percent that is in diesel 
propulsion format with the new, more rigorous EPA requirements 
in 2010, that equipment will be much cleaner, generating far 
less NOC in particulate matter even in a diesel format.
    The sixth benefit is a widespread benefit to U.S. Citizens. 
In our option backlog, we have 30 customers covering 16 States, 
so they will get the benefit of new green equipment. Our U.S. 
suppliers who supply 82 percent of our material needs will 
benefit as well. Those suppliers are in 30 U.S. States. Out of 
the selling price of a bus, 70 percent of the selling price is 
material we have to buy before we assemble it into our designed 
units. Again, 82 percent of that is purchased from U.S.-based 
suppliers.
    Seventh is the accountability for money spent. That is 
pretty important. We are using taxpayer dollars here. Due to 
the nature of our business, our business is private. Private 
enterprises, ourselves and our suppliers, fully fund the 
working capital investment and the bus bill. Expressed 
differently, the taxpayer dollar is expended only after the 
jobs have been created, the employees have been paid, the 
multiplier effect on the supplier side has been realized, and 
the finished product has been delivered and has added value to 
the transit authority. I think that is a very, very strong 
governing system to protect the taxpayer dollar.
    Lastly, this is a good return on investment. The payroll 
taxes paid on the incremental wages created and the new 
consumption taxes paid when those wages are spent in the United 
States, coupled with the avoidance of unemployment-related 
costs to the U.S. taxpayer, will net the U.S. taxpayer an 
excellent return on an investment in green essential 
infrastructure which had to be renewed anyway.
    Thank you very much.
    Mr. Oberstar. Thank you, Mr. Marinucci. I really appreciate 
your testimony and your contribution not only to the national 
economy, but to that of our State of Minnesota.
    Mr. Poupore.
    Mr. Poupore. Thank you, Chairman Oberstar.
    Mr. Oberstar. Please touch your mike.
    Mr. Poupore. Thank you, Chairman Oberstar, Ranking Member 
Mica and distinguished members of this committee.
    My name is Ray Poupore, and I am testifying on behalf of 
the National Construction Alliance II, a partnership between 
two of the Nation's leading construction unions, the 
International Union of Operating Engineers and the United 
Brotherhood of Carpenters and Joiners of America, to support 
your efforts to revitalize America's economy. We also are 
partnered with our contractors that your proposal here to 
stimulate the economy is critical to also.
    The two unions of the Alliance represent nearly 1 million 
hardworking American men and women. We build our Nation's 
transportation and water systems, rail networks, airports, 
locks and dams, schools, power generation systems and the like; 
in a word, infrastructure.
    Experts tell us we are in the worst economic downturn since 
the Great Depression. As the chief economist for Moody's 
Economy, Mark Zandi put it, quote, "The economy is shutting 
down." In all due respect to the experts, I do not need to have 
them tell me how bad the economy is. Unfortunately, I hear it 
firsthand from my members, who are ready to work and who are 
willing to work, but who cannot find a job.
    As we look forward, let us not forget what our forefathers 
did to make this country great. Lincoln gave us the 
transcontinental railroad, Roosevelt gave us the leadership to 
defeat the Great Depression through building infrastructure, 
and Eisenhower gave us the Interstate Highway System. All of 
these investments to the Nation's infrastructure made this the 
greatest, most productive country in the world.
    It is time to borrow a page from our forefathers' playbook 
and put hardworking Americans back to work by rebuilding the 
national infrastructure. Rebuilding the Nation's crumbling 
infrastructure will provide workers with paychecks and with 
dignity. It will increase our competitiveness in a global 
marketplace by stimulating our economy now.
    As you have heard from other speakers, Mr. Chairman, the 
construction industry is in a free fall. The unemployment rate 
in construction is over 15 percent. Over 1.4 million 
construction workers are out of work and are looking for a job. 
Since its peak in September 2006, construction and employment 
has fallen by 900,000 jobs. Overall, more than 100,000 
construction jobs were lost this past December.
    To put it simply, the financial crisis on Wall Street has 
affected all of us on Main Street. Our Nation cannot afford to 
keep losing construction jobs. They are the foundation of our 
economy. They provide family-supporting real wages to millions 
of workers who are both union and nonunion. The average hourly 
rate for a journeyman construction worker was $22.37 in 
December 2008.
    By maintaining and creating new construction jobs, we will 
prevent numerous foreclosures, will allow more people to 
purchase homes and to buy the fuel-efficient cars that my 
hometown, Detroit, is producing.
    As you consider spending $825 billion to boost the economy, 
the largest fiscal stimulus in the American and, indeed, the 
world history, it is important to remember the key role played 
by infrastructure investments compared to other strategies to 
revive the economy. Infrastructure investments deliver a large 
stimulative effect, employing workers almost immediately, but 
the key point is this: Every dollar invested in construction 
generates another $1.59 that flows through the rest of the 
economy. In other words, you get the most bang for your buck.
    But first and foremost, members of the carpenters and 
operating engineers need paychecks, as well as the other 
building trade brothers and sisters. The rest of the economy 
will benefit not only in terms of short-term job benefits and 
the associated multiplier effect, but also by making an 
essential down payment in the competitiveness of the Nation. 
Infrastructure investments are perfectly suited to the American 
recovery and reinvestment plan.
    Mr. Chairman, Americans urgently need work. Investment in 
infrastructure will deliver real jobs with real paychecks in 
the real economy.
    To those who fear passing this stimulus package, as 
Franklin Delano Roosevelt said, "The only limit to our 
realization of tomorrow will be our doubts of today."
    We urge that the committee support the enactment of a 
stimulus bill with an infrastructure component along the lines 
of those proposed by Chairman Oberstar. As the U.S. Department 
of Transportation has stated, for every $1 billion invested in 
surface transportation infrastructure, over 30,000 jobs are 
created in construction and in the overall economy.
    Mr. Chairman and members of this committee, thank you for 
the opportunity to offer this testimony. We are eager to 
continue to work with you in this new 111th Congress. We know 
that members of this committee are focused on getting Americans 
back to work and in building the infrastructure of tomorrow 
today. We share the committee's focus.
    Mr. Chairman, I want to sincerely thank you for this 
opportunity to testify in front of your committee. You are 
truly a champion of working people and of the construction 
people who I represent.
    Mr. Oberstar. I appreciate those comments. Thank you very, 
very much. Thank you for your splendid testimony.
    Mr. Sullivan.
    Mr. Sullivan. Thank you, Mr. Chairman, for the opportunity 
to provide PCA an opportunity to share the cement industry's 
perspective on the need for infrastructure investment.
    PCA is pleased to share the industry's views on its 
capability of meeting these U.S. infrastructure needs. Portland 
Cement is the binding agent that gives concrete its strength. 
Concrete is a requirement in virtually every type of 
construction. Roughly half of all cement consumed in the United 
States is used by the public sector for the construction of 
roads, highways, schools, and of sewer and water treatments.
    The Portland Cement Association represents 97 percent of 
the domestic cement manufacturers. There are 45 companies 
operating 106 plants in 35 States, and it operates distribution 
centers in all States and virtually one in every congressional 
district.
    In our key assessment of the United States cement industry, 
it has more than enough supply potential to feed even the most 
optimistic infrastructure spending program. This assessment 
primarily reflects weak, prevailing demand conditions, 
resulting in the ability to tap idle capacity as well as the 
most aggressive capacity expansion effort in the industry's 
history.
    Combining domestic and foreign sources of potential supply, 
the United States is capable of supplying nearly 130 million 
metric tons of cement in 2009 and more than 150 million metric 
tons by 2012. The use of blended cements could increase the 
potential by an additional 25 million metric tons. This supply 
potential is measured against 95 million metric tons consumed 
in 2008, an estimate of only 81 million metric tons in 2009.
    Take a look at our supply conditions. The Portland Cement 
industry in the U.S. has an estimated domestic capacity of 102 
million metric tons. In addition, the industry is currently 
engaged in aggressive capacity expansion. By 2013, this 
investment will increase capacity by nearly 25 percent over 
2007 levels. Aside from domestic supply, the industry operates, 
roughly, 125 import terminals with an import capacity of 45 
million metric tons. With the onset of weak global economic 
conditions, freight rates have declined significantly, and ship 
availability has improved since mid-2008, making imported 
cement more economically viable.
    Finally, economic distress has generated roughly 3 million 
tons of excess inventory and temporary storage, which could be 
drawn down quickly in support of improved demand conditions. In 
terms of demand, the U.S. economy faces severe near-term 
challenges. Left unchecked, existing cyclical and structural 
conditions could result in a long and deep economic 
contraction. Lacking fiscal intervention, PCA estimates the 
economy will decline 2.7 percent in 2009, followed by a more 
modest decline in 2010. Under a no-stimulus scenario, cement 
consumption declines 15 percent during 2009, followed by 
another 8 percent decline in 2010. Subdued growth materializes 
thereafter.
    A stimulus plan with the emphasis on infrastructure would 
brighten demand conditions facing the United States cement 
industry. According to PCA's assessment, a stimulus plan could 
increase cement consumption by 6 million metric tons in 2009, 
by 17 million metric tons in 2010 and by 18 million metric tons 
in 2011.
    There are market imbalances, and potential market 
imbalances are generated by either changes in consumption, 
capacity or both. The current combination of declining cement 
consumption and increases in capacity will create potential 
market imbalances that could constitute the largest and longest 
lasting in history. Based on PCA's estimate of cement 
consumption and announced capacity expansions, market 
imbalances could reach in excess of 23 million metric tons in 
2009. Lacking a stimulus, future imbalances could be larger.
    Imbalances that are expected to characterize the market 
during the next 2 years may result in elevated inventories, 
import reductions, prolonged maintenance shutdowns, lower 
utilization rates, and potentially in the delay of new plants 
coming on line.
    Thank you, Mr. Chairman. That concludes my remarks, and I 
would be happy to address any questions later on.
    Mr. Oberstar. Thank you very much.
    Any discussion of cement touches a very special place in my 
heart and in my work history. When I was in high school, I 
worked weekends at King Lumber Company in Chisholm. One of my 
duties was to unload an entire boxcar of 94-pound cement sacks 
of Portland Cement. I will never forget how much a sack of 
cement weighs. Then I worked for Raleigh Ready Mix Concrete, 
making concrete blocks and pouring ready-mix concrete. So I 
know about Portland Cement.
    Mr. Withington, welcome.
    Mr. Withington. Mr. Chairman and members of the committee, 
thank you for the opportunity to testify today on behalf of the 
Amalgamated Transit Union.
    Mr. Oberstar. Just a moment. There is something haywire 
with your microphone.
    Mr. Withington. Is that better?
    Mr. Oberstar. Try it again.
    Mr. Withington. Is that better?
    Mr. Oberstar. No. We will have to get you a new microphone. 
Just move over to the other microphone. Sorry about that.
    Mr. Withington. That is okay.
    Mr. Oberstar. We have our own infrastructure problems here.
    Mr. Withington. Mr. Chairman and members of the committee, 
thank you for the opportunity to testify today on behalf of 
Amalgamated Transit Union. We are here today to express our 
disappointment that the House stimulus bill does not include 
critical funding for transit operating assistance as 
recommended with the bipartisan support of this committee.
    My name is Tony Withington. I currently serve as an 
international representative for the Amalgamated Transit Union. 
I have been involved in the transit industry for nearly three 
decades. In all my years, I have never witnessed such 
extraordinary circumstances as we are seeing today. Record high 
gas prices in 2008 caused millions of people to try public 
transportation. Despite the recent drop in the price of oil, 
many transit systems continue to report capacity issues. Yet, 
ironically, at a time when Americans are leaving their cars at 
home like never before, transit systems are being forced to 
implement painful service cuts and fare increases because of a 
shortage in State and local revenues.
    Mr. Chairman, in our testimony we cite all of the factors 
as to why transit and specifically operating assistance is a 
smart investment in our economy. Yet I know the long history of 
transit operating assistance and of ideological battles that 
have gone on for many years here over this issue. Let us leave 
all of that aside for now. Instead, let us talk about the 
impact of steep fare increases and deep service cuts on working 
families across the Nation.
    Let us talk about how much of a burden it is for a person 
with a disability, who is already making far less than an able-
bodied person, to deal with his or her pared transit trip more 
than doubling in cost. Fare increases are having a devastating 
effect on working families between the increased price of food, 
health care, heat, and other everyday necessities. Middle-class 
families are being squeezed. As never before, Americans, 
especially seniors living on a fixed income, simply cannot 
afford transit fares in the neighborhood of private taxis.
    As if the fare increases are not enough, the service cuts 
may actually be worse. Generally when routes get cut, transit 
service tends to look towards those with low ridership: early 
morning, late night and weekend service. People who work 
nontraditional hours, typically minorities who have no other 
means of transportation, are disproportionately affected. The 
single mom who now gets her kids up at 4:30 in the morning to 
catch a bus in time to get her children to daycare and then 
herself to work cannot be expected to wait an additional hour 
for the transfer bus to arrive while standing in the freezing 
cold with two kids in tow, but that is exactly what is 
happening out there. Our drivers have seen it firsthand.
    Mr. Chairman, I hope that members of the committee can see 
how ridiculous this current situation is. We have a tidal wave 
of new passengers, resulting in more farebox revenue, yet in 
many places we find ourselves unable to cope with the change in 
American travel habits. The reason is that the State and local 
tax revenues are way down, and widely fluctuating fuel prices 
and insurance costs are busting transit agencies' budgets. 
People on the managed side have told me that even if the 
Federal Government gave them the money to double the size of 
their existing fleet, they would probably have to keep a good 
portion of those buses in the garage. Transit systems do not 
have the operating money to run their current fleets. As a 
result, we are seeing cut services at a time when people are 
turning to transit in record numbers. This is insane.
    Finally, it was our understanding that the stimulus package 
was intended not only to create jobs, but to also help industry 
avoid further job losses. Without Federal assistance, we 
believe that a multi-million-dollar transit industry, which 
employs nearly 400,000 hardworking Americans, will continue to 
lay off workers at a rapid pace. Transit systems need operating 
money to stay afloat and to avoid balancing their budgets on 
the backs of working people. Transit riders and employees do 
not have any more to give.
    We strongly support the inclusion of $2 billion in transit 
operating assistance as part of the stimulus package.
    Mr. Chairman, I would like to thank you personally, and Mr. 
DeFazio, for the extra efforts you have put on this issue. 
Thank you for the opportunity to testify. We would be pleased 
to answer any questions.
    Mr. Oberstar. Thank you very much. That is very stark 
testimony you just gave.
    Before I go, by a previous order of the Chair, to Ms. 
Edwards, we did have authority in the initial proposal from our 
committee to use a portion of the capital funds for transit 
agencies and to use that for operating assistance, but that has 
been dropped from the final package. It still exists. That 
authority still exists under the energy bill that we passed in 
2007. It was enacted and was signed by President Bush, but the 
funding has not been appropriated for it. We tried to get that 
in the stimulus to help transit agencies on the principle that 
it does not make a great deal of sense for transit agencies, on 
the one hand, to buy new buses and, on the other hand, to lay 
off workers from their existing workforce.
    Now, Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to the 
panelists. This has really been an enlightening discussion that 
we are having already, and I appreciate your testimony. Just a 
couple of things.
    One, Mr. Donahue, I look forward to working with you on the 
gas tax issue. It is great to hear that coming from the 
Chamber. I am sure my friends at the Sierra Club will be 
pleased to hear that as well.
    I am curious, though, as to whether you all believe that 
the kind of investments that we are proposing in transportation 
and in other infrastructure really meet the current crisis. 
There are some who have argued that we actually need more 
infrastructure investment than we are considering right now, 
and we may not be able to do this all at one time. So I am 
interested in your comments about how many new jobs you think, 
as to what we are considering, it will result in, especially 
given the number of jobs that we are currently losing in this 
climate.
    Again, I deeply appreciate the work of both our transit 
workers and our construction and building trades that, I think, 
have just suffered really tremendously in this environment. All 
of you do not have to comment, but I am particularly interested 
in comments from Mr. Donahue.
    Mr. Donohue. Well, thank you very much. Just one side 
comment: We would be very happy to work with the environmental 
people, although a good number of those organizations think 
that any road that we would build or any bridge that we would 
build other than repair would just bring more cars, and I am 
not sure I have the same view as they do of what we ought to do 
with the increase in the fuel tax. I mean, I believe if we are 
going to do it, we have to repair; we have to upgrade, but we 
have to expand.
    Perhaps the Chairman and I would be very much in agreement 
that we have to take on these hotspots, and that, if we can get 
rid of them, then we can really improve the air quality, but we 
are anxious to work with him.
    Now let me answer your specific question.
    First, the amount of money that has been put in the 
stimulus package for infrastructure is not only disappointing, 
it is stupid. It is great to do some of the things that the 
stimulus package is talking about to help individuals, income 
transfer and all that sort of thing, but the project here is to 
put people to work, to create jobs, to sustain jobs, to provide 
opportunities for people to be at work long after the few 
dollars that are in transfer payments have been long spent.
    I would simply say that our understanding in our 
conversation with the new administration as to the President's 
original concept--and by the way, we may still get there with 
the help of the Senate and from some more push here in the 
House--was there was to be a lot more spending on the creation 
of jobs and of giving companies the liquidity and the support 
they need to go out and hire more people than what is contained 
in the current bill.
    So, to answer your question, there is such a fraction of 
the amount of money that could be spent right away. Then going 
to the long term, which the Chairman and I have been talking 
about and which you have, we have got to take a real careful 
look at where we are going. I am glad to hear the Chairman say 
he is starting from scratch, because we have extraordinary 
needs in infrastructure.
    You know, I have convinced the Chamber to support an 
increase in the fuel tax by saying it is not a tax--that it is 
not an income tax, that it is not an employment tax. It is a 
buy a road. It is a buy a bridge. Eliminate a bottle work. 
Bring more people to work. Save lives. That is what it is 
about.
    Ms. Edwards. Thank you.
    Now I wonder if I could hear from the union representatives 
about the job creation.
    Mr. Poupore. Yes. Representative Edwards, I appreciate your 
question, and I would like to let you know--and this might 
surprise you--that labor unions, at least the operating 
engineers', the carpenters' and the laborers' international 
union, belong to the Americans for Transportation Mobility 
Coalition, which is headed up with the U.S. Chamber of 
Commerce. We are on the same page. We have been working on this 
issue for many years, trying to tee it up for the 
reauthorization bill that is up this year.
    I also agree with Tom's comments that the stimulus is not 
nearly big enough to create the job creation that President 
Obama has talked about. So I understand that Chairman Oberstar 
has a similar concern because the number has been whittled 
back, I think, and I am glad to hear other members of the 
committee say, you know, it is not enough; it is not a high 
enough percentage.
    Representing the construction workers, it was in my 
testimony for every billion dollars spent--and you know about 
this multiplier--it creates approximately 30,000 jobs in 
construction in the overall economy. So Ranking Member Mica put 
up an illustration earlier today with very simple math to say, 
you know, if we would have $90 million in this stimulus for 
infrastructure, it would create 2.7 million construction jobs. 
Now we have heard--and it is in the record there--of how many 
shovel-ready projects are ready to go.
    So I would say that we are supportive of everybody here on 
the panel to try to move our country forward, to try to get out 
of this recession, to try to do what the President has said: 
Pick ourselves up, dust ourselves off and move forward. Thank 
you.
    Ms. Edwards. Mr. Chairman, I think my time has expired, and 
I know that Mr. Cummings has been waiting.
    Mr. Oberstar. We will come back to you.
    Chairman Cummings, Chair of our Coast Guard and Maritime 
Affairs Subcommittee.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I want to thank you also, Ms. Edwards.
    In sitting and just listening to you, Mr. Donohue, talk 
about an answer to Ms. Edwards' question, I am just curious. 
You know, it is one thing when you hear the President talk 
about innovation, which I agree with, by the way. I think, in 
our country, we have got to be much more innovative. I think we 
have fallen behind a little bit here.
    I am wondering, when you look at what we are doing with 
these dollars or are trying to do with these dollars, first of 
all, is there room for innovation so that we can have a more 
effective use of these dollars? See, I believe in effectiveness 
and in efficiency because we are at a time right now, as I have 
said to my constituents, when I think as to whatever moneys we 
use, we will have to use them like a heart surgeon, like the 
most skilled heart surgeon would use his instruments in 
performing the most delicate heart operation; in other words, 
the most effective and efficient.
    I am just wondering, when you look at what we are trying to 
do with these funds, do you feel like we are using the funds 
that we may have available to us? Not commenting on how much we 
have, but whatever we have, do you feel like we are in a 
position to use them to the most effective and most efficient 
level? If not, are there things that you all can see that we 
could possibly do to make that happen? Because that is what 
this is all about. As the President said, we have got limited 
funds, but we have got major problems, and so if there is a 
time for us to be effective and efficient, this is the time.
    Are there any of you who may want to comment on that?
    Mr. Donohue.
    Mr. Donohue. Let me provide two answers.
    First of all, I think, if you will take the long view just 
for a second and talk about when we recreate this fund, the 
long-term deal on surface transportation, there is a lot of 
room for innovation. I mentioned a few of the things. A lot of 
things we can do to get more bang out of the buck.
    In the short term, using your heart surgeon example, what 
we need is a defibrillator. We need to shock this economy back 
into motion, and we need to take the shortest position between 
two points. If you listen to the testimony about the number of 
construction jobs where people would go back to work simply by 
going to shovel-ready projects, and with the demand that the 
money go not to existing operations, but into new job creation, 
we have got a lot of innovation going forward, but what we have 
to do right now is to shock this economy into motion, to force-
feed this money into projects that used to take forever to get 
going. We have got to do them overnight.
    You know, out where I live, they had that big water leak--
you saw that--and they washed away a road, but it was a major 
place where everybody would go to work, and they did that thing 
in 96 hours. The normal deal would have taken forever. This is 
what we have to do here now. We have to take this money, put it 
in the system, tell people where it has got to go, give people 
a lot of flexibility to do it, and start planning our 
innovation for the long term, which starts this year, because 
if we start fooling with the system now, the idea is to take 
the money and put it to work.
    Mr. Cummings. I know you are going to answer next, Mr. 
Blunt, but let me just thank you, Mr. Blunt. I have known you 
for many years, and I just thank you for your leadership, 
particularly in trying to bang down the doors for so many 
people coming behind you and for those coming alongside of you 
and to open up opportunities.
    I am telling you we are very fortunate, by the way, to have 
the Chairman who we have on this committee, because as to the 
very things that you talked about, as you can see, he is very 
sensitive to those issues, and he has a history of them. But I 
want you to go ahead and comment on that. Then, I guess, my 
time will be up by the time you finish.
    Mr. Blunt. Well, you know, probably, Congressman, that I 
have been involved in higher education. One of the things that 
I see with this kind of money coming into the marketplace is 
that we do not have enough trained people for the sustainable 
pursuit of construction activities. You know the schools, the 
community colleges, the universities, and in having been 
involved in the accreditation process, it seems to me that at 
this time when there is an opportunity to expand 
matriculation--it is costly for young people to get this kind 
of education--there could be with a stimulus package a 
mechanism to keep that thing going, to expand. I think the 
training will take these people from no jobs to participation 
because they are on the outside of many construction jobs.
    In the past, there has not been enough, even for union 
employees, to be steadily employed, to go from one job to 
another, instead of slowing down to keep that job. So I ask you 
to take a look at that opportunity with the colleges, with the 
universities and with the training mechanisms to stimulate the 
preparation for people back into construction jobs.
    Mr. Cummings. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman.
    Mr. DeFazio, Chairman of our Surface Transportation 
Subcommittee.
    Mr. DeFazio. Thank you, Mr. Chairman.
    To Mr. Donohue first, you used the word "stupid" in terms 
of the amount of money that is being dedicated to 
infrastructure. Now, I have not used that word, but I have had 
some harsh words for the allocation of funds within this bill.
    What do you think the infrastructure numbers should be? 
What do you think it could be--let us put it that way--in terms 
of the constraints put on us in terms of quick obligation and 
spend-out?
    Mr. Donohue. It looks now that, from a quick count, it is 
at 7-1/2 percent of the obligation. If you had 12, 13 percent, 
you would put a lot more people back to work. You would 
probably stretch the ready-to-dig-right-now issue. I think, at 
the same time, as I testified, there are a lot of things we can 
do to take impediments out of the way of extraordinary amounts 
of private spending. It will not be quite as quick, but it can 
follow right behind it.
    You know, we came out and said we are going to support this 
President, that we are going to go far beyond where our Members 
want to go. We want a stimulus package that works. We have to 
sort of draw a line down the middle of the page and say, on one 
side, what creates jobs? What puts liquidity in companies? What 
creates tax situations that allow people to create jobs? What 
money goes into infrastructure? It is not just surface 
transportation. There are other issues as well, and they are 
encouraging. On the other side are the very necessary spending 
issues that the Members of Congress feel strongly about, but 
when it is all said and done, whether we are going to get out 
of this mess or not is if we can put people back to work.
    I used "stupid" because I tried to clean up what I was 
thinking. I think the mix can be changed significantly on the 
margin, and it will put a lot more people to work for a lot 
longer period of time. Thank you for asking me.
    Mr. DeFazio. Well, I guess the follow-up would be--and this 
is thinking I have discussed with the Chairman, and I have had 
a number of members of the committee approach me on this. I 
mean, we have a known tremendous infrastructure deficit, and 
you are correct, it does not just go to surface transportation 
issues. Within my jurisdiction it goes to rail; it goes to 
water and sewer and to all sorts of public amenities. It goes 
to the productivity of our economy and to the capability of 
businesses to promote work. But I am thinking perhaps, if they 
wanted to limit us to these ready-to-go projects, that we 
should be talking about a second tranche of investments to 
further address the known deficits.
    For instance, the testimony we had from Chicago, of course, 
is they are ready to go with $500 million, but others, you 
know, may not be quite as capable of spending as quickly. If 
you know you are going to replace a bridge next year, the jobs 
actually start today. You hire the designers, the engineers. 
You begin site preparation. All of those things start today, 
and people can plan capacity for a year from today in placing 
the steel orders, in placing the cement orders and all of the 
other things. I mean, it seems to me that maybe a follow-on or 
a second tranche, even within this package, might be wise for 
things that take slightly longer to get going.
    Mr. Donohue. Then you would have three tranches, which I 
would support. One is whatever goes into the immediate stimulus 
package. A second tranche might be that which would keep those 
people working who were hired, and maybe you could hire other 
people. Then when you go to the reauthorization or whatever you 
are going to call it, we have got to get everybody together and 
understand this is something that needs extraordinary amounts 
of money. A major portion of it can come from the private 
sector. I am not talking about joint ventures or public-private 
partnerships. I am talking about private money if we take 
impediments out of the way.
    Mr. DeFazio. Okay. Well, this is not the time to examine 
it. I would love to have that conversation and understand what 
that is about. I would also like to discuss an alternate way of 
taxing fuel, but not putting it on at the very end of the line 
at the pump. That, I think, has some promise.
    If I could go to Mr. Marinucci, I just want to restate for 
the record, because of the concerns we have heard from CBO and 
from others about the potential to spend out, you said that at 
this point we are at about 70 percent of capacity in our 
industry, in our existing industry in America on the production 
of large buses; is that correct?
    Mr. Marinucci. Correct.
    Mr. DeFazio. Okay. If we took it up to 100--I mean, maybe 
you have never hit 100. There are economic inefficiencies when 
you get to 100, but let us say you get to 90. How many people 
would that employ? I mean, you have got an extended supply 
chain.
    Mr. Marinucci. Each bus attracts 1,000 hours of direct 
work. I have got the math here on what happens if it is 500 
buses, which would be taking the capacity up from about 70 to 
76 percent, and that would create----
    Mr. DeFazio. That is 500,000 hours.
    Mr. Marinucci. --3,876 direct personyears of employment. To 
stimulate that would require an investment, an incremental 
funding of $95.4 million. So, on an incremental funding-to-job 
basis, only looking at the direct jobs, it is $24,615 per job.
    Mr. DeFazio. Wow, that is a pretty cost-effective measure. 
I hope our CBO friends are still listening. We have 
underutilized capacity.
    Were the money there to place these orders at the price of 
only $25,000 a job, we could produce 3,800 direct jobs related 
just to bus orders, let alone getting into other aspects of 
locomotion issues.
    If you take out the bill as a whole and divide in the 
number of jobs that are expected, I think one of my colleagues 
came up with 200,000 per job or something in the package as a 
whole. So it sounds to me like we are looking at a pretty cost-
effective investment here and with a further expansion on the 
infrastructure part.
    So thank you, Mr. Chairman.
    Mr. Marinucci. One final comment if I could. I would 
caution that that is only the direct jobs. That is the jobs 
that we would employ and our suppliers. It excludes the 
economic impact. So, when you put the wages in their hands, and 
they spend the money in the economy, if you did that--and we 
were told that that multiplier is 6--you would divide 6 into 
the 24,000 per job, and you would have an incremental funding 
per job of just over $3,000, which is well under the dollars 
for jobs that they normally use in building these business 
cases.
    So there is tremendous leverage, and it is because you are 
investing in high-skilled to semiskilled manufacturing jobs 
that are knowledge-based. Again, you are producing state-of-
the-art, environmentally friendly transportation vehicles in 
the United States.
    Mr. DeFazio. Okay. Those are extraordinary numbers. Thank 
you.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you for those questions and for that 
valuable information.
    Mr. Boozman of Arkansas, our current acting Ranking Member.
    Mr. Boozman. Thank you, sir.
    Mr. Donohue, we have talked a lot today about Federal 
funding for infrastructure. How can we encourage the private 
sector to participate in the economic recovery through its own 
investments?
    Mr. Donohue. Mr. Chairman, that is a great question because 
everybody from homes to banks to companies are sitting on their 
cash, sort of waiting to know where the bottom is and when to 
get going, and that is why a stimulus program is so important, 
I mean starting on the Federal level, because it sort of gets 
the ball rolling. Once the ball gets rolling, a lot of people 
are going to get onto the field.
    I have been spending a lot of time talking to people all 
over the country about when is somebody going to call a start 
to the race. You know, everybody is watching their banks, and 
there is not much money coming out for investment, and 
everybody is watching their stock, and everybody is looking at 
their books, and we are on the wrong curve right now. We will 
see that economic growth in the fourth quarter will be down 
close to 6 percent. In the first quarter of this year, it will 
probably be down 3 percent or more. If you listen to Mr. 
Bernanke, by the middle of the year, we are going to be 
bouncing off the bottom and getting going.
    So I think the stimulus program helps some. I think 
overall, philosophically, it helps a lot, and I look forward to 
talking to Mr. DeFazio and others.
    I think, if we look at some of the obstructions that we 
could take out of the way of the private-sector investments--
and these will not be in 180 days, but they come on behind--
there is such a pent-up capacity to build electrical capacity 
and to put up lines. The one I like, because it is so 
environmentally friendly, is if you build some nuclear power 
plants, you can employ every unemployed automobile worker for 
as long as they will work if you can just get going.
    So you have asked the right question, sir. How do we get 
the pump going? How do we prime the pump? Everybody is sort of 
in a state of animation. Technology people are ready to sell 
new things. Everybody has got a way to improve productivity and 
to make us stronger, but somebody has to go first. We have got 
to get this thing going, and that is why this stimulus program 
is so important and why we ought to do it in a way that causes 
people to start spending, investing and moving.
    Mr. Boozman. Thank you very much. I agree. You know, we do 
have to prime the pump, but at some point the private sector 
has to come and kick in or the pump is going to quit working 
again.
    Mr. Marinucci, I just had a curiosity. Pretty significantly 
right now, we have a decline in the economy. How has that 
affected ridership? Bus ridership is up. Has that helped you? I 
mean, are we selling more buses, or are the bus entities in a 
bad way? Are you selling more buses as a result of people 
riding the buses more, or is it stagnant?
    Mr. Marinucci. The fleet size itself is not expanding, 
which would indicate that service is not expanding, which 
supports what we are seeing as the transit ridership increases, 
which is just providing more density in existing corridors. 
Buses are fuller, and people are waiting longer to get on the 
buses. I think in any major urban city, especially during peak 
hours, you will see buses driving by stations because the buses 
are full. They cannot stop and take on passengers. I believe 
the testimony earlier supports that as well.
    We suspect, however, the transit ridership increase, which 
is really being caused not by fuel prices--in fact, when fuel 
prices started to decline, we actually started to see the 
higher ridership. The unfortunate driver of ridership increases 
is really the lack of disposable income in the hands of the 
average U.S. consumer. They really do not have an alternative 
other than taking mass transit, which is far more cost-
effective for them. Of course, that growth will stymie at a 
point, I believe. You know, a lot of our ridership takes 
transit to go to work. Jobs are declining. So we would expect 
longer-term ridership to decline.
    Our business is generally a replacement business. We are 
not seeing increased orders due to increased service leveraging 
the increased ridership. In Chicago, that was going to happen. 
Unfortunately, funding stopped that from happening, and as well 
that negatively impacted us because we had the order--or the 
shop--committed for that business, and now that is not going to 
materialize, unfortunately, due to funding, although the 
ridership is there.
    Mr. Boozman. Thank you.
    Thank you, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman for the questions.
    I would just supplement Mr. Marinucci's response.
    When I visited the New Flyer back in October, I had a 
discussion with your plant manager and with your procurement 
personnel, and I saw the effects of the fiscal meltdown in the 
banking sector and that cities were having difficulty floating 
bonds due to the financial meltdown. You had buyers in line in 
cities who wanted to acquire the energy-efficient, air-friendly 
and emissions-friendly buses, but they could not get the 
capital to acquire the buses. Now the far-reaching effect of 
this financial meltdown is just extraordinary.
    Mr. Donohue, in 1935, Franklin Roosevelt established the 
Advisory Committee on Allotment to guide the President in 
establishing the Works Progress Administration. It started with 
17 various agencies of government, which now would amount to 
about three departments, but then he had a representative of 
the Business Advisory Council, sort of the predecessor of the 
U.S. Chamber of Commerce or its equivalent thereof.
    Also in the legislation and in the Executive Order he 
issued, he said, "In carrying out the provisions of this 
resolution, full advantage shall be taken of the facilities of 
private enterprise." I think that is a further answer to Mr. 
Boozman's question.
    What is the private sector going to do? They are doing this 
work. This work is being contracted out to the private sector 
in our stimulus--well, it is called "economic recovery"--in our 
portion of the recovery program. It is the private sector that 
is going to create the jobs.
    The problem that we are having and why our number has been 
cut back is the issue I addressed with the opening panel, and 
that is the finding in the report of the Congressional Budget 
Office that the money cannot be spent this fast; that the 
private sector cannot ramp up that quickly; that we cannot put 
the people to work in the building trades, in the construction 
trades, in the transportation trades, and therefore, they 
assigned to the first-year spend-out of this package only 2.6 
percent. Therefore, the Appropriations Committee said, our 
hands are tied. We have to reduce the size of this whole 
package.
    Then the opponents of the initiative said, oh, gee. It is 
not going to create jobs for 4 years. They have been 
criticizing it over there in the other body. Well, as you will 
see, there is virtually no light between the Democratic and 
Republican sides of this committee on this issue.
    In the first 3 years, the CBO said the spend-out rate would 
be 26.6 percent, but the normal spend-out rate that CBO assigns 
to Federal highway projects is 84 percent. We are saying, on 
the one hand--as Governor Doyle said of his State and in 
speaking for DOTs across the country--State departments of 
transportation will do their normal spend-out. They are 
required to do so under the provisions that will be included in 
this recovery package. So they will do the 84 percent, and then 
they are going to do all of these other projects on top of 
that, and they have the capacity. The Federal Highway 
Administration has just said that, under current law, we do not 
need new law to do this. I am quite certain that we had that 
authority, that States can contract with management 
consultants, with private-sector consultants. The State of 
Minnesota does that regularly.
    Most DOTs use private consultants to expedite the State 
contracting process, and those management services can include 
financial management, procurement, scheduling, cost control, 
design and construction management, and performance management 
reporting, all of which are required under our legislation.
    So there is no excuse for State DOTs not to get the money 
out quickly, not to engage the private sector, not to put 
people to work. As I explained to Mr. Blunt earlier, we have 
funding in this bill: $20 million for training, for 
apprenticeships, for minority business enterprises, and for 
funding to help minority enterprises get the bonding assistance 
they need per the initiative, Mr. Cummings.
    Now the question is further, Mr. Marinucci: In the hearing 
that Mr. Mica and I held at the end of October, we heard from 
transit agencies across the country, including MARTA, the 
Atlanta transit agency, that they need 20 new buses. What is 
that going to do for Atlanta? It is going to bring them into 
better compliance with their air quality requirements. It is 
going to create jobs. It is going to create ridership, and it 
will reduce congestion.
    Where are you going to buy the buses? Oh, we buy ours from 
New Flyer of Minnesota. Muncie, Indiana, said they are in the 
same position. They buy theirs from Gillig in Hayward, 
California. The Virginia Railway Express needs 10 railcars. 
Where are you going to buy those? Boise, Idaho. I said that to 
the mayors on Monday, and the mayor of Boise, Idaho almost 
leapt to his feet to applaud.
    So, need in one part of the country, benefit in one part of 
the country, jobs in another part of the country. But the 
question is of the 10,000 options for buses, totaling $5 
billion, what is now your estimate of how quickly you can ramp 
up to meet the increased demand with these stimulus funds? In 
October the estimate was 30 percent to 35 percent increase in 
production capacity, if the money were there and the orders 
were placed. And there are already options that cities can 
exercise. Does that mean that New Flyer, Gillig or O'Ryan in 
Jamestown, New York, Van Hool can all again ramp up their 
production in a month after these funds are released?
    Mr. Marinucci. In our particular case, I can't speak for 
competition. In 2009.
    Mr. Oberstar. They would probably rather you didn't.
    Mr. Marinucci. In 2009 we could only ramp up and achieve 
another 600 buses, which for us----
    Mr. Oberstar. Six hundred buses of what?
    Mr. Marinucci. Incrementally over what is currently sold 
for 2009 in our shops.
    Mr. Oberstar. For the current year?
    Mr. Marinucci. For the current year. And then for 2010 and 
2011, I believe in each of those years we would be able to fill 
about 2,000 buses per annum into our existing backlogs. Last 
year the industry produced around 5,100 vehicles in 2007 and 
that went up to 5,600 vehicles in 2008. And the theoretical 
capacity of the industry is about 7,200 units combining all the 
manufacturers.
    So there would be as far as an economic impact, if all the 
industry could get up to their maximum capacities, you would be 
seeing a total of about 2,000, which would double the types of 
benefits that I was referring to earlier from an annualized 
increased basis.
    Mr. Oberstar. So of the $9 billion that remains, we started 
with $12 billion and we are down to $9 billion for transit, 
half of that is to go out under our provisions in 90 days, 
Appropriations Committee now is saying 120 days. CBO says, oh, 
you can't possibly commit all those funds. So $4-1/2 billion 
would go out under our plan in the first 90 days. That is not 
only for buses, but also for passenger rail, light rail, 
streetcars, trolleys, inner city passenger rail.
    Does the industry have a capacity to produce that many 
vehicles?
    Mr. Marinucci. Over a 3-year period of time?
    Mr. Oberstar. No, I am talking $4-1/2 billion committed in 
90 days.
    Mr. Marinucci. So the options are exercised into buses and 
your question is how many buses would be produced?
    Mr. Oberstar. Some portion of that is also rail, about a 
thousand rail vehicles, transit agencies have a thousand rail 
vehicle options pending right now that they could exercise 
immediately upon notification of funding.
    Mr. Marinucci. I believe the contracts could get easily 
converted, the options could get easily converted, the 
commitments made. As far as physically producing the goods that 
come out of those commitments that are made I would believe 
that--and again it all depends on how many dollars you are 
committing, but I believe you would be looking at about an 18-
month period to build all of that out.
    Mr. Oberstar. But you start, you start by----
    Mr. Marinucci. Would you have contracts.
    Mr. Oberstar. New Flyer placed orders for engines.
    Mr. Marinucci. That is right.
    Mr. Oberstar. You place orders for transmissions, you place 
orders for brake assemblies, for air conditioning, for the 
steel framework for your bodies.
    Mr. Marinucci. That is right.
    Mr. Oberstar. I have seen them on your wonderful assembly 
line, I have been to Gillig. I have not been to O'Ryan. You 
have people committed and you have contracts with suppliers 
producing and putting all Tom Donahue's members to work.
    Mr. Marinucci. The conduit exists. This would create new 
demand into the system, and within most options all you really 
have to do is set delivery dates and price and you would be 
working with firm contracts and you would be placing POs right 
through the system within 4 weeks.
    Mr. Oberstar. Within 4 weeks.
    Mr. Marinucci. Within 4 weeks.
    Mr. Oberstar. All right, that is what I want to hear.
    Mr. Marinucci. So the options would get exercised. That 
creates a firm order and that creates a series of business 
transactions that are conducted by our subs, with our supply 
community. And of course our supply community would be cutting 
contracts with their supply community. Everything is governed 
under Buy America. So you know that you are going to capture 
the bulk of that benefit in the United States.
    Mr. Oberstar. You need any new procurement authority or new 
design authority? You would be using existing design.
    Mr. Marinucci. No, because they are existing contracts. All 
the specifications are there, the buses are designed. These are 
just extensions of work we have already done in the past.
    Mr. Oberstar. So there is no new procedural impediment to 
moving, a new procedural action needed nor existing impediment 
to moving ahead?
    Mr. Marinucci. Not from engineering, design or innovation. 
It is really a function of adding labor and material into the 
process. You do not have to build buildings, you don't have to 
expand factories. And most of us when we define capacity we 
define it on a two-shift basis. I mean there is still a third 
shift you could add and that would increase the industry 
capacity beyond 7,200 buses.
    Mr. Oberstar. And transit agencies can use existing 
specifications and contract terms for any procurement funded 
under this recovery initiative?
    Mr. Marinucci. That is correct, because most of the 
contracts that we have are FTA-funded contracts that have to 
meet all of those requirements anyway.
    Mr. Oberstar. I think that is the answer to the ability to 
rise to the occasion and rise to the stimulus.
    Mr. Donohue, you spoke I think very persuasively, very 
inspiring manner, about investing in the future. In 1956 
Congress enacted the Interstate Highway System and established 
the Highway Trust Fund. To fund it there was a $0.03 gas tax. 
That $0.03 represented 10 percent of the cost of fuel, 10 
percent. Nobody flinched.
    By February of 1957, it was clear we needed more money. 
Eisenhower as President asked the Congress to enact an 
additional penny. That additional cent increase in the gas tax 
passed the House on a voice vote. You could hardly pass the 
prayer on a voice vote today. I think that has changed with 
this Congress. But it shows when there is a unity of purpose 
and an understanding of the end result, that the country will 
unite and the Congress then will unite. Often the country is 
ahead of the Congress. And I think the country is ahead of the 
Congress or was at least until Tuesday. And now we have a 
leader who says, we can, we will, we will find a way. You 
weren't here perhaps when I read into the record the statement 
of the President saying that CBO does not reflect the 
extraordinary steps being taken to invest quickly and 
effectively.
    We have taken measures to move forward, including 
shortening the deadline for agencies to commit funds, setting 
deadlines and Federal awarding of formula grants, specific 
deadlines for State and local governments to commit the funds 
they receive for infrastructure, specific focus on ready to go 
projects. We didn't have that on January 19th. We have it 
today. And it goes on with two pages of analysis of the CBO 
findings to show that they are not on the right track.
    We have got to get the country on the right track. And we 
are going to partner with you and Mr. Poupore and Mr. Sullivan 
and Mr. Withington's members and Mr. Blunt's members, and Mr. 
Marinucci's colleagues and the transit production sector, and 
we are going to build a new future for transportation in 
America with the next transportation bill that we expect to 
bring to the house floor by June. It will move America forward 
and have a grander vision. It will attack the 30 most congested 
areas of the United States with new sources and multiple 
sources of funding.
    We are going to restructure the U.S. Department of 
Transportation. We are going to have an intermodalism. For the 
last dozen years the agencies haven't talked to each other. We 
are going to create an office of intermodalism, an assistant 
secretary for intermodalism. And make the Federal Highway 
Administration, Federal Aviation Administration and Federal 
Transit Administration, the Federal Railroad Administration, 
and Federal Maritime Administration--and include the Coast 
Guard--all meet every month and share their experiences and 
their needs of how we can move people and goods more 
efficiently and reduce the cost of logistics in our economy and 
reduce congestion and move America forward. We are going to 
make them do that. They haven't done it. We are going to make 
them do that.
    I said earlier we are going to have an office of project 
expediting in the Federal Highway Administration. They haven't 
done a thing to implement my provision of the current SAFETEA 
legislation. Don Young asked me, then chairman, fashion 
something that will move projects along faster. Well, we are 
going to do that. There is a lot we need to do. And this 
stimulus initiative is a down payment on the future.
    I thank the panel for your contribution and call our third 
panel.
    Ms. Edwards will take the Chair and preside over the 
hearing for a moment.
    Ms. Edwards. [Presiding] Thank you. We are joined by this 
next panel, and you all have been very patient in a long day. 
We appreciate that.
    Panel III. We are joined by Marian Orfeo, Director of 
Planning and Coordination for the Massachusetts Water Resources 
Authority in Boston and also President of the National 
Association of Clean Water Agencies, followed by Bob Bendick 
from the Nature Conservancy, Larry Larson from the Association 
of State Floodplain Managers, and James Weakley from the Lake 
Carriers Association, and we will begin with you, Ms. Orfeo.

      TESTIMONY OF MARIAN ORFEO, DIRECTOR OF PLANNING AND 
COORDINATION, MASSACHUSETTS WATER RESOURCES AUTHORITY, BOSTON, 
  MASSACHUSETTS, AND PRESIDENT, NATIONAL ASSOCIATION OF CLEAN 
  WATER AGENCIES; BOB BENDICK, THE NATURE CONSERVANCY; LARRY 
  LARSON, ASSOCIATION OF STATE FLOODPLAIN MANAGERS; AND JAMES 
               WEAKLEY, LAKE CARRIERS ASSOCIATION

    Ms. Orfeo. Thank you, Chairman Oberstar and members of the 
committee. I am honored to testify today on how investments in 
our Nation's wastewater infrastructure can provide much needed 
stimulus to our overall economy.
    We are pleased that the proposed American Recovery and 
Reinvestment Act of 2009 targets a significant portion of 
spending for investments in municipal water and wastewater 
infrastructure, including 11.8 billion for water and wastewater 
projects funded by the EPA State Revolving Fund programs and 
USDA's Rural Utility Service.
    Combined with other water resources investments, over 
500,000 jobs could potentially be generated to help communities 
address their water resources challenges. NACWA also believes 
that the economic recovery package could go much further in 
providing funding for infrastructure in general with a 
corresponding increase in funding for water and wastewater 
infrastructure.
    A stronger infrastructure-based recovery package would 
create much needed jobs in the construction industry, which 
currently has an unemployment rate of over 15 percent, lay a 
future foundation, a solid foundation for future economic 
vitality, and protect public health in the environment. While 
the package's $6 billion targeted to wastewater projects within 
the Clean Water SRF is significant, NACWA members identified 
over $17 billion worth of wastewater projects ready to go that 
can be initiated within 120 days of receiving the go ahead from 
State agencies. Combined, these wastewater treatment projects 
could create nearly 600,000 jobs. In Massachusetts alone NACWA 
members have identified nearly $365 million worth of shovel 
ready projects within the MWRA service area having 205 million. 
The projects that my agency is prepared to go forward with 
include 19 wastewater construction and repair projects that 
address our combined overflow control plan and equipment 
replacement at our Flagship Deer Island treatment plant.
    On January 9th, NACWA joined with other water sector 
associations to urge President Obama and congressional leaders 
to include a minimum of $20 billion and as much as $40 billion 
in the economic recovery package for drinking water and 
wastewater projects. We continue to believe that this level of 
investment is both necessary and will have the straightest and 
swiftest impact on job creation.
    NACWA is also pleased that the proposed spending for 
wastewater infrastructure through the Clean Water SRF will 
require States to distribute 50 percent of the funds in the 
form of principal subsidy or grants, although NACWA's 
preference is for 100 percent of the funds to be available as 
grants.
    Grant financing will have the greatest stimulative effect 
to making these funds more useful to communities across the 
country hit hard by the economic downturn. In this economic 
climate communities will hesitate to incur debt obligations 
because they cannot pass on the cost of repayment to their 
ratepayers. If communities do not accept a loan or cannot 
accept a loan without creating excessive procedural delays, 
that ultimately would disqualify them from receiving any 
funding under this program. It would reduce the overall 
effectiveness and impact of the recovery package.
    We also believe that all communities should have access to 
grants and that there be no targeting of these dollars to any 
particular set of communities. During this economic crisis all 
communities face severe budgetary and affordability challenges 
and need assistance in rebuilding their economies through 
infrastructure investment. You have heard that theme many times 
today.
    Investing in improvements to clean water infrastructure 
will generate green jobs focused on improving the Nation's 
waterways. NACWA supports the inclusion of targeted grants to 
help wastewater utilities undertake projects addressing water 
efficiency and energy efficiency goals, help communities 
mitigate stormwater runoff, a major source of water pollution, 
and encourage environmentally sensitive wastewater systems.
    In terms of ensuring that the economic recovery package has 
as much economic impact as quickly as possible, NACWA pledges 
to work with this committee, our members and States to monitor 
and track how quickly these funds are being put to work for the 
American people. We take this process very seriously and stand 
ready to put people to work in their local communities as soon 
as funding is available.
    EPA estimates a $388 billion funding shortfall exists 
between what communities require to fund their wastewater needs 
over the next 20 years and what they currently have available. 
The U.S. Conference of Mayors estimates that every dollar spent 
on wastewater infrastructure generates a return of 3 to 7 
dollars that flow directly into the economy at large.
    In summary, the American Recovery and Reinvestment Act of 
2009 is a good first step in reversing years of declining 
Federal investment in our Nation's municipal clean water needs. 
However, it is only a first step. NACWA is pleased to be 
working with this committee and Mr. Chairman Oberstar on 
identifying a long-term sustainable solution to financing our 
Nation's clean water infrastructure. We believe that the time 
has come for a national trust fund for water and wastewater 
infrastructure as is currently available for the Nation's 
roads, bridges and airports, and we look forward to making 
progress on this effort during the 111th Congress.
    Thank you very much.
    Ms. Edwards. Thank you, Mr. Bendick.
    Mr. Bendick. Thank you. My name is Bob Bendick. I am the 
Director of Government Relations for The Nature Conservancy. I 
will talk today about how the pending environmental stimulus 
legislation relates to green infrastructure. We very much 
appreciate your having this hearing and addressing these 
critical issues.
    Green infrastructure in this case relates to environmental 
restoration activities conducted by the U.S. Army Corps of 
Engineers and to the reduction of nutrients and pesticides 
associated with agricultural runoff. Both of these areas of 
investment are critical to the future of our Nation's water 
resources, produce real jobs like other infrastructure, and are 
important targets for economic stimulus funding.
    There is now overwhelming evidence that healthy waterways 
and their associated wetland systems provide ecological 
services of great value to our country. These services include 
clean and abundant water protection from inland and coastal 
flooding, sequestration of carbon, fish and wildlife habitat, 
and outdoor recreation.
    Let me talk about the U.S. Army Corps of Engineers. Since 
Congress added ecosystem restoration as one of the Corps of 
Engineers' primary missions in 1986, the Corps has led some of 
the Nation's largest and most ambitious ecosystem restoration 
projects, as in the Everglades.
    We recommend that Congress direct that no less than one-
third of the Army Corps of Engineers' overall allocation in the 
economic stimulus package be dedicated to ecosystem restoration 
projects. We encourage that this distribution include funding 
for at least the following restoration authorities: 
individually authorized small to medium scale restoration 
projects or multi-purpose projects with a restoration 
component; Continuing Authority Programs, called CAPS, such as 
the section 1135 program; and large scale programmatic 
restoration authorities that have received construction 
authority.
    Let me talk about the third category. In the Everglades the 
ongoing construction of various aspects of the complex 
restoration plan offer many opportunities for the rapid 
expenditure of stimulus funds. The South Florida Water 
Management District has proven to be an able partner in 
restoration activities and is certainly capable of putting 
money to use very quickly.
    In south Louisiana projects involving restoration of 
natural systems and functions that we believe are ready to go 
include the beneficial use of dredged sediment to stabilize 
eroding wetlands; the reintroduction of Mississippi River flows 
through Bayou Lafourche; and various smaller Coastal Wetlands 
Planning Protection and Restoration Act projects in south 
Louisiana.
    And on the upper Mississippi we are grateful for the 
creation of the Navigation and Ecosystems Sustainability 
program, NES, with the leadership of Chairman Oberstar in 2007. 
NES allows the Corps to manage the upper Mississippi system for 
navigation and ecosystem restoration. Within the NES framework 
there are now 11 ecosystem restoration and 5 navigation 
projects ready to proceed.
    Let me talk about agricultural runoff now. While runoff 
carrying nutrients and pesticides from intensive agricultural 
operations has been reduced in recent years by improved farming 
techniques, it is still a problem for major rivers and for 
receiving waters like the Gulf of Mexico.
    University and field scientists are developing very 
promising new techniques for further reducing agricultural 
pollution, while increasing the productivity of adjacent land, 
mitigating flooding, and providing valuable wetlands habitat.
    In Iowa there is a proposal supported by the Iowa 
Department of Agriculture and Land Stewardship to expand the 
existing Conservation Reserve Enhancement Program to restore 
small wetlands within intensively farmed areas. These wetlands 
remove nutrients, hold stormwater, retain moisture in times of 
drought, reduce greenhouse gas emissions, provide recreation, 
and protect drinking water supplies.
    In Indiana we are cooperating with the Environmental 
Protection Agency to develop a program of two-staged ditches, 
which in effect convert agricultural drainage ditches back to a 
more natural cross-section, allowing flood waters to spread out 
and permitting the regrowth of wetlands. These natural 
technologies have been measured to reduce nutrient, herbicide 
and pesticide flows to adjacent rivers by 40 to 90 percent.
    We recommend providing stimulus funding primarily through 
the EPA 319 Non-Point Source Pollution Program to assist 
individual landowners and drainage districts to install the 
kinds of measures described here. Their match requirements for 
the 319 program should be waived and our 319 funds should be 
allowed to match Natural Resource Conservation Service and Farm 
Service Administration funding for specific on-farm projects 
such as through the CREP program. The State Revolving Fund 
Program already included in the House stimulus bill may also be 
usable for this purpose.
    An investment in green agricultural infrastructure in these 
major river basins to manage water and nutrients could employ 
thousands of technical service providers, surveyors, engineers, 
heavy equipment operators, mechanics and laborers and others to 
lead to a long-term cost effective nutrient control in the 
larger river basins like the Mississippi and the Ohio.
    Thank you.
    Ms. Edwards. Thank you, Mr. Larson.
    Mr. Larson. Thank you, Madam Chair. This committee has 
shown some real leadership in infrastructure, especially in 
water infrastructure, for a long time. The Association of State 
Floodplain Managers represents the States and the 20,000 flood 
prone communities in the Nation that are the Federal 
Government's partners in the continuing quest to manage the 
costs and human suffering from floods and storms.
    We have been asked to discuss flood control as part of the 
infrastructure in the stimulus package. I would like to discuss 
flood control in this package both in terms of its 
opportunities and the pitfalls.
    Flooding is actually the Nation's most frequent and most 
costly natural hazard. In the last century, flood damages grew 
to about $6 billion a year.
    2008, while some might not consider it a heavy disaster 
year, the Federal Government actually declared 52 flood related 
disasters, about one a week, where States and communities and 
others qualified for billions in unbudgeted Federal dollars for 
disaster relief. Much of that was for public infrastructure, 
which had to be rebuilt after flood events. So paying attention 
to infrastructure is extremely important.
    In 2008, three of those events exceeded that average of 6 
billion a year, Ike at 30, Gustav at 15, and Midwest floods 
over 6 billion. As you recall, Katrina was over 100 million. So 
the trend in the 21st century is not good. Flood damages are 
not going down, and part of the reason is that we are not 
paying attention to natural hazards when we build our 
infrastructure in this Nation.
    We can't afford to continually fund this cycle of damage, 
rebuild, damage and rebuild. This funding package could be an 
opportunity to break this cycle.
    Flood control includes both structural and nonstructural 
approaches. Structural is essentially engineering our rivers 
with levees, dams, flood walls that sort of thing. 
Nonstructural would be elevating structures above the flood 
level, moving them out of high risk zones, opening up 
floodplains, giving the rivers some room, those sorts of 
things. Low impact development, some of the green 
infrastructure that we have just heard about.
    We believe that Federal investment and flood loss reduction 
must be done in a sustainable fashion. Infrastructure that 
fails to consider threats to life and property from natural 
hazards or ignores long-term impacts on our environment 
undermines investment choices for our communities and fosters a 
dependency of our citizens on disability relief from tax 
dollars, and encourages people to remain at risk.
    Floods and storm intensity are also increasing as we are 
seeing in this century. Many of our structural measures, for 
example, have been overwhelmed by larger storms, more intense 
storms, resulting in catastrophic damages. We have seen that in 
the past few years.
    Often these circumstances are even exacerbated when 
communities continue to build more development behind them in 
what we call residual risk areas; for example, behind levees, 
where now we have even greater risk. So those kinds of actions 
parlay off each other and create further problems. We want to 
avoid that hopefully in this stimulus package.
    Some of the nonstructural approaches we have talked about 
are ready to move. There is over demand for those. We have 
talked about the green infrastructure. These are typically 
designed by the communities, have good local support and local 
buy-in.
    We urge consideration of six elements in the projects that 
might be funded in this package: one, that natural hazard 
mitigation be built into each project; two, that critical 
infrastructure like hospitals, water supply, police and fire, 
key bridges are protected to extreme events such as the 500-
year event, so they would be operable during those extreme 
events; three, that sustainability be emphasized so we are not 
doing it again; four, Federal money should not place people and 
property at risk or contribute to increased risk; five, that 
Federal dollars alone can't pay for all this, so the basic 
benefit-cost, financial considerations for cost sharing, and 
funds for future operation of maintenance must be guaranteed 
for these projects: six, projects that restore ecosystems while 
reducing flood losses allow nature herself to do this and 
should be eligible.
    Everyone in this Nation deserves to live in a relative 
safety from natural hazards that can be foreseen and cost 
effectively mitigated, and that sustainability must not only 
apply environmentally and economically, but socially and 
culturally as well, with full public safety not just from 
human-induced threats but as well from natural hazards which 
occur weekly.
    In conclusion, we strongly support a properly framed 
stimulus package for infrastructure but stress the need that 
this investment must include natural hazards mitigation. Thank 
you.
    Ms. Edwards. Thank you. Mr. Weakley?
    Mr. Weakley. Thank you, Madam Chairwoman. Investing in 
transportation infrastructure is critical to America's future. 
Domestic cargo hauled by vessels tops 1 billion tons. Without 
an efficient transportation system, America's economy cannot 
survive.
    Transportation provides connectivity between centers of 
economic activities. We need to protect people, places and 
equipment. We also need to defend those connections. Without 
strong connections everything is risked. Great Lakes vessels 
depend on our Rock of Gibraltar, the Soo Locks. One lock 
handles 70 percent of our carrying capacity and feeds our steel 
mills and power plants.
    America's National security depends on connecting natural 
resources to manufacturers. During World War II, 10,000 troops 
protected this chokepoint. Strength requires steel.
    Transportation efficiency benefits producers and consumers. 
Compared to other modes, Great Lakes marine transportation 
saves Americans $3.6 billion a year.
    The most environmentally friendly mode of transportation 
also reduces greenhouse gas and our dependence on foreign oil. 
Increasing the efficiency of transportation infrastructure 
creates current and future jobs.
    We should prioritize recovery investments in order of 
national security, job creation, and system improvement. High 
priority projects reduce vulnerability from attack, prevent 
decay, create critical redundancy or increased efficiency. We 
must emphasize connectivity, jobs that create other U.S. jobs.
    Transportation improvements pay dividends each time cargo 
moves. The ideal project, like building a second Poe-sized lock 
does all of these. The immediate job creation is tremendous, 
1.5 million man-hours, 1.2 million tons of stone and cement, in 
addition to 25,000 tons of steel. One economist compared it to 
a small automobile plant.
    The fully designed project meets the requirements of the 
House Appropriations Committee draft for the American Recovery 
and Reinvestment Act of 2009. It received appropriations from 
the Corps' construction account from 2002 through 2008. With 
$125 million appropriation the Corps can quickly sign contracts 
with American manufacturers. Site construction begins this 
spring. This project has national security, job creation and 
efficiency aspects. It is shovel ready.
    U.S. Seaway locks need repair. A perpetual asset must be 
recapitalized during its operation. Forty-five million dollars 
could be spent over 2 years on these critical connectors.
    To increase Great Lakes efficiency we need Coast Guard ice 
breakers. Cargo movement during the ice season, 20 million 
tons, is vital to our economy. The Coast Guard's winter metric 
is 3 miles per hour. This is the equivalent of 10 instead of 50 
miles an hour for truck traffic from December through April. 
You can walk that fast. Is this an acceptable speed of 
commerce?
    This December and January, four of the eight Coast Guard 
ice breakers were in a scheduled or unscheduled maintenance 
period, including the newest, which was unavailable for both 
reasons. For most of that time three of the eight were 
unavailable. Today five are not, and Monday six of eight ice 
breakers with not be available.
    We could double the speed of commerce. One way is to 
transfer in ice breakers. This option has no immediate impact 
on job creation, but improves the system. The second option is 
to upgrade existing vessels. This could not be done quickly, 
nor would it create many jobs. The third, building a new ice 
breaker, from an existing design has 50 laid off shipyard 
workers cutting steel again within 30 days.
    Investing in transportation infrastructure protects our 
national security, creates jobs, and invests in future 
generations. It is about quality of life, which begins and ends 
with one thing, a job. Thank you.
    Ms. Edwards. Thank you. We will begin questions with Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Madam Chairlady. Ms. 
Director Orfeo, Director, talk about this trust fund that you 
have in mind and how do you see that being--I think that is 
what you called it, right, a possible trust fund. I know you 
were talking about the future, I understand that, but I agree 
with you, I think we are going to have to move towards some 
type of mechanism by which we address our infrastructure needs 
because we are--in this instance our water needs, because we 
are seeing all over our country sadly that because of our 
failure to address those infrastructure problems, we are 
beginning to see things fall apart, and that is not good. 
Finding from city to city emergency circumstances that cost a 
lot of money because they are being repaired under emergency 
circumstances. And unfortunately, a lot of times when those 
repairs are made, while we spend a lot of money we are only 
patching up a problem and not really dealing with the 
preventive side of future problems. And so I was just wondering 
what you had in mind and how did you see that being funded.
    Ms. Orfeo. Well, I think the committee will receive more 
information shortly. We expect--the Government Accounting 
Office is doing a study to look at possible revenue sources for 
our Wastewater Trust Fund. I think, Congressman Cummings, that 
you have hit the nail on the head, that there really is a huge 
long-term need here. We are looking for $10 billion a year, $50 
billion over 5 years, and I think the debate will get 
stimulated again once we get some guidance for you from the GAO 
that will look at what potential revenue sources are out there. 
And I think that will inform this debate and allow us to have 
much more dialogue on this topic.
    Mr. Cummings. Thank you.
    Mr. Weakley, I think you have written in your testimony 
about the need for another Mackinaw.
    Mr. Weakley. Yes, sir.
    Mr. Cummings. What are the other ice breaking resources 
that you believe are needed in the Great Lakes?
    Mr. Weakley. Well, sir, ideally I would ask for three 
additional hulls. And part of the reason for the additional 
hulls is the ships can't be in two places at the same time. And 
there are also two missions that take place at the same time, 
buoy tending and ice breaking. So part of the reason we have 
scheduled maintenance for our ships during the beginning of the 
ice breaking season_why would you take an ice breaker out of 
service in December_is because they have to reset from the buoy 
mission and move into the ice breaking mission. The problem is 
that is the most critical time when the ice hasn't set up and 
we don't maintain tracks. So ideally we would get three 
additional Coast Guard vessels. They would not be as capable as 
the Mackinaw, but an additional 140, perhaps another 225 or 175 
would help. Again the last two Coast Guard cutters are 
primarily buoy tenders, only one of which has ice capabilities. 
So it is a broader spectrum.
    To be honest, sir, I would take anything right now. We have 
been asking for 5 years for a single hull in the Great Lakes 
and we have gotten nothing.
    Mr. Cummings. You know, that I am chairman of the Coast 
Guard Subcommittee, and you have heard me say this I am sure, 
is that sadly I think our country too often operates in a 
culture of mediocrity. We see the problems coming, but we act 
like they don't exist. And I agree with you. We have been 
pushing very hard, trying to make sure that we have the 
necessary equipment that we must have, not just for 
emergencies, just to do what needs to be done in this country. 
And hopefully with this new administration and hopefully with 
some of the things that we will be doing over the next year or 
so we will be able to begin to address some of those issues.
    I know that in your testimony before the Coast Guard 
Subcommittee you detailed your efforts to persuade the Coast 
Guard to provide additional assets to ensure that important 
shipping routes are safe during ice season. You talked in your 
testimony today about the challenges the Coast Guard has faced 
this season providing ice breaking capacity.
    Have you continued to work to encourage the Coast Guard to 
provide that additional ice breaking capacity? And what 
responses have you received from the service this season?
    Mr. Weakley. Yes, sir, I have continued to work regionally 
with the 9th Coast Guard District as well as USCG Headquarters. 
And also we have reached out to the congressional delegation 
from the Great Lakes that recently wrote a letter to comment on 
the Coast Guard. I have not gotten a response probably within 
the past 2 years directly from the Coast Guard to those 
requests. I am not aware if the Coast Guard has responded to 
the Great Lakes delegation or not. I will tell you as a former 
Coast Guard officer, they are doing the best they can with the 
resources that they have. But I think if I could be so bold as 
to quote you at a Coast Guard hearing, we can do better. As a 
nation we can do better.
    Mr. Cummings. It is amazing, you took those words right out 
of my mouth again. We can do better. Thank you very much, Madam 
Chairlady.
    Ms. Edwards. Thank you. Mrs. Capito.
    Mrs. Capito. Thank you, Madam Chair, and I want to thank 
the witnesses. I want to talk a little bit--Mr. Bendick sort of 
reminded me in his statements of an issue. I represent the 
State of West Virginia, which falls within--several of the 
eastern counties fall within the Chesapeake Bay watershed area 
and you know there is a lot of agriculture in that area. And 
with the other States effected, Maryland being one and 
Pennsylvania, there is a large onus on the back of local water 
and wastewater county infrastructures to meet certain 
standards, and they really don't have the dollars to do it. And 
I think some of the States have tried to step in and help with 
that, but I don't believe that the State of West Virginia has 
been able to do that.
    Would you envision a use of some of the dollars that are 
specifically--you mentioned you wanted restoration to be a part 
of how the dollars are expended. Would you envision that being 
a useful way to use some of these stimulus dollars to help 
these local communities?
    Mr. Bendick. I think wastewater treatment is a worthy 
purpose for the use of these dollars. A lot of less affluent 
communities are struggling to keep wastewater treatment plants 
going. I worked in that area years and years ago. A lot of 
plants were built shortly after the Clean Air Act was created. 
They are now running out of steam and need to be rebuilt.
    So I think that is a good use of stimulus funding. 
Generally things that protect and restore the environment are 
good for the economy in the long run and good for jobs in the 
short run.
    The Chesapeake Bay suffers from the same kinds of ills as 
the Gulf of Mexico, too many nutrients, too many agricultural 
chemicals, despite improvements in farming, and some of the 
techniques that I have talked about for wetland reconstruction, 
natural ways of treating waste and runoff, are very applicable 
to the Chesapeake Bay drainage as well as to other river basins 
around the country.
    Mrs. Capito. In a general sense--and anybody on the panel 
can answer this if you want--if the purpose of this bill is 
economic stimulus job creation, it seems like, for instance, 
what we were just talking about would be job creation; in other 
words, to help local wastewater treatments meet the standards.
    In the long term how would you address the issue of 
economic stimulus? Where do you see that as a broader way of 
sustaining our economy and growing jobs, if at all?
    Ms. Orfeo. I would harken back to the response that I gave 
to Mr. Cummings. I think we do need a dedicated source of money 
for water and wastewater infrastructure. In many ways it is the 
forgotten infrastructure. And I believe that we are going to 
need to get creative and look at a range of options. And I 
think this committee will be in an a perfect position to do 
that going forward. And now speaking on behalf of NACWA, we 
very much look forward to having that discussion continue with 
you.
    Mrs. Capito. And the one thing we were talking about the 
Corps portion of this running through my district, and of 
course the Ohio River borders on the western portion of West 
Virginia, repeatedly certain economic entities in my State are 
unable to move their goods and services out of some of the 
smaller rivers because they haven't been dredged, they can't 
get through the channel, and it is becoming a real problem. 
Then when we go to the Corps, the Corps' response is they don't 
have enough money to do it. Even though it could be as little 
as 250,000 or 275,000, they are prioritizing. We have a major 
lock project in my district going right now in Marmet.
    In some of your statements, Mr. Larson, I think you might 
have alluded to the fact that dredging and redoing our 
waterways so that the commerce can flow is an area that we sort 
of put not enough emphasis on. Is that a correct 
interpretation?
    Mr. Larson. In some ways the issues with dredging are 
multiple, but moving goods, it goes back to what the chairman 
has talked about and a lot of you have talked about, approaches 
to moving not only people but goods and having an appropriate 
mechanism to do it. Specific transportation corridors for 
rivers, some of them are absolutely necessary and others have 
alternatives. We know all of it has to be part of an intermodal 
approach toward infrastructure and movement of transportation. 
We haven't done a very good job of figuring that out. We 
continue to do piecemeal, spending money in some areas that 
have the political capital to do that and not spending in other 
areas that don't have political capital. It doesn't necessarily 
match spending.
    Mr. Bendick. If I could just add to that, this NES project 
on the upper Mississippi that has been done with the leadership 
of the chairman tries to mesh navigation and ecosystem 
restoration and balance those things and plan comprehensively 
to do both at once. I think that is a really good model for 
other places in the country.
    Mrs. Capito. Mr. Weakley.
    Mr. Weakley. Ma'am, thank you for the opportunity to 
respond. There is a concept in naval architecture called tons 
per inch immersion. For each additional inch of water it is how 
many more tons you can load on that ship. For one of our 
largest ships on the Great Lakes, it is 270 tons of cargo given 
up for each inch of water we lose.
    Mrs. Capito. Wow.
    Mr. Weakley. And on the Great Lakes we are talking about 
feet, feet literally. So it may not be as extreme on the Ohio 
River system, but it is still a dredging problem. And when I 
talked about connectivity between natural resources and 
manufacturing I think you have really defined the problem. How 
can we make the system more efficient because that is not a 
single benefit, that is a benefit to the entire Nation each 
time cargo moves on that corridor.
    Mrs. Capito. Thank you, Madam Chair.
    Ms. Edwards. Thank you, Ms. Capito.
    Ms. Hirono.
    Ms. Hirono. Thank you, Madam Chair. I have a question for 
Mr. Bendick. Mr. Bendick, I represent Hawaii that consists of 
seven inhabited islands, so there are lots of coastal areas, a 
lot of coastal ecosystems. And I note in your testimony that 
you suggest that the Army Corps develop a national program with 
the goal of doubling the restoration of freshwater and coastal 
ecosystems. So can you talk a little bit more about how you 
envision the Corps, what kind of process they would engage in 
to come up with a national program, and would you also want 
this national program to include goals for every single State?
    Mr. Bendick. Well, there are a number of these large scale 
coastal restoration projects like coastal Louisiana, the 
Florida Everglades.
    Ms. Hirono. Is there one in Hawaii?
    Mr. Bendick. There is not one in Hawaii.
    Ms. Hirono. That is why.
    Mr. Bendick. Proving grounds for the Corps to gain a lot of 
expertise and restoration. I think our thoughts are 
particularly in light of sea level rise that we need to look 
comprehensively at our coastal areas, to plan those out in ways 
that define what needs to be protected, hopefully what needs to 
be protected with natural system restoration, and then figure 
out ways to fund and carry that out. And most coastlines in 
this country are very much degraded and we would advocate the 
Corps, working with the other coastal agencies like NOAA, to 
evaluate each section of coastline and to figure out what 
restoration and protection that serves people and also protects 
the natural environment that would be useful.
    Now, of course in this stimulus bill there is $400 million 
to NOAA, in the House draft bill, for coastal restoration, and 
that is very much a step in the right direction. But those are 
mostly smaller scale projects that need to be coordinated with 
the larger scale kinds of things the Corps does.
    Ms. Hirono. Well, my perspective is that if we are going to 
go in this area, we should definitely look toward funding for 
every single State, because I think every State has these kinds 
of needs. And often a small State like Hawaii gets left behind, 
because we are not contiguous for one thing. And so I hope that 
this will add to the discussion about having a national 
program, which I very much support. So thank you for your 
testimony.
    Mr. Bendick. Thank you.
    Ms. Hirono. I yield back, Madam Chair.
    Ms. Edwards. Thank you. Ms. Titus.
    Ms. Titus. Thank you, Madam Chair, members of the panel. I 
would like to continue that same line of questioning. I 
appreciate your comments, but I heard little or nothing about 
the special needs or any projects in the West generally. I am 
talking about States that have no coastline. We have got 
Nevada, New Mexico, Arizona, Utah. Our river is the Colorado 
River. And so I would just ask you, Mr. Larson, certainly there 
are floods in areas that don't have a river bed or aren't in a 
hurricane zone. Mr. Bendick, I realize you just came from the 
southern division of your organization, but surely you can come 
up with some examples of some so-called shovel ready projects 
that we could look at working on the other side of the 
Mississippi.
    Mr. Bendick. I think the Corps has some interesting and 
important restoration projects on the Missouri, which as you 
know starts up there in Montana and cuts across the upper 
Midwest. The Missouri River has been very much modified over 
the years and there are comprehensive ideas about what could be 
done there.
    I am not as familiar with the Colorado, and I believe the 
Bureau of Reclamation has the responsibility for many of the 
water projects in the Mountain West. And it is certainly our 
hope that the Bureau of Reclamation would use some of these 
same techniques and would think about restoration and natural, 
using green infrastructure, to manage water in the West as the 
Corps does more in the East.
    Mr. Larson. I do think there is a fair amount on the West 
Coast that does look at those kind of activities. For sure, 
when you get out to California and Oregon, Idaho, some of those 
areas have been doing a lot of this for a long time. So I think 
those opportunities exist everywhere, and I trust that those 
States are working with the appropriate Federal agencies to try 
to come up with those kinds of projects, because they are 
necessary and they pay long-term benefits and will have the 
same impetus of job creation and need to be part of our long-
term look of what we do with our waterways and what we do with 
our infrastructure.
    Ms. Titus. Madam Chair.
    Ms. Edwards. Thank you. Mr. Schauer.
    I have a couple of questions. One, I want to say I am dead 
on the need to invest in our water and sewer infrastructure. My 
own personal experience is the water main break I had in front 
of my house under my son's car about 2 weeks ago, waking me up 
about 1 o'clock in the morning. And we just had a water main 
break just a couple of days ago in my district that is 
resulting in a major portion of our district under a boil water 
advisory, and that isn't even the water main break that was on 
national news. So this is happening all around the country, and 
it is just a sign that our infrastructure has just been 
completely disinvested and we need to step up those 
investments. And we are going to get a good start with this 
recovery package.
    I know that NACWA has a list of ready to go projects, which 
all across the country is a self selected list, Ms. Orfeo, and 
so we would like to make that a part of our record and that 
obviously doesn't represent every ready to go project around 
the country, but certainly gives us an idea of projects that we 
could put resources into right away and get started.
    Ms. Orfeo, you heard the opening statements and the concern 
raised with the proposed spend-out rates suggested by the 
Congressional Budget Office. And according to their statistics, 
the spend-out rate for an appropriations to the Clean Water SRF 
would be about $1.3 billion in fiscal year 2010 and 1.8 billion 
in fiscal 2011, with the remaining 3 billion being spent out 
over the next 8 fiscal years.
    Ms. Edwards. [Presiding] Could you contrast that with the 
list of ready-to-go-projects developed by NACWA, the one that I 
just referenced, that suggests approximately $17 billion in 
ready-to-go projects nationwide that could be shoveled in the 
ground in 120 days?
    I do want unanimous consent to make sure that we include 
this list as a part of our record.
    Ms. Orfeo. Yes, and NACWA would clearly support having that 
list be made part of the record.
    Let me bring this for the committee. Let me just talk about 
some of MWRA's projects because I think that will give you a 
pretty good sense of how the spending is going to work out.
    We have 19 wastewater projects that are ready to go, 
representing almost $200 million in spending. Five of those 
projects have completed already the construction bidding 
process, and they just await, you know, ink between us and a 
contracting firm. We have another couple of projects that are 
out to bid, and those bids will get awarded in February and in 
March. Then I know Chairman Oberstar this morning talked about 
other projects that were in final design. The remaining twelve 
projects for us are what I would call in the final throes of 
final design, and so these will all have the shovel and will 
hit the ground in the short term.
    Some of these projects will put people to work over a 
prolonged period because of the nature of the projects. They 
will keep people employed for up to 2 years, so I think that 
is, you know, a positive point about a lot of these projects.
    Ms. Edwards. Thank you.
    In your for SRF funding going out to communities as grants 
and not as traditional loans, do you believe that NACWA's 
ready-to-go list is contingent on whether the funding comes to 
communities as a loan or as a grant? Would your list be larger 
or different if a greater share of the recovery funding from 
the clean water SRF were distributed as grants?
    Ms. Orfeo. No, I do not think the NACWA list is contingent 
on the funding being grants, but clearly one of the concerns we 
have heard from our members is the ability to continue to work 
with it. Some communities have kind of cumbersome processes to 
issue the money as loans. Because this is a stimulus, because 
the goal is to get those jobs created as soon as possible, we 
are advocating for more grants. I am not sure there is a whole 
lot of distinction between, if more money were made readied as 
grants, more projects would be ready to go, but I think, 
clearly, what we are hearing is, of those existing projects, 
they will definitely get out the door in the time frames that 
you want them out the door with the availability of grants over 
loans.
    I think you heard from the Governor of Wisconsin this 
morning. I can reiterate that, from my own State and from what 
we are hearing from States across the country, everyone wants 
to work together to spend this money. No State wants to have a 
black eye in terms of its ability not to spend the money, and 
everyone wants to try to work with each other. As I indicated, 
we will work with our States. We will work with this committee 
to make sure you have what you need and the assurances that you 
need that these funds will get out the door.
    Ms. Edwards. Well, I do know that, in my own State--and I 
know this is true across the country--with the State budgets 
and local budgets being so strained, I am sure that in their 
planning process, they certainly would prefer a greater ratio 
of grants to loans.
    Mr. Weakley, a great deal has been said about the 
importance of construction funding for the national economy.
    Can you speak to the importance of the operation and 
maintenance account to economic recovery, especially with 
respect to the Great Lakes' dredging needs?
    Mr. Weakley. Yes, ma'am. Thank you for that question.
    Currently, in the Great Lakes, there is about a $230 
million backlog of unfunded dredging needs. Now, that has built 
up over a period of years, probably a decade.
    Part of our frustration is that there is a fund called the 
Harbor Maintenance Trust Fund, and this ties into the question 
because the same issue is on the west coast. They have unfunded 
dredging needs as well. The trust fund takes in about $1.2 
billion to $1.3 billion a year specifically to fund our 
dredging needs. Out of that $1.1 billion, about $700 million--
about half--is actually spent. So, over the years, there is an 
excess of about $5 billion in the Trust Fund that has been 
collected from industry by the government for an intended use, 
which has not been spent appropriately. So there is a lot of 
pent-up demand. There is capacity to execute on those 
contracts, and we believe that the money has already been 
collected by the government to fund those activities.
    I know for a fact--I was out on the west coast giving a 
speech--that they have similar concerns and a similar backlog 
there, so I am sure they have shovel-ready projects to meet 
your question, ma'am.
    Ms. Edwards. Thank you.
    Mr. Larson, we have heard from the Corps of Engineers that 
funding for the continuation of the national levee inventory 
and inspection authorized in the Water Resources Development 
Act of 2007 would be eligible under the draft American Recovery 
and Reinvestment Act of 2009.
    In your opinion, would this be a priority for completion?
    Mr. Larson. The inventory, itself? Yes.
    We have suddenly realized--although, I think it has been 
there all along--that we have this huge problem with levees in 
the Nation brought about because of the catastrophic events we 
saw from Katrina and in the Midwest and so on, but the reality 
is we really do not know how many miles of levees there are in 
the Nation. We do not know what condition they are in, and we 
do not know who owns them. Until we have a handle on that data, 
even attempting to attack the issue is going to be very 
difficult, if not impossible.
    The Corps has a good start on it. It has an inventory of 
the federally owned levees, and now there is probably two to 
three times that much, if not more, of privately owned, or non 
federally owned, levees out there that need to be inventoried 
and put on a GIS system so we know where it is. That is the 
first step, so getting that step done is going to be critically 
important.
    Ms. Edwards. Thank you.
    Ms. Norton, do you have questions for this panel?
    Thank you very much, and we really appreciate your patience 
this afternoon.
    Ms. Norton. [Presiding] We will proceed now to the final 
section of the bill. I want to assure all of you that our 
section always comes last, but by no means does it imply that 
we are least. In fact, I am going to indicate why we are more 
important in this context than the other provisions in the 
bill, and I say that without needing to favor this section. 
Unfortunately--or for them, perhaps, fortunately--Congress 
finished its business several hours ago, and therefore, this 
committee, which is particularly large this year, had an 
incentive for Members to hightail it back to their districts, 
so that is why so few of them are here, because I know they 
would want to be here.
    I have had occasion to have to explain why we are doing 
infrastructure funding, particularly before a rather large 
gathering of women before the inauguration. I believe it is 
going to be important for us to lay out why governments, when 
they have serious downturns, turn to public infrastructure, 
because people spoke up and said, "What about women? We are not 
in construction." Actually, this bill will contain some very 
important sections on apprentice and pre-apprentice training 
because so few women and minorities have been trained for the 
classic journeyman positions.
    Beyond that, we are dealing with the tried and true way of 
stimulating economies ever since government decided to do it. 
Many different ways have been tried. We saw, for example, a 
stimulus bill that involved giving people some direct funding 
just a few months ago.
    Now, the problem with that was not that people were not 
appreciative and not that it was not very good. It was 
excellent for people to get some money as the economy was going 
down, but I must tell you that the money has, by now, been 
spent, even by the Saudis, who received a good share of it 
because oil prices were going up, and people used it for that 
purpose. You may know that people also used it to pay off their 
credit card debts. I will tell you what; that is not what we 
had in mind.
    What we could not know at the time and could not know 
today, if we had decided to spend more money than that, is that 
people would go out and spend it to stimulate the economy 
itself. If I may say, in passing, there is something very 
distressing about a society that now is so consumer-driven 
that, instead of telling people to save, we have to say, "Go 
out and spend every last cent you have." So we have got to 
quickly move to the knowledge economy that we are becoming 
since we obviously do not make as much as we used to make.
    So then you say, How do you get money into the economy? 
What is the best way?
    You come back to the only way we have learned in 100 years 
of trying, and that is you put money into what you do anyway--
you, the public sector. What do you do? Well, you do fund 
public infrastructure. You fund at the State level schools and 
recreation centers and public buildings, and of course, in the 
Federal sector, we fund everything we build. So, the theory 
goes. It is a theory that has been proven time and again, which 
is that, if you fund these already existing responsibilities 
you have for public-sector funding, you are doing what you have 
to do anyway. Number one, you are creating jobs. Number two, 
you are stimulating the economy, all at the same time. Nothing 
else does that.
    Construction funding does something else, particularly if 
there is enough of it in the pipeline. It wakes up the other 
sectors because construction, in turn, depends upon all kinds 
of suppliers and other adjunct services. So, according to the 
economists, fully half of the jobs created do not have to do 
with construction. That will ultimately get the women and 
others who are not journeymen--although we have tried--to, in 
fact, deal, in part, with that very important issue in this 
bill.
    So why did I say then that this sector turns out to be 
particularly important and, I would say, unique?
    What you have heard has been very important, that funds 
are, of course, given to the States and, hopefully, to the 
localities to engage in public-sector funding there. So it is, 
by formula, a typical grant program to those in the States.
    What about Uncle Sam, himself, and all that he--and she--
build around the country?
    This provision deals exclusively with the repair, 
alteration, and construction of our own inventory. It is our 
own responsibility, direct spending of the kind which we have 
badly needed to do for some time. Of course, one of the 
witnesses will testify on the multiplier effect that these 
funds will have on the economic development administration 
portion of the bill.
    To say a word about why this is particularly important for 
this subcommittee, it has been very frustrating to sit before I 
became Chair, certainly, of this subcommittee and see the vast 
Federal inventory deteriorate before our very eyes while we 
spend increasingly more funds to lease from the private sector. 
We finally have reached the tipping point where we lease 
slightly more than we own, but the most heartbreaking thing to 
see were agencies that came to us and said, "We need to lease 
even though we are now in federally owned space." Well, we make 
it very tough to do that because they have to make an 
extraordinary case to get out of what we own and then ask us to 
spend some money--some rent as it were--to others.
    I must tell you that, if deterioration goes far enough 
along, they can make that case, and we are left holding a piece 
of property that we cannot rehabilitate, that nobody wants to 
or should be forced to work in. Therein, you have, perhaps, the 
most wasteful practice that the Federal Government would have 
to offer at this hearing.
    So we have had this exponential growth of repair and 
projects, rehabilitation projects. We just sit there and 
wishfully think. We particularly like this bill because, while 
there is some construction, there will be far more repair and 
rehabilitation. Repair and rehabilitation is not only what the 
Federal inventory most needs, but we like the fact that the 
repair and rehabilitation often involves a wide variety of 
skill levels, yes, typical construction industry skill levels, 
but even skill levels that are fairly sectionalized and would 
not qualify for journeyman consideration. We believe that, well 
chosen, we can return space to the Federal inventory.
    We will be having a hearing as soon as the ranking member, 
our new ranking member, Mr. Diaz-Balart, allows it. We are 
trying to agree on an early time. He has been very forthcoming, 
but we have got to make sure that everyone gets prepared for 
it. It is going to be an early hearing, if the ranking member 
agrees with me, particularly since we could have a direct 
influence on what gets funded here.
    There is formula funding for all the rest of the bill going 
out to the States. Since it is formula funding, big daddy or, 
here, mamma--Uncle Sam--cannot instruct but so much. We do not 
intend to let this portion of the bill go by with GSA funding 
indiscriminately or in some kind of a favoritism way or either 
by a State. Remember, we are talking about buildings all across 
the United States of America. They are going to have to come to 
us with some kind of reasonable formula for how they are going 
to decide what gets funded, and that is why we warned them not 
to get started without hearing from us.
    We think we can begin to get at, really, a terrible closed 
circle because, as the GSA becomes more and more dependent on 
leasing, we guarantee the continued deterioration of the 
Federal inventory since we repair the Federal inventory from 
the so-called Federal Building Fund, because the agencies in 
this government-owned space pay the functional equivalent of 
rent, which in a revolving fund is used to repair their 
buildings and other buildings. It is one of the best examples 
in the Federal sector. These were revolving fund examples, some 
of the best examples, but of course, if you lease, then you do 
not replenish the revolving fund, and you aid and abet the 
deterioration of which I have just spoken.
    In my opening statement, I spoke about a hearing that the 
chairman and I went to at which we spoke, oh, at least 10 years 
ago--the President's Commission on Capital Budgeting. Part of 
the problem we have is that the Federal Government has no 
capital budget, so it does project funding in the most 
wasteful, catch-as-catch-can way. We hope to help break that 
cycle. We are going to have a series of hearings where we 
authorize how the GSA does its work. In any case, we regard 
this bill as of particular importance to the American people, 
and we take that responsibility very, very seriously because 
this involves our spending directly.
    We also want to indicate that, unlike the way in which 
these bills have been characterized since the very first one, 
the stimulus bill and even the bailout as, quote, "the 
economy," the American people do not understand what you are 
talking about. This bill is about jobs. Then it is about jobs, 
and then it is about more jobs. The whole theory is that jobs 
get at stimulating the economy, and we believe that this 
section of the bill does it as well as any other because the 
Federal Government is going to have to take personal 
responsibility through us for where that funding goes and for 
how it is achieved.
    We very much appreciate your patience in waiting to testify 
for so long. Actually, if you knew the record of this 
committee, this committee, when it has such hearings, is 
usually about halfway through at about this time when it has 
every committee to go. So I guess I should be grateful for 
small favors. Nevertheless, I apologize.
    I am very happy to ask for remarks at this time from our 
new ranking member to the subcommittee, Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    I want to thank you first for your leadership. It is, 
frankly, something I am very much looking forward to, working 
with you. You are a person who has vast knowledge and 
experience, and so I could not be more thrilled than to have 
the opportunity and, frankly, the honor of working with you on 
issues that are very important to our Nation.
    I also want to thank Chairman Oberstar and Ranking Member 
Mica for holding this hearing today on infrastructure 
investment and on the proposed economic recovery program.
    As we all know, earlier today, the House Appropriations 
Committee passed legislation that calls for, I believe, $550 
billion of taxpayer dollars to be spent, actually spent, under 
an assortment of projects and programs. The intention, as 
stated in the proposal and as our chairwoman just rightly 
stated, is to create jobs--that is the issue--and to promote 
economic recovery through federally funded infrastructure 
projects.
    Now, more specifically, as the new ranking member--I am new 
by the way. This is my first year as ranking member, so bear 
with me, please. I ask the chairwoman to bear with me as well.
    It is important to note that there is already $1 billion 
proposed on projects within this subcommittee's jurisdiction, 
including $7.7 billion for the Federal Building Fund, $150 
million for the Smithsonian Institution and $250 million for 
the Economic Development Administration as well. In addition, 
there are billions more proposed for other departments and 
agencies related, obviously, to Federal buildings and agencies, 
et cetera.
    Now, while the proposed legislation provides additional 
funding for the Inspector General--which is something we think 
merits attention--and for GAO, I am a little concerned--I am 
actually very concerned--that meaningful congressional 
oversight of the different projects is, frankly, not included 
in this legislation as we have it today, and we know that the 
potential for waste is huge. It is absolutely huge. This really 
puts almost $8 billion into the hands of the middle level GSA 
bureaucracy to spend how they see fit.
    That is why I need to commend the chairwoman for her 
efforts and for her leadership in doing that hearing that you 
will be doing. Again, as I said, bear with me because I am new, 
and it is going to take me a little bit more to get prepared. 
Hopefully, if you will bear with me, we will get faster at it. 
I want to commend the chairwoman because we need to make sure 
the money is well spent and that we know where it is going. I 
am extremely thrilled with what the chairwoman just said in 
that we have got to make sure that there is a plan before we 
just authorize all of that money for, frankly, people that we 
don't know who they are to make those very large decisions.
    Now, part of the reason, obviously, is because there seems 
very little that would prevent funds from being used for 
projects, even those that this committee has, in a bipartisan 
fashion, intentionally rejected in the past. For example, GSA 
could--could spend--$1 billion on a single California project 
that this committee, in a bipartisan way, has repeatedly 
refused to approve because it has deemed to be wasteful, and 
there is nothing in the bill right now that would stop that. 
Not only is there nothing that would stop it, but we do not 
even know who makes those decisions, which is rather 
interesting.
    The proposed bill ignores, frankly, the prospectus process 
which is normally required for such projects. In addition, this 
committee has not included in the reporting requirements 
mandated in the legislation. So, not only would we not have any 
idea how it is going to be spent, but after it is spent, we 
would have no idea how it was spent. Obviously, that is 
something that I know, and that is why I commend the chairwoman 
for her concern as well on that issue.
    I do not need to remind anybody that the management of the 
Federal real property continues to be on the GAO high-risk 
list. Issues such as the increased reliance on costly leasing, 
as the chairwoman just mentioned, and inefficient and underused 
Federal buildings are just two of the issues that remain 
problematic.
    I also understand that, while the proposed bill does not 
explicitly maintain acquisitions of property as an option, I 
think it does allow for projects authorized under existing GSA 
authorities, which may include--hopefully would include 
acquisition.
    Now, there are many development projects that have either 
stalled or are at risk of stalling because of the economy. This 
potentially creates an opportunity--a great opportunity, I 
think--for the taxpayer to acquire needed property, as opposed 
to just leasing forever, at a bargain price. It is clearly a 
buyer's market. At the same time, it will help stabilize the 
economic development projects that, frankly, may be in jeopardy 
in many parts of our country.
    If used carefully, this authority would be a win-win for 
the taxpayer. I mean, think about it. We could stimulate the 
economy by resurrecting stalled construction projects. The 
taxpayer could get a bargain purchase price, and we could save 
billions of dollars over time because we own those buildings as 
opposed to having to continue to lease them.
    Now, in addressing our policy goals such as this, it is an 
example of why Congress must--I repeat "must"--ensure that 
there are clear criteria and clear direction as to how these 
funds will be spent. That is exactly what the chairwoman was 
just talking about a little while ago, and we could not be in 
more agreement. This legislation could be a great opportunity, 
and it is needed. It is a great opportunity to put in place 
real solutions that would help address these ongoing 
challenges. Instead, unfortunately, this legislation seems to 
do very little to address these concerns. In fact, it could 
actually lead to more of a reliance on costly leasing and on 
wasteful spending.
    While there are worthy and necessary projects in the 
pipeline that need to be funded and which would help to support 
and to create needed jobs, we must ensure that such large 
commitments of the taxpayers' money are properly used and 
managed. At a minimum, GSA should be required to submit, as the 
chairwoman just stated--and if I sound like I am agreeing with 
her, I could not agree with her more. As she just stated, they 
must be at least required to submit a projected spending plan 
to this committee before--before--they enter into any 
contracts. Proper congressional oversight must be maintained, 
and ongoing management issues should be addressed in this bill. 
None of us wants to repeat and none of us wants to get back 
into and have a repeat of another TARP mistake where it was not 
even putting the cart before the horse. There was not even a 
cart built before the horse was running all over the place. We 
clearly do not want to repeat that mistake. Without effective 
oversight, I fear that, months from now, we will be reading the 
newspaper headlines and the stories with reports of billions of 
dollars that are wasted on unnecessary projects selected by 
people who we do not even know about--faceless people in the 
middle of a bureaucracy. So I hope that these issues can be 
resolved and addressed.
    I look forward to hearing from the witnesses. I also want 
to add my words to what the chairwoman said. You have been very 
patient. Thank you very much. We are looking forward to hearing 
from you.
    Once again, I want to thank the chairwoman for allowing me 
the opportunity to join this hearing and for the one that she 
is going to be doing, which is so crucial, and I look forward 
to working with her and to listening to you.
    Thank you, Madam Chairwoman.
    Ms. Norton. Well, thank you very much, Mr. Diaz-Balart.
    We began as one in our understanding of how the Federal 
money for Federal projects has to be done. I suppose the 
subcommittee should be on notice; the only way to do that is 
with frequent subcommittee hearings and, certainly, with a 
subcommittee hearing and plan before one cent of this money is 
contracted.
    Finally, I am going to say that I think it is tougher to do 
oversight on the other committees--I am on another committee--
than it is to do oversight here because GSA is right here. We 
have experience in watching them, and I think that they know 
that there is a price to pay, not in money, but there is a very 
severe price to pay if they proceed contrary to congressional 
instructions.

TESTIMONY OF TERRELL G. DORN, DIRECTOR, PHYSICAL INFRASTRUCTURE 
 ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE; NANCY BACON, SENIOR 
  ADVISOR, UNITED SOLAR OVONIC AND ENERGY CONVERSION DEVICES, 
  INC., ROCHESTER HILLS, MICHIGAN; STEPHEN S. FULLER, Ph.D., 
     DIRECTOR, CENTER FOR REGIONAL ANALYSIS, GEORGE MASON 
  UNIVERSITY; SHARON JUON, PRESIDENT, NATIONAL ASSOCIATION OF 
                   DEVELOPMENT ORGANIZATIONS

    Ms. Norton. With that, I would like to proceed as the 
witnesses would like, except that I would like to hear from the 
General Accounting Office first. Then you may speak in any 
order you desire. So I would like to hear from Terrell Dorn, 
the Director of Physical Infrastructure Issues at the GAO.
    Mr. Dorn. Thank you, Madam Chair, and members of the 
committee.
    Six years ago this month, the GAO added Federal real 
property to its high-risk list, in part because of 
deteriorating facilities and unreliable property data. Two 
years ago, we reported that the major Federal real property 
holding agencies had made progress towards managing their 
property, but underlying problems, such as the growing backlog 
of repair and maintenance needs, still existed.
    Last year, we reported that agencies generally expected 
their backlogs to increase as their property continues to age 
and as construction costs continue to increase.
    Much of this backlog is associated with the fact that a 
good portion of the Federal portfolio is over 30 years old. In 
fact, some of the boilers heating this building today are over 
50 years old. In many Federal buildings, their heating and air 
conditioning motors, lighting, roofs, insulation, and windows 
are antiquated, are in poor repair, and are inefficient by 
today's standards.
    Overlaid on top of the Federal portfolio's multi-billion-
dollar backlog of repair and maintenance needs is the Energy 
Independence and Security Act of 2007, which requires Federal 
agencies to take steps to increase energy efficiency, water 
conservation and to make renewable energy more available in 
Federal buildings. The implementation of this act began this 
year, and it is still ramping up. The Department of Energy 
estimates that Federal agencies will need an additional $1 
billion annually for the next 6 years to meet the congressional 
goals established by the Energy Independence and Security Act.
    Addressing these repair and conservation needs sooner 
rather than later cannot only put people to work; it can be 
cost effective. First, postponing repairs generally leads to 
higher operating and maintenance costs in the future, and 
deterioration becomes more rapid. For example, with a small 
roof leak, there becomes a need to replace ceilings and 
carpets. Second, investing in the conservation measures 
outlined by Congress in the Energy Independence and Security 
Act has the potential to reduce energy consumption, to reduce 
greenhouse gas emissions, to reduce future operations and 
maintenance costs, and to conserve water.
    In addition to their effects on jobs, these are projects 
that, for the most part, could pay back their costs over time 
through reduced future O&M costs. Agencies report that the 
biggest barrier to improving energy performance in Federal 
buildings is not technology; it is available capital. GSA and 
other agencies are trying to address this issue, in part, 
through the use of alternative financing mechanisms, such as 
energy savings performance contracts, where the initial cost is 
financed by private companies and is paid back over time 
through the savings in utility bills.
    Paying for these improvements with up-front funding instead 
of these alternative contracts, however, is generally more 
cost-effective, and it allows the Federal Government to reap 
the full benefits that result in savings.
    A large infusion of funding provides great opportunities to 
address longstanding maintenance needs and to meet other 
important congressional goals, such as energy and water 
conservation. It also brings the challenge to ensure that the 
money is spent effectively and efficiently on projects that can 
offer the greatest benefits.
    For example, in fiscal year 2008, the GSA was given about 
$1.3 billion for construction repairs to Federal buildings. 
There is a similar amount in its 2009 budget. This act would 
require them to more than triple their contracting in this area 
over the next year. This would be a huge challenge for any 
organization, and we have identified three principles that can 
be helpful in guiding their future investments.
    First, create well-defined goals based on identified areas 
of national interest. Second, incorporate performance and 
accountability into funding decisions. Third, employ the best 
tools and approaches to emphasize return on investment. For 
example, Federal agencies, including GSA, have historically 
faced challenges in collecting and in reporting reliable energy 
consumption data because of limited metering in Federal 
buildings. The implementation of the advanced meeting 
requirement in the Energy Policy Act of 2005 will give agencies 
an important tool to verify the return on investment of 
building repairs and of modernization, and it will also help to 
identify additional opportunities for savings.
    In summary, the committee's proposal presents an 
opportunity to reinvest capital in our aging buildings, not 
only in reducing the backlog of maintenance and repair but also 
in protecting the investments we have already made. It also 
presents the opportunity to reduce greenhouse gas emissions and 
future operations costs through expediting energy and water 
conservation projects.
    With a great opportunity comes a great challenge for 
Federal managers to expedite their current contracting. The 
need for oversight, accountability and performance measures is 
critical to ensure that our money is well spent.
    Thank you, Madam Chair. This concludes my statement. I am 
prepared to answer any questions.
    Ms. Norton. Thank you very much, Mr. Dorn.
    Why don't we now go to Ms. Bacon, and go down the line.
    Mr. Schauer. Madam Chairman, would it be in order for me to 
make a brief comment before she makes her speech?
    Ms. Norton. Unless you have to leave, we would prefer to 
hear from all of the witnesses first, and then we would be glad 
to recognize you very soon thereafter unless you have an 
appointment of some kind. We always do that.
    Ms. Bacon. Thank you, Madam Chair, and thank you, 
distinguished members of the committee. It is an honor to be 
here and testify today here with you.
    I am a board member of the Solar Energy Industries 
Association, known as SEIA. I am also the Senior Adviser of 
Energy Conversion Devices. We are a publicly traded company in 
Michigan, near Detroit, where we manufacture thin-film solar 
laminates. Our largest business is United Solar Ovonic, which 
is a global leader in the manufacturing of thin-film 
photovoltaics. "PV" we call them.
    They convert sunlight directly into clean, renewable 
energy. As you can see from this small sample, they are 
lightweight. They are flexible. And they are rugged. Yes, you 
have one there, I see. Unlike other products that are 
conventional products made of glass, these features make them 
ideal for rooftop applications. They are typically 18-feet 
long, 14-inches wide and very lightweight. In fact, the 
products were selected to be used on the Mir space station. 
This picture shows how we make them in large rolls of stainless 
steel, very thin rolls on 1 and a half mile substrates.
    If you could go to number 5, please.
    We were just given a large order for a 12-megawatt 
installation system that has been installed in Spain. Now, this 
is on a rooftop in Spain. It is the largest photovoltaic array 
of any rooftops in the world. This is what we would like to do 
in the U.S. We manufacture here in Michigan, but we are 
shipping all over the world. Now we would like to look at 
installing these on government buildings.
    To make our laminates, we employ more than 2,000 people. 
Most of them are employed in seven manufacturing, R&D and 
administrative offices in Michigan. Since 2006, United Solar 
has increased its employment fourfold to 1,200 employees. In 
Michigan, that is quite a feat because, you know, we are at 
ground zero. We had 10.6 percent unemployment that we announced 
last month, and we are just now adding another facility that is 
under construction in Battle Creek, Michigan, where we are 
going to add another 350 people. This facility is now under 
construction.
    We applaud the committee's proposal to rebuild America, and 
we share its vision to create green-collar jobs by investing in 
projects that decrease our dependence on foreign oil and that 
address climate change by reducing carbon dioxide production.
    We believe we can play an important role in making this 
happen while generating thousands of jobs, while reducing the 
cost of solar systems and while helping advance photovoltaic 
technology and processes, making it domestically manufactured 
and accessible and affordable throughout the country.
    But we need your help. I will discuss this in more detail 
later, but what we are proposing is a robust government 
procurement program to install solar photovoltaic systems on 
roofs of Federal buildings. If this is adopted, we believe we 
can help revitalize the U.S. manufacturing base and help 
achieve the committee's and the administration's goals.
    Rooftop solar photovoltaics are an ideal means of creating 
a national distributed generation program. As the committee 
well knows, "distributed generation" simply refers to the 
generation of electricity at the point of consumption rather 
than from a remote location. As outlined in my written 
testimony, the benefits of distributed generation are numerous: 
better land utilization, a reduced strain on the antiquated 
grid system, no transmission and distribution losses, less 
reliance on foreign oil, and a drop in carbon dioxide 
production. Those are five significant benefits all in one.
    If you think about it, rooftops are an excellent place to 
install solar PV systems. For most buildings, the roof has no 
other purpose but to cover what lies beneath it, so we are 
actually able to take advantage of otherwise wasted space, 
which is a huge cost savings in densely populated areas where 
the demand for electricity is the highest. Solar systems are 
infinitely scalable. They can be installed on any rooftop, any 
size, any shape.
    Now, as you probably know, the Federal Government spends an 
estimated $5.8 billion annually on electricity, making it the 
Nation's largest consumer of electricity. There are three 
immediate steps, I believe, the government can take to spread 
the adoption of rooftop solar PV, which I have summarized in 
the handout that we gave you.
    First, the government should lead by example by initiating 
a large-scale, multiyear program to install solar photovoltaic 
systems on the roofs of Federal buildings across the country. 
The GSA alone has 8,600 buildings in the U.S. We have already 
installed our products on the roof of a GSA building in 
Massachusetts, which is also pictured on page 14 of my handout. 
As Chairman Oberstar had indicated in his proposal, the GSA 
headquarters has a plan to renovate their 1800 F Street 
location with the installation of a solar rooftop photovoltaic 
system.
    We applaud the Departments of Energy and Defense, which 
have installed solar systems on rooftops of several of their 
buildings, some of which are also pictured in the handout.
    This represents a tiny fraction of what the real 
opportunity is. A national photovoltaic procurement program 
could generate significant economic results almost immediately. 
Solar photovoltaic systems can be designed and installed in a 
matter of months. Now, this compares to years for other 
infrastructure projects and compares to, in some cases, decades 
for coal, gas-fired and nuclear power plants. The domestic 
solar industry, including my company--United Solar--is creating 
jobs today. A Federal procurement program would rapidly 
accelerate the creation of high-quality green-collar jobs in 
the solar industry, not just for U.S. solar cell and module 
manufacturers like us but for electricians, roofers, 
installers, other balance of system providers, as well as it 
could create jobs for construction and manufacturing facilities 
and for production equipment.
    My second recommendation would be that we integrate the 
procurement program across all Federal agencies, including the 
Department of Defense. Just imagine every military aircraft 
hangar covered with solar systems. The DOD has an aggressive 
energy program for its installations and is very interested in 
photovoltaic power production. They can produce power as well 
as allow utility companies to benefit from free- or low-cost 
roof space in exchange for long-term power purchase contracts, 
giving DOD predictable power bills.
    Finally, my third suggestion was for a requirement to 
support made-in-the-USA systems. I heard earlier--and I was 
very happy to learn--that for government procurement, this 
committee does require items that are made domestically. I was 
very heartened to hear that because most of the manufacturing 
for photovoltaics now is overseas. We invented photovoltaics. 
As my colleague down here can tell you--his father was very 
instrumental in it over 50 years ago--now we have less than 10 
percent of the production. So most of the products that are 
sold in the U.S. are made in China or in Europe or in Japan, 
and I would like to see that created in the U.S. It would 
ensure job retention and creation on the manufacturing side, in 
addition to the design and installation jobs, and it would have 
the necessary capacity to be able to meet the government's 
near-term needs as we continue to expand.
    Our company, for example, has a plan to triple our annual 
production capacity in the next few years to 1 gigawatt of 
annual production. We can speed up this process if there is 
sufficient demand. A made-in-America requirement would also 
encourage foreign manufacturers to locate their production 
plants here in America rather than to supply products 
manufactured offshore.
    So I would strongly recommend that the rest of the 
government adopt this committee's proposal to have "made in 
America" so that throughout the Federal Government we can be 
using products produced right here and so that we can employ 
our own citizens.
    In closing, I would like to applaud the committee for its 
commitment to lead in the green energy revolution and to ensure 
that the economic recovery program is both effective and 
successful. I look forward to continuing to work with the 
committee and with the staff to ensure that the U.S. is, once 
again, the world leader in solar photovoltaics while also 
reviving our economy and while putting our fellow Americans 
back to work.
    I would like to thank the committee for the opportunity to 
provide testimony today, and I hope my comments will be 
helpful. I would be happy to answer any questions you might 
have. Thank you very much.
    Ms. Norton. Well, congratulations to you, Ms. Bacon, on 
what you have been able to do without a lot of government 
assistance, it would appear.
    Mr. Schauer, had we known that this witness--and Mr. 
Schauer will learn this. He is a new member of the committee. 
If there is a witness from your home district, you 
automatically get to introduce that person and to, you know, 
filibuster all you want to.
    Mr. Schauer was very polite and simply said he wanted to 
speak. Well, of course, we do not let that happen.
    But, Mr. Schauer, I apologize, and we will allow you at 
this time to speak.
    Ms. Bacon. And we are creating 350 jobs in his district.
    Ms. Norton. And apparently, he had something to do with 
that, so I will not steal his thunder any longer.
    Mr. Schauer. Madam Chair, and to the vice chairman, you are 
both very gracious.
    First, as a member of the full committee, I am excited 
about the vision of your subcommittee and about the potential 
that we have to lead by example, so I am very proud to have a 
company here from my home State of Michigan.
    As the witness noted, in fact, our unemployment rate for 
December hit 10.6 percent. So we have a green-collar industry 
make a commitment in my hometown, in my home district--Battle 
Creek, Michigan--of, I would like to say, at least 350 jobs, 
hopefully more.
    By the way, Madam Chair and Mr. Vice Chairman, the reason 
this company chose this site is the infrastructure was there, 
and they are growing very rapidly, but this is a technology 
that is very versatile. It has private-sector uses, public-
sector uses, and this is a company that is going to be growing 
around the country. If we are going to be investing taxpayer 
dollars, we have the ability to invest those dollars in a U.S.-
based company that is manufacturing this material right here in 
our country where we so desperately need to put our people to 
work.
    I am proud that you are here, Nancy. I was riveted by your 
testimony and will certainly help in any way that I can.
    Finally, I would say, Madam Chair, that I have a number of 
ideas of federally owned buildings right in this very 
community, in Battle Creek, Michigan, where maybe we can pilot 
some of those, including one which is a very historic 
building--the Hart-Dole-Inouye Federal Center--that provides an 
important Defense Logistics Agency function. We also have a VA 
medical center and, of course, an international guard base and 
a National Guard training center. So we may think creatively 
about reducing transportation costs to ship that material right 
there in our community.
    Nancy, thank you. It is an honor to have you--United Solar 
Ovonic--here, testifying before this committee at such an 
important time where we will be making key investments. I think 
it is a great idea that we look at using this made-in-America 
technology to reduce our energy costs and to be more 
accountable to the taxpayers of this country.
    So thank you for your indulgence.
    Ms. Bacon. I would just like to thank you as well, 
Congressman, for all of the help you gave us to convince us to 
locate in Battle Creek. We look forward to it. The 350 jobs are 
direct jobs. As you know, there will be a lot of other jobs 
that amplify that from suppliers and from other people, and it 
does not include the people who are building the building or 
who are building the production equipment. So we look forward 
to it. Thank you.
    Mr. Schauer. I wanted the committee to know that we make 
more than just breakfast cereal in Battle Creek, Michigan. 
There is another idea. Let's generate the electricity for that 
industry with your product, too.
    Thank you so much. I will stay as long as I can. I have a 
flight to catch. Thank you.
    Ms. Norton. We understand.
    Mr. Schauer, I must say that we have to congratulate you 
that, as a State Senator, you were involved in putting together 
an incentive package at the State level for this project. Now 
imagine a photovoltaic project in cold Battle Creek, Michigan. 
That took vision, and it inspires us to think in similar ways.
    For example, if a State Senator and his colleagues in 
Michigan can help create a company in a State which has 
particular issues of unemployment and is not known for solar or 
for wind and can get the State or other sections of government 
to invest in it, one thing we might consider--because we are 
going to have people coming in from every section of the 
country, saying, What about my Federal building? We do not play 
that on this committee. We have it all the time for 
courthouses. We will just have to look into this.
    It may be whether or not we can make this $7 billion go 
further by making some of it available in communities where 
there is a sector, a government sector or a business sector, 
willing to do at least some matching that would help us, in 
addition to need and in addition to the best interests of the 
government, make what otherwise may be quite bedeviling 
decisions.
    We are looking for a way to make decisions that does not 
favor any part of the country, that does not favor any kind of 
energy, that does not favor any need except the need for jobs. 
Beyond that, since the need for jobs is wholesale and since 
every sector in the United States is down, we need to find a 
formula for this direct Federal spending from the Federal 
Government that is totally transparent and that can pass any 
kind of public inspection.
    With that, I will go to Mr. Fuller.
    Mr. Fuller. Thank you, Chairwoman Norton. Thank you for the 
opportunity to testify before you today.
    I am testifying on behalf of the Associated General 
Contractors of America, the AGC, a national trade association 
representing more than 33,000 companies, including 7,000 of 
America's leading general contractors, 12,000 specialty 
contractors, and 13,000 service providers and suppliers.
    My name is Stephen Fuller, and I am the Dwight Schar 
Faculty Chair and university professor and director of the 
Center for Regional Analysis at George Mason University in 
Fairfax, Virginia.
    In 2008, I produced a study for AGC that estimated the 
impact of nonresidential construction on employment, personal 
earnings and gross domestic product for the Nation as a whole 
and for each State. Along with this testimony, AGC's fact 
sheets for the U.S. and for each State are being submitted for 
the record. I have done similar research for the National 
Association of Industrial Office Properties and for the 
National Stone, Sand and Gravel Association.
    My analysis shows that investment in nonresidential 
construction adds significantly to jobs, to personal earnings 
and to GDP, far beyond the hiring that takes place in the 
construction industry itself. In a nutshell, my research found 
that, when there is sufficient unused labor capital and 
materials, an additional $1 billion in investment in 
nonresidential construction supports or creates 28,500 jobs and 
adds $3.4 billion to GDP and $1.1 billion to personal earnings. 
Only about one-third of these benefits accrued directly to the 
construction industry. Roughly, one-sixth goes to industries 
that supply materials, services and equipment to the 
construction project. Fully one-half of the gain is diffused 
through the entire economy as workers and owners in the 
construction and supplier industries re-spend their added 
income for a wide range of goods and services throughout the 
local and State economies.
    Clearly, the condition today is that there is sufficient 
slack in the economy to create new jobs rather than to merely 
displace workers in other sectors. The Bureau of Labor 
Statistics reported earlier this month that private-sector 
employment declined last year by 2.8 million workers. 
Construction employment has decreased by 899,000 workers, or 
almost 12 percent, since peaking in 2007. While residential 
construction has lost the most workers, nonresidential 
construction has lost more than 300,000 jobs in the past year.
    Spare capacity abounds in the construction supply 
industries as well. For example, employment has declined for 6 
straight months in architectural engineering services. The 
Federal Reserve reported on January 16 that the industrial 
production of construction supplies declined 14 percent in 
2008.
    In December, the AGC asked contractors to answer a short 
survey about current conditions. Seventy-two percent said they 
had laid off workers in the past 12 months. This represented 
about a 30 percent reduction in their workforce.
    The American Recovery and Investment Act, as introduced in 
the House last week, would, according to AGC's analysis, 
provide funding for more than $130 billion of construction-
related activity. Assuming these funds are distributed evenly 
over 2 years, nonresidential construction spending would rise 
by approximately $65 billion a year under the bill. An 
investment of $65 billion a year in nonresidential construction 
would support or create, roughly, 620,000 construction jobs, 
300,000 jobs in supply industries and 930,000 jobs throughout 
the remainder of the economy for a total of 1.8 million jobs.
    Taking all of these items into account, it appears that 
they actually generate close to 687,000 construction jobs by 
the fourth quarter 2010 that were estimated by the economic 
advisers to President Obama and by a paper the Transition 
Office released on January 10.
    Although these amounts are large compared to previous 
Federal funding, they are modest compared to the lists of so-
called shovel-ready projects implied by several associations 
and public officials. They are also far less than the available 
capacity of construction materials industries, especially since 
the act would spread investment across many types of 
structures.
    This $65 billion would represent about a 9 percent increase 
in the current level of spending, far below the 12 percent 
decrease in construction employment and the 14 percent decrease 
in output of construction supplies that has already occurred.
    In summary, my research shows that, at a time of unemployed 
workers and of excess production capacity, each billion dollars 
of spending on nonresidential construction would support 
approximately 28,500 jobs. It would increase GDP by $3.4 
billion, and it would add $1.1 billion to personal earnings. 
The American Recovery Investment Act, as introduced in the 
House, had, roughly, $130 billion in spending over 2 years for 
nonresidential construction projects in a variety of worthwhile 
categories. It is an industry that has lost 900,000 jobs, and 
it is where construction supply production has declined 
substantially. Thus, there is sufficient capacity to absorb new 
demand.
    On behalf of AGC, I urge the committee to support passage 
of the act. Thank you.
    Ms. Norton. Thank you very much, Mr. Fuller.
    Ms. Juon?
    Ms. Juon. Good afternoon, Madam Chair Norton, Ranking 
Member Diaz-Balart and members of the committee.
    My name is Sharon Juon. I currently serve as President of 
the National Association of Development Organizations, as well 
as Executive Director of the Iowa Northland Regional Council of 
Governments, which is an EDA-designated economic development 
district headquartered in Waterloo, Iowa.
    Thank you for the opportunity to testify today on the vital 
and important effect infrastructure investment has in 
stimulating job growth, especially in our Nation's distressed 
and underserved communities.
    We have submitted detailed testimony for the record, so I 
will limit me remarks to three key areas.
    On behalf of NADO and its local partners, we would like to 
thank Chairman Oberstar and members of the committee for their 
leadership in recognizing the critical role the Economic 
Development Administration plays in job creation by providing 
the agency with $400 million as part of your Rebuild America 
proposal.
    First, if we are to keep pace with our global competitors, 
the United States must make substantial investments in our 
public infrastructure systems. Programs like EDA are uniquely 
positioned to make sound investments in our Nation's 
infrastructure backbone that can yield short-term strategic 
construction jobs. This will ultimately lead to high-quality, 
long-term employment in distressed and underserved comments.
    The resources provided by EDA are used to establish and 
upgrade the public infrastructure that the private sector 
requires to be competitive, profitable and achieve long-term 
sustainability. Quite simply, the United States can no longer 
take it for granted that our business leaders will locate or 
remain in this country. In this current economic environment, 
the private sector expects and demands to have access to 
modern, reliable and efficient infrastructure systems.
    Ultimately, if our local communities are unable to provide 
the private sector with these assets, business will locate or 
relocate almost anywhere across the globe where a nation, state 
or locality has these fundamental assets.
    Second, EDA is uniquely positioned to assist distressed and 
struggling communities with a wide range of effective, reliable 
and efficient job creation and retention initiatives.
    EDA is the only Federal agency exclusively focused on job 
creation and retention efforts. In other words, every dollar of 
EDA project investments must produce quality private-sector 
jobs. The agency has exemplary results. Since its inception, 
EDA has created or preserved in excess of 4 million private-
sector jobs and leveraged more than $130 billion in private-
sector investments.
    However, numbers alone do not accurately reflect the 
transformational nature of EDA investments. In my region alone, 
we have firsthand experience of the agency's impact. Last year, 
my organization helped secure $1.5 million for the Cedar Valley 
TechWorks project. That is an initiative aimed at establishing 
a bio-products cluster in several old John Deere buildings that 
John Deere donated to a nonprofit business organization in the 
Waterloo area.
    In addition, EDA recently provided $300,000 for our 
organization to hire two full-time flood coordinators, paying 
for them for over 2 years, following last year's historic 
floods and tornadoes. These positions are desperately needed to 
facilitate communications among Federal, State and local 
officials. They are also essential to coordinate projects and 
resources at the local level and to provide technical 
assistance to our local governments and communities who are 
impacted by these disasters.
    I would also say after today's testimony that I am sure 
United Solar in Michigan would be a terrific EDA project, so 
look at that in the future.
    Unfortunately, local and regional needs far outstrip the 
resources of the agency, which has a modest annual budget that 
is currently under $300 million. In June and again in December 
of last year, NADO surveyed EDA's 381 economic development 
districts to determine the potential backlog of ready to go 
public works projects. We identified more than 600 projects 
worth more than $2.3 billion that could begin if additional 
resources were available to the agency. These projects could 
potentially leverage an additional $7.5 billion in private 
funding and create or save more than 118,000 jobs, with an 
additional 22 in construction jobs, as a result of EDA's 
investment.
    Let me stress that through the national network of 381 
EDDs, in collaboration with EDA's six regional offices, the 
agency has the capacity to commit funds and implement projects 
in a very timely manner. Certainly local grantees must comply 
with Federal rules and laws, but the network of EDDs has the 
experience and capacity to ensure that these requirements are 
observed without sacrificing efficient and prompt project 
delivery.
    Even more important, if there is the political leadership 
within EDA that is committed to moving projects quickly through 
the pipeline, the agency has the ability and capacity to 
implement projects in the time frame envisioned by the 
committee.
    Finally, in addition to supporting the committee's $400 
million request for EDA, the members of NADO urged Congress and 
the new administration to adopt additional measures to ensure 
the efficient and responsible distribution of EDA's stimulus 
resources. These measures include waiving local match and 
economic distress requirements for EDA investments, authorize 
the establishment of a corps of retired EDA executives and 
professionals, tap into the existing EDD network to further 
target, identify and vet regional projects.
    EDA is a vital resource within the Federal portfolio for 
distressed communities working to overcome sudden and severe 
economic dislocations and long-term economic decline. As 
Congress and the new administration work to refine their 
proposals to stimulate the Nation's economy, vibrant and robust 
funding for EDA should be a significant component of any 
national job creation.
    Thank you, and I welcome any questions or comments.
    Ms. Norton. Thank you very much.
    I would like to begin by asking Mr. Dorn to lay the 
groundwork for something that is of special interest to the 
entire committee and that is the energy savings, particularly 
given the very significant bill we passed in 2007, the first 
really comprehensive bill, Energy Independence and Security 
Act.
    We often heard from Federal agencies that they could not 
document for us efficiently and you mentioned this in your 
testimony on energy savings. So we have now required these 
Federal agencies, instead of being metered all together, to be 
individually metered. Do you believe that this metering by 
agency will in fact allow us to--our Federal Government to 
measure the payback in energy savings that has been a 
particular problem up until now?
    Mr. Dorn. Yes, Madam Chair. The advanced metering can do a 
couple things. One, it can identify the savings that you are 
getting from the projects that you are doing now. Two, by 
monitoring those meters, you can see what areas used more 
energy than others do. So you can identify new projects. So 
that is another important use of the meters.
    Ms. Norton. But that would do it. Just like you can tell in 
your own home, well, compared to last year's Pepco bill or 
energy bill. We will have to get the latest statistics from--I 
take it you do not have it. It is not mentioned in your 
testimony--from GAO and their progress on metering. Because I 
don't think we will be able, given the many calls on Federal 
funds, to continue to talk about weatherization and energy 
conservation and we can't show what we are talking about.
    Dr. Fuller, I would like to ask you a question. To the best 
of your ability--and you economists are worse than lawyers. 
Once we get two or three of you at the table we have to figure 
it out for ourselves. Certainly not.
    But I would like your views on whether or not you think the 
spending here can have an appreciable impact in this provision. 
The reason I ask is because I went back and read some of the 
history of the 1930s, and this is both like and different from 
that situation. They had nothing. They had to invent 
everything. We have every single sector down. There is nobody 
up. So, in many ways, it is like it, but the fact that we have 
been able to do so little tells us how different it must be.
    Well, one thing we know is that by almost the close of the 
1930s they were beginning to call it Roosevelt's Depression, 
because he lived by the economic rules of the earlier part of 
the century that says government doesn't spend money that 
causes inflation. And according to all the texts, if the truth 
be told, all the government had done up to this point, and even 
the WPA and those kinds of things that he began to do, Social 
Security and the rest, none of that really had a substantial 
impact on reviving the economy until World War II had a most 
substantial impact and the economy came back full flower at a 
time.
    Of course, since we were at war, everything was made here. 
Detroit was particularly rich. They simply converted to making 
tanks. And everyone, of course, was involved in the war effort; 
and we came out whole.
    One of the reasons we got this head start on the rest of 
the world is because we were left standing and we had this 
flourishing economy as a result of the war, and everybody else 
was taken down, and we were living in a real sense off of the 
greatest generation ever since.
    Looking at just this provision of the bill, we are into the 
Roosevelt syndrome of spending too little to have a substantial 
impact until we come back when there is too few jobs; and then 
people say to us, oh, well, you know, there they go again, tax 
and spend, or whatever they say. They now want to spend some 
more.
    Is there a problem developing here because we have not put 
enough funds to have an impact on an economy of this size and 
on a problem of this size or do you think this will begin to 
wake up the construction sector which in turn wakes up other 
sectors down the line?
    Mr. Fuller. Well, we did learn a lot as we looked back in 
history during the Depression. And one of the lessons clearly 
was it was too little, too late. So one of the keys here is to, 
if you are going to go ahead with this kind of stimulus, it has 
to be soon, and it has to be large. The experience in Japan 
proved some of the same.
    Construction has shown to be a very good source of 
disseminating economic influence throughout the broader 
economy. Again, it depends on getting projects going really 
quickly and picking those kinds of projects that are in 
economies that have the potential to benefit from the kind of 
spending and re-spending that is associated with construction 
projects. So, theoretically, the potential is here to have an 
enormous kick-start on the economy, but if it takes 4 years to 
get going, it is not going to do what needs to be done later 
this year.
    Really, for this to be successful and achieve its 
potential, these projects, some of this money has to be 
generating jobs and being spent and being earned in calendar 
2009 and with the largest impact probably coming in the first 
half of 2010. By that time, the economy should be started. But 
getting it started, if this is a jump-start kind of investment 
program, scale is important and picking those kinds of projects 
that are in economies that can utilize the stimulus. That takes 
good management and willpower.
    Ms. Norton. Thank you very much.
    Before I go to the next two witnesses, I would like to go 
to the ranking member.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. I want to 
thank you for you for your generosity, allowing me to jump in 
right now. I have a few questions, and I will try to make them 
relatively quickly about the legislation.
    If I may start with you, Mr. Dorn, as I said before, the 
current language of the American Recovery Act, whatever the 
actual name is, provides $7.7 billion for Federal building 
funds for real property activities. Now $6 billion of this is 
designated for construction, repair and alteration of Federal 
buildings for projects that will, and I quote, "Create the 
greatest impact on energy efficiency and conservation."
    My question then now is, from your reading of the language 
of the bill, would that requirement for energy efficiency and 
conservation supersede the ultimate goal, which is create jobs 
and to stimulate the economy?
    Mr. Dorn. We have not looked at what the effect of that 
would be.
    Mr. Diaz-Balart. All right.
    Also related to what I said in the beginning, what existing 
mechanisms, if there are any, are in place to ensure that 
projects selected are appropriate and consistent with Federal 
priorities? In other words, what mechanisms would you recommend 
that should be created to ensure that there is consistency with 
Federal real property management priorities, if any?
    Mr. Dorn. There is an existing process now that GSA uses 
with the prospectus that you all mentioned before. You also 
mentioned, I believe, that is not part of this bill. Something 
similar may be helpful for the committee to keep track.
    Mr. Diaz-Balart. Great.
    On the same vein, there are a number of projects that this 
committee has determined that are not appropriate and, 
therefore, their prospectus has not been approved. Is there 
anything, as far as you can tell, that would prevent these 
projects from proceeding under the proposed legislation?
    Mr. Dorn. Not from what I have read in the legislation.
    Mr. Diaz-Balart. The proposed bill explicitly allows GSA to 
initiate leasing and we know where you are and where GAO has 
cited that increasing reliance on leasing by the Federal 
Government is one reason why the Federal real property 
management remains in the high-risk list. Additionally 
increasing leasing means less income for the Federal building 
fund. And would you have any ideas of what we could propose to 
put into place, something that would ensure that this authority 
would not be overused and abused?
    Mr. Dorn. No, sir, we have not looked at that at this 
point. But we could get back to you.
    Mr. Diaz-Balart. Great, that would be great.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Again, same kind of vein, there are three guiding 
principles highlighted in the GAO's testimony regarding Federal 
buildings which are: create well-defined goals based on 
identified areas of national interest, incorporate performance 
accountability into funding decisions, and employ the best 
tools and approaches to emphasize return on investment.
    What provisions in the proposed legislation would ensure 
that the principles are applied to the spending of these funds? 
Any idea?
    Mr. Dorn. There is nothing I read, and that is why we are 
concerned that the proper amount of accountability is given 
without delaying what you are trying do with the jobs issue.
    Mr. Diaz-Balart. Thank you, sir.
    Ms. Bacon, congratulations, by the way. You are building 
green jobs in a moment that doesn't seem to be happening a lot. 
So congratulations.
    In your written testimony, you talked about and noted there 
were a number of Federal projects that employed this 
technology, your technology. Is there any way you can provide 
examples of the number of jobs for each of those projects 
generated based on the size of the project?
    Ms. Bacon. Well, it is a little bit difficult, but take, 
for example, the Solar Energy Research Association has done 
some studies on this, and they talked about the direct jobs 
for, say, a 10-megawatt facility, and I talked about a 12 
megawatt facility that we did over in Spain, which created jobs 
both here and in Spain, but we want to do it all here. Just the 
manufacturing jobs for that is like 140, installation jobs are 
another 3, and then there is ongoing O&M. But that is just what 
you are putting together on the roof.
    Now we also have to, for example, in Battle Creek, we are 
building a building in a greenfield spot. So we are building 
our own building. So we have got construction people who are 
doing that. We are putting them to work.
    We are also--our company manufactures some of the very 
high-tech equipment. We also buy from other U.S. companies with 
that. So when you get that amplification effect, including when 
you are looking at the supply chain, which most of our supply 
chain is also U.S. We had been buying some steel from Japan, 
but we are weaning off of that and getting U.S. sources. There 
is probably easily a multiplier of 10 with those numbers.
    Looking at--with industry if we put, say, a $10 billion 
program together to put photovoltaic on all the roofs of 
Federal buildings, which we believe in the long run will save 
the Federal Government money. Keep in mind these last for 25 
years. You have hardly any O&M because the sunshine comes. We 
are looking at creating between 350,000 and 500,000 sustainable 
jobs. It is not just something that just we are going to do.
    The last point I would like to make when I talk 
sustainable, photovoltaic industry is growing dramatically, 
mostly overseas. We have less than 10 percent, even though Bell 
Labs introduced this and did the inventing with it. It is 
supposed to go from 2.8 gigawatts in 2007--we do not have all 
the 2008 numbers--to 2012, 16 gigawatts. So when you are 
thinking about jobs and creating jobs here, I think you want to 
think about not just shovel ready when we do that, which I am 
all for it, but how is it going to create other industries that 
we, the U.S., can help regain our leadership that we once had 
in this area. And I think the green collar jobs, the 
sustainable jobs, they are very important.
    And we have a lot of experience, too, in being able to 
restrain workers. For example, in Greenville, Electrolux moved 
out. It was one of our other facilities that I mentioned. 
Everybody was unemployed. And I have to tell you it was one of 
the most emotional groundbreakings I have ever been to, because 
I have been to all of them. These unemployed workers came up 
and said, we know you could put this plant anywhere in the 
world, and you chose us, and we are not going to let you down. 
And they didn't. We retrained the workers, and this is very 
high-tech. So I think there are a lot of strengths that come 
into this that need to be considered.
    Mr. Diaz-Balart. Thank you; and thank you, Madam Chair.
    Ms. Norton. Thank you, Mr. Diaz-Balart.
    Could I now ask Mr. Kagen of Wisconsin if he has questions 
for these witnesses?
    Mr. Kagen. Thank you, Madam Chairman. I have just a few 
questions.
    I would like to congratulate Ms. Bacon on a successful 
business venture. Hopefully, it is successful.
    And, Mr. Dorn, I share your concerns about accountability 
and transparency and making sure that somehow Congress can 
reach down into the expenditures and make sure that these 
investments were well targeted.
    And, Ms. Juon, I just have to tell you, my roommate is your 
Congressman; and you are very fortunate to have such a hard-
working fellow, Bruce Braley. He is very hard working, and we 
are very fortunate to have him in Congress.
    I have a question really for Dr. Fuller. If we use your 
number of 28,500 jobs generated for $1 billion of investment, 
if the rest of this recovery act were as successful as that, if 
we invest in $850 billion by my pencil calculation we would 
generate 242 million jobs. So maybe you can explain what is 
going on.
    Mr. Fuller. Well, different kinds of investments generate 
different levels of jobs. And the degree to which these jobs 
are generated by any kind of investment is influenced by how 
global the economy that is being affected is involved in the 
investment, in the improvement.
    So construction has about--for every million dollars there 
is 28 and a half jobs. It is not just construction jobs. It is 
retail jobs. It is legal jobs. It is government jobs. It is all 
the jobs that benefit from the spending and respending and the 
cycling of those funds through the local, State, national 
economy. Some leaks out to some other countries. If you buy 
rebar from Korea, it goes there, too.
    So if you look at all the different kinds of proposals, one 
could estimate how many jobs it would generate; and some don't 
generate any jobs, in effect, because there is a trade-off 
between if you pass out or send out checks and people save 
money as opposed to spending it, there is no job growth. If 
they spend it on retail and buy goods that are produced in 
China, it doesn't generate many local jobs and so forth. So it 
really does depend on what the money is being used for. 
Construction happens to have a very high multiplier, because so 
much of the construction activity has to be localized. The 
concrete and asphalt and a lot of the heavy equipment is still 
produced here.
    Mr. Kagen. Well, it isn't, oftentimes, the cost of the 
house when you buy it. It is the cost of maintaining that home. 
Isn't it also true in the industry of transportation, our 
roads, our bridges, our schools, that it may not be the 
downstroke of our initial investment but the cost of 
maintaining it? Have you calculated that or evaluated if we can 
continue to expend these funds to maintain what we are about to 
build?
    Mr. Fuller. Well, sir, that is an excellent observation. In 
the work that I did for the National Association Office of 
Industrial Properties, we looked at construction as well as 
operations. And construction is done. It is over. The impacts 
are realized, and they are finished. That is really good to 
jump-start the economy. For many of these buildings and 
projects, not only did they need to be maintained, repaired, 
upgraded over time, so there is a continuing benefit that flows 
from that, but they also create a capacity to do work.
    So if you build an office building, something is happening 
in an office building, and there is people working in it. If 
you build a water supply system, that water is, in fact, being 
used to produce value added in the economy. And so the 
construction effect is the one you see first.
    The operating effect--and I think that is where picking 
these projects carefully so they support the long-range needs 
of the economy and make us competitive in not just next year 
but in 2020--is really critical. So there is lots of choices 
and the different kinds of impacts at different times.
    Mr. Kagen. Thank you for your answer. I really appreciate 
it. I had hoped that you would continue to pay attention.
    In my framework of reference, I would like to see much of 
this investment in small business. Small business provides 50 
percent of our GDP, over 90 percent of our employment 
opportunities, and the fastest way to grow our economy and 
expand the middle class is investments directed at small 
businesses. So if you are looking just to lay your solar cell 
capacity on top government buildings, we couldn't build them 
fast enough to keep you in business forever. But I think we 
have to aim--our target ought to be at small businesses as 
rapidly as possible.
    Thank you for the time. Thank you for your effort.
    Ms. Bacon. Can I just make a comment to that?
    I agree with you wholeheartedly; and a lot the electricians 
and installers and roofers, all of those people are small 
businesses. And most of what we do are not new buildings. They 
are retrofit buildings, like the 12 megawatt we showed there. 
We have done a number of different things in the U.S., too. But 
I take your point, and I agree.
    Mr. Kagen. Just to respond--I have to correct your language 
here. Two years ago when I came to Congress and Chairman 
Oberstar mentioned that word "retrofit", the energy building 
was solar. I said, excuse me, don't you mean "future fit"?
    Ms. Bacon. By the way, the energy building, do you know who 
manufactured those solar cells? What country they came from?
    Mr. Kagen. Let me guess.
    Ms. Bacon. Go ahead.
    Mr. Kagen. Germany.
    Ms. Bacon. China.
    Mr. Kagen. Well, it is like the blankets at the swearing 
in, China.
    Ms. Norton. Thank you, Mr. Kagen.
    Why did they come from China, Ms. Bacon? Does that mean 
that you cannot produce the photovoltaic in this country at a 
rate that the Federal Government and others who would wish to 
install these believe is the most reasonable rate?
    Ms. Bacon. Frankly, I don't know why they came from China 
and how the procurement package was put together. I could 
probably do a little research on it.
    There is one thing which is the photovoltaics, and then 
there is a balance of systems. Because this is DC power and you 
have to convert it into AC power. There is the installation and 
so on. They did supply the solar cells there, and I am not 
aware of anybody looking at a U.S. made with the DOE facility.
    Now I know you said GSA has that, but I can certainly look 
at it a little bit further. But there are a lot of U.S. 
Government facilities that have products that are made offshore 
that we in the local industry, not just us, there are other 
people manufacturing here in the U.S., solar, I think can meet 
all of those needs at the same costs or better costs.
    Ms. Norton. Same costs? Remember, I expect that the cost of 
labor in China is a little lower than in this country.
    Ms. Bacon. It is, but our challenge is to be more 
productive and more competitive with it. And we sell on a 
competitive basis. Some photovoltaics turned out to be a 
commodity that you sell at the market price, whether you 
manufacture it in Germany or China or Japan or in the U.S.; and 
that is what we typically do.
    Ms. Norton. And, of course, as you testified, if the 
government were a big player in this history that this would 
reduce the cost right there.
    Ms. Bacon. Well, that's right. If we could make further 
reductions here, with high tech in low volume you get high 
cost. And I think the volume increase here could help reduce 
the cost and improve the production process technology and all 
of those things, which would be very beneficial to the U.S.
    Ms. Norton. We are going--particularly since we will be 
directly responsible for the Federal investment, we will be 
faced with, I think, a real challenge. I just finished signing 
a Buy America bipartisan letter addressed to the Speaker. You 
say and you talked about Buy America; and then you say, and we 
have very few companies.
    Ms. Bacon. Well, I say we have few companies. Most of the 
market right now, less than 10 percent is manufactured in the 
U.S. But there are a dozen companies that are manufacturing 
here: First Solar, Global Solar, Neo Solar, Nanosolar, EVP, 
Solar World, BP Solar, Evergreen, Schott Solar. So we are not 
the only ones. There are a number of people. And some of these 
are foreign companies. That is okay with me. We are creating 
U.S. jobs. That is cool.
    Ms. Norton. Some of those companies are international 
companies that are not----
    Ms. Bacon. That is correct. So, for example, British 
Petroleum, they have a capacity of 35 megawatts. They make much 
more offshore, but they manufacture here as well.
    Ms. Norton. So these European and other companies took our 
technology and ran with it. I don't blame them. But I am trying 
to see how in the world you got started in business as compared 
to how these foreign companies were apparently able to take the 
innovation and somehow start up and have companies that now 
locate here or sell here. How were you able to start a business 
like this at all?
    Ms. Bacon. Well, it is very interesting. And, actually, 
most of the solar photovoltaics now have different 
technologies. The work horse of the industry is crystalline 
photovoltaics, which was invented at Bell Labs, as we remember, 
50, 60 years ago?
    Mr. Fuller. Fifty-four.
    Ms. Bacon. Fifty-four years ago, and it is a 
crystallineprocess, and you grow crystals. It is a high-
temperature process. You slice it. There is a lot of wastage. 
It works extraordinarily well, and it has worked well for 54 
years.
    What the industry has been looking for is thin film 
technology, nanotechnology. Literally, that is what we are 
using. You have heard nano in a lot of things. What we did is, 
instead of doing the crystalline, we developed a new technology 
which is very technical.
    Ms. Norton. You yourself developed.
    Ms. Bacon. Not me, not me. The founder of the company and 
other people. And literally when we talk about thin film we are 
talking about angstroms, one-fiftieth of a human hair. So there 
is a lot of interest of going to these thin films.
    Ms. Norton. Your company, obviously----
    Ms. Bacon. Yes.
    Ms. Norton. --were able to get into this market because you 
had an innovation that the European companies did not have.
    Ms. Bacon. That is correct.
    And, in fairness, a lot of things were done also in 
partnership with the U.S. Government. We had contracts with the 
U.S. Department of Energy in a lot of different areas. But now 
we finally have a product where we are making money and 
expanding, and we would like to expand more.
    Ms. Norton. What percentage of your business has been with 
the U.S. Government in one form or fashion?
    Ms. Bacon. Well, it is small, you know, compared to what we 
are doing now. We don't manufacture hardly any products for the 
U.S. Government. I have got some examples in my handout.
    Ms. Norton. What do you do for the U.S. Government?
    Ms. Bacon. We do joint R&D. We are a part of the Solar 
America Initiative.
    Ms. Norton. So you do joint R&D.
    Ms. Bacon. That is correct, and that has been important for 
us in the future----
    Ms. Norton. Does that involve grants?
    Ms. Bacon. It is grants, and it is cost sharing, which is a 
good thing. We pay some of it, and they pay some of it, and we 
are creating technology. And we have a very strong proprietary 
position, over 100 different patents, which is important to us 
as well. But there is a lot of competition out there. So that 
is why I would like to see America First U.S. made. And if we 
can meet the needs, not just us but other people creating jobs, 
I would like to see a preference with that.
    Ms. Norton. You heard Dr. Fuller. Now, obviously, we have 
had Buy America for a very long time, and yet the example like 
the China example is typical, and we understand why.
    I can try this theory on you. We are, as indicated in my 
opening remarks, attempting to do something different from what 
we did when we started down this road less than a year ago with 
a stimulus and then the bailout. This time, we are saying it 
out loud. We want to make jobs. We didn't say that for the 
bailout and certainly didn't mean that for the stimulus. We are 
saying jobs.
    Now, on the Buy America notion that Ms. Bacon says and I am 
sure in prior testimony--I wasn't here for all of it--there was 
all kinds of talk about how this money has got to be spent in 
the United States of America this time because we are trying to 
make jobs here. Would it be economically justifiable, in light 
of the primary purpose of the bill to generate jobs, to, in 
fact, in this instance--I don't want to use the word 
"require"--in this instance expect that even if a product 
competitively could be brought somewhere in China or Saudi 
Arabia that the biggest bang for the buck would be for the 
purchases, subject to reasonable exceptions, to be made in the 
United States of America, even with some added cost?
    Ms. Bacon. I think it is an excellent idea. I think what 
you might want to put into this is that part of the 
solicitation would be job creation. Again, we don't care if the 
jobs are created by a foreign company if they are here, then we 
would have that benefit. And if you think about the economics 
of it, it would be far better to pay workers to help us install 
photovoltaics on roofs of Federal buildings, give them the 
dignity of a job, rather than paying them unemployment 
benefits. So if you look at the pros and cons----
    Even in my Greenville example I talked about, these people 
were laid off, they were getting unemployment benefits, we 
retrained them and so on. So even if it costs a little bit 
more, if they are creating jobs and are not paying 
unemployment, there are some benefits here.
    Ms. Norton. But the Federal Government never, never 
operates in the near term to say, if you did this in the near 
term, whatever it is, you will save money.
    This time, though, given the jobs' notion, I will go to Mr. 
Fuller.
    There is no question in my mind that a lot of what it will 
take to implement this bill can somehow be purchased cheaper 
than in the United States. All you have to do is look at the 
cost of labor here. We are not trying to fund low-cost 
sweatshop jobs here. We made no claim to try to do that. We 
recognize construction jobs, for example, are high-paying jobs. 
Some of the other jobs will not pay as much.
    But we will face the dilemma soon that the way in which the 
Federal Government, for as long as I have known anything about 
it, has been outsourcing the same way a private company does--
hey, what is the lowest cost? We have acted almost exactly like 
it. We have all but outsourced the United States of America in 
the last few years. Beyond that, the China example is anything 
but atypical based on the way the private sector operates.
    All right, my question is, given the primary purpose of 
this bill to generate jobs, would it be justifiable to, in 
fact--again, I say with appropriate exceptions--expect, even 
expect that exercising a presumption in favor of buying in 
America will necessarily cost more? Now that will mean this is 
the way the argument goes--I don't have to tell an economist--
maybe fewer jobs. Because you know the cheaper labor, which is 
the highest cost usually--in some instances, your material may 
be very high--the more you spend the funds. Would it be 
justifiable in light of fact that everybody kept saying this 
time the money has to go onshore, not offshore, to expect that 
we should spend more if that means buying in America?
    Mr. Fuller. Well, if the objective is to create jobs, those 
multipliers will be higher if the target, the beneficiaries, 
the project selected to how these funds are used are directed 
towards work that is done in this country. Obviously, over the 
years, these multipliers have gone down and down and down as we 
have had more imported, as we import more of our goods and 
services. So reversing that trend and keeping more of this work 
here isn't necessarily more expensive if you look at what the 
repercussions are of having kept it here. There are these 
induced and secondary effects.
    And, beyond that, we are preparing a workforce as we bring 
them and get them working on whatever projects they are working 
on. Clearly, they will become more skilled at what they do, and 
they can then build off of those skills and build their 
business space into the future.
    So this jump-starts more than just the economy in the short 
term but really does prepare it to be competitive in the longer 
term. So I think initial--if there are higher costs initially, 
this can be offset by the gains in the long run in the economy 
in terms of creating the capacity--and the solar cells are 
really a good example--creating the capacity through scale of 
operation to be more competitive globally.
    Ms. Norton. That is very important testimony, because of 
the frustration we've experienced in having an economy that is 
geared so entirely to finding the lowest cost.
    And, of course, if the money is spent--you can hear it now. 
If it turns out that X percent of these dollars went abroad, 
you would have the whole country rising up. So at the same time 
the government looks for the cheapest price, when people hear 
about it, they are outraged. So that is the dilemma.
    Now, I don't know about the States. This is going to be 
right in our bailiwick. We won't be able to get out of it. We 
are going to have to make that decision. Not just monitor what 
they are doing, but if we mean for the money to be spent here, 
we are going to have to have some notion of how they make that 
decision when, inevitably, I say to you, they will find--
notwithstanding Ms. Bacon--that you can get something cheaper 
somewhere else.
    Ms. Bacon. If some of the people in China have excess 
capacity because of that, then they'll cut the prices, too.
    Ms. Norton. Sure.
    Ms. Bacon. So you are right.
    Ms. Norton. We now know we brought the whole world down.
    Ms. Bacon. Yes, exactly, exactly. Your point is very well 
taken, and I think it is complicated in how it is addressed, 
but we would love to work with you on it.
    Ms. Norton. Ms. Juon, I am sure that anyone listening to 
this testimony hearing you say that these investments actually 
have only $250 million, very small investment that has been 
approved is for "distressed" communities, even given the 
leveraging that will take place, first thing everyone will say, 
oh, that means me, because every sector is down.
    How do you decide on funding, projects, communities and the 
like?
    Ms. Juon. What is unique about EDA and the planning 
district program is that we do it on an ongoing basis. We have 
a group of citizens that represent all sectors of the region, 
whether it be the private sector, the public sector, the 
elected official. And we, on an ongoing basis, identify 
projects and prioritize them and look at the impact of those 
projects. So this is where EDA is kind of uniquely prepared for 
this type of stimulus program, because we are ready not only 
with a myriad of projects but ones that we have already 
identified as having the priorities.
    Ms. Norton. What are the kinds of projects, for example, 
you think would be well suited?
    Ms. Juon. A variety. In our area, as I mentioned, we 
invested money into buildings that John Deere, through a 
process of going to more competitive and more modern technology 
for their manufacturing, donated some buildings that they no 
longer needed to our economic----
    Ms. Norton. So the private sector--essentially, you are 
leveraging money.
    Ms. Juon. Right, right.
    Ms. Norton. And the private sector is drawn by the 
leveraging. Is the leveraging so substantial, given this little 
bit of money?
    Ms. Juon. It could be more substantial with more money, 
but, yes, it is, absolutely.
    Ms. Norton. Notwithstanding that, was this amount of money 
likely to encourage the magnet pull of the private sector? How 
much does it take for us to put up for them to say, my 
goodness, this must be worthy; the government must think we can 
all make money here. What percentage of money does the 
government have to put up to be credible to a private company?
    Ms. Juon. The gap, whatever that gap is. Usually the gap 
that we saw in most cases is anywhere from 20 to 25 percent. It 
depends on the project certainly, but that seems to be that 
competitive break-even point where the business then can go 
ahead with the project. But it just depends on what that gap is 
for the businesses.
    Ms. Norton. Now you have a backlog of projects?
    Ms. Juon. Yes, absolutely.
    We have one project in our area that is disaster related. 
As you know, Parkersburg and all of the floods hit our area 
this summer. So we have several that are weather related and 
that would provide mitigation for future flooding.
    But we also have examples such as Monsanto is wanting to 
move to one of our communities, and there is a funding gap 
there that we are kind of in the queue with EDA right now 
waiting for funding for that project to advance.
    We are getting an RLF in our area as well, revolving loan 
fund, to help the small businesses that we are talking about 
that really need probably a lot of this assistance. It will go 
to the small businesses, and the RLF is an example of a funding 
source that can meet their needs as well.
    Ms. Norton. Now, you testified that the particular project 
must produce quality private-sector jobs. I would like to ask 
you, what is the average salary of these jobs?
    Ms. Juon. It depends on what your--is in each county.
    Ms. Norton. I want to know what quality private-sector jobs 
means.
    Ms. Juon. In our area, it is usually 25 to $30,000 for an 
entry level.
    Ms. Norton. And you are located where?
    Ms. Juon. Waterloo, Iowa.
    Ms. Norton. And so it should match? Is that average in that 
particular town?
    Ms. Juon. Average depending on the size of the family. But, 
yes, for a two-person household, $30,000 is an average wage 
rate.
    Ms. Norton. Mr. Dorn, we got all excited about putting a 
green roof on the Rayburn building; and then the GSA came back 
and said that could not be done because the building, I 
believe, would not hold a green roof. So we now are doing a 
study of green roofs, and we are looking at initially green 
roofs in the national capital region because there are so many 
Federal agencies here.
    Now, again, that kind of wishful thinking came out of the 
notion that we own so many buildings. We see these green roofs. 
Do you have any information on the rate of return of green 
roofs or how that form of energy conservation is chosen versus 
some other form? Is it cheaper, for example, than photovoltaic? 
Is there any work that you know of that could inform the 
selection among various kinds of energy conservation 
approaches?
    Mr. Dorn. I think of green roofs in two different ways. One 
is the traditional style that you are talking about now, which 
involves another barrier on top of an existing roof and adding 
soil or some sort of mix where you can grow plants in. Whether 
or not it is desert plants, which do not require quite as much 
irrigation, or green plants like grass.
    It is very project dependent. Particularly for retrofits, 
you may end up having huge structural changes that you need to 
do which makes sometimes the cost prohibitive. So it is going 
to vary by the project size and the climate.
    The other type of green roof that I think of is solar.
    Ms. Norton. Is what? I am sorry.
    Mr. Dorn. Solar. Whether or not it is the old solar 
collectors that I've had back in Norfolk or if it is the new 
panels here. In fact, for our GAO building, we've identified a 
couple million dollar project for this type of solar panels on 
our roof. That is leg branch, but it is an example. We have a 
couple of acres of flat roof with no interruptions, perfect for 
this type of installation. It would pay back. So there are 
opportunities.
    Ms. Norton. Green roofs are cheap; and, therefore, people 
look at them first before they find out they really can't do a 
green roof.
    Mr. Dorn. Yeah, I am not sure that they are cheap, but 
there are a lot of advantages to green roofs, and one is 
reducing the amount of storm water runoff, which is also 
important to the committee and to the Chesapeake Bay locally.
    Ms. Norton. That is one of the reasons that we looking at 
it. It serves that very important function. We think the 
Federal Government is the most important contributor to that 
pollution.
    Mr. Dorn. Absolutely. There are insulating values. I don't 
mean to discredit green roofs at all, but the cost and the 
return will vary by the project.
    Ms. Norton. I would like to ask you, Mr. Dorn, you heard my 
frustration at seeing the deterioration of Federal inventory 
before our very eyes, and yet we are unable to do anything 
about it, partly because there is no capital budget.
    What alternative financing mechanism, other than what we 
are doing now--we are using the revolving fund. You see what 
has happened to it with the circular destruction of the fund as 
more goes off into private leasing. Is there another way that 
we should be looking at to fund, repair an alteration of this 
extraordinary inventory?
    Who testified--I think you did--that many of the Federal 
buildings were built 30 years ago? I can tell you this, as a 
child of the District of Columbia, although most of these 
buildings were up by the time I was born, I do know this, that 
if you look on the side of the building, almost every building 
on Constitution Avenue and Independence Avenue built during the 
1930s, it was just a public works project. That is how they got 
up.
    But look at those buildings. Those buildings are now 
historic. So they don't even have the alternative of moving and 
letting them collapse. Somehow or the other, the Justice 
Department, the IRS, all of the others are going to continue to 
be used, one way or the other.
    The Smithsonian, which we fund 70 percent, is a very 
pitiful example. And, of course, some of the dollars here go to 
the Smithsonian. I don't see how they are able to keep the 
Smithsonian running, much less their repair. In fact, their 
backlog is so explosive that one would not even begin to try to 
deal with it. Therefore, you are inclined to look at, well, 
there must be another way. Have you given any thought to 
another way, rather than going at things the way we now go at 
them, even as we see the existing mechanisms fail because time 
has changed?
    Mr. Dorn. A couple of things. It is certainly what they 
call a target-rich environment as far as projects that need to 
be done. While I was waiting to be on this panel, I looked up 
and the light fixtures in this room are the old 8-foot-long T12 
bulbs. You could replace the fixtures in this room and the 
ballasts and save 30 to 50 percent on energy use in this room.
    We've identified utility energy savings contracts. That is 
where the Federal Government contracts with a utility to make 
energy improvements and pays the utility back over time.
    Ms. Norton. Is that being done anywhere by local 
governments?
    Mr. Dorn. I believe it is, but we can get back to you with 
examples.
    Ms. Norton. Would you?
    Mr. Dorn. Yes, ma'am.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    And, also, there is the energy savings performance 
contracts which Congress has reauthorized to continue until, I 
believe, 2016. Agencies have that ability to leverage private-
sector money in addition to----
    Ms. Norton. The agencies can do what? Say that again.
    Mr. Dorn. They can use private-sector firms who are willing 
to come in and do energy savings contracts and then be paid 
back through the savings from energy. So that is an existing 
way that agencies now use to fund the smaller retrofit types of 
energy projects. In fact, in 2007, about half of the energy 
projects that the Federal Government did were done through 
these energy savings contracts versus up-front appropriations.
    Ms. Norton. Have they been effective?
    Mr. Dorn. That is one of the problems that I mentioned 
earlier in my testimony. Because of the lack of metering in 
some Federal installations and because they are relatively new 
to us, the lack of the skill set that are needed to manage this 
sort of long-term contract, to measure the payback has been 
lacking, but it is improving as part of the EISA 2007. They are 
requiring Federal energy managers at all of the major buildings 
now. So that should help in addition to the metering, help 
improve the monitoring of these jobs.
    Ms. Norton. You heard me say I would be interested in 
anybody's view on this, that while it is certainly not 
contemplated, because nothing is ever contemplated in Federal 
legislation except the same old, same old, that we will do 
something almost akin to what Ms. Juon does, to say in deciding 
how this little bit of money and that is what it is, some 
preference in the formula will be given to, let's say, 
buildings in an area which roughly--because you will have many 
who come in with the same needs. Then you are really into 
eenie, meanie, miney, moe. You can say to the extent you 
attract some private-sector funding you improve your chances of 
getting this funding. Do you think that that is a reasonable 
idea?
    Mr. Dorn. I think that using private-sector funding in 
addition to the Federal funds will help the Federal money go 
further and get more projects going at the same time, 
particularly with energy projects. Every day you wait, you are 
either spending too much money or you are losing the 
opportunity to create energy, whether or not it's solar or 
hydro or whatever it might be. I do think using the private-
sector money and the public-sector money together will get you 
the most bang for your buck.
    Ms. Bacon. May I comment on that?
    Ms. Norton. Certainly so.
    Ms. Bacon. Talking about ideas, another thought that you 
might have is that utilities could partner with the government. 
And what we have seen in Europe, part of the reason that we are 
all selling--we, as an industry--so much in Europe and other 
places is they have very robust incentives. Sometimes the 
utilities are very much involved with it.
    But if you think through with the Federal buildings, in 
order to get the immediate job creation you want, that probably 
should be direct procurement. Because it is just going to take 
too long to work out all of these mechanisms with it. But as 
you think further about it----
    Ms. Norton. Well, I am not talking about waiting.
    Ms. Bacon. I understand, but the next phase could be that 
the utility actually owns the solar array that is on your roof. 
And I am old enough that the utility used to own my telephone. 
That is how old I am. But they could own it. They are used to 
doing that. They could put it in the rate base. There is an 
RPS, renewable portfolio standard, that the Obama 
administration is considering that the utilities are going to 
have to use renewable energy. So there could be some 
combination of having the Federal buildings and using the free 
roof space, as opposed to these big solar farms that you have 
to worry about transmission distribution. The utility could own 
the systems, and it could sell the power back in a long-term 
power purchase contract with the government, which could have 
then some predictability about power prices.
    Because who knows what the power is going to be. I have got 
a funny story about our old President who came to see us, 
George Bush. He was asking about the costs as well.
    I said, ``What do you think the prices are going to be of 
electricity in 5 years, 10 years, 15 years?'' We warranty these 
things for 25 years. He gave me one of those blank stares. I 
said, ``Maybe these folks know.''
    Karl Rove and Hubbard, his economic adviser, were there, 
and he said, ``Ah, they do not know anything.''
    It is true. What do we think the price of power is going to 
be? So the government could have a hedge on increasing the 
price of power. We could meet the RPS. The utility could put 
the system up and own it, and I think it is something that 
would be worth pursuing. In the longer term, that might be the 
way to go to populate photovoltaics and solar throughout the 
country because I think everybody would feel more comfortable 
in buying their power from a utility with P.V. on their own 
roofs.
    Ms. Norton. Why haven't the utilities already----
    Ms. Bacon. What was that?
    Ms. Norton. You say these are going to be mandated. Why 
don't you see this happening with utilities now?
    Ms. Bacon. Well, we have an RPS in some places now. I do 
not think Obama's plan is in yet. I think he is talking 25 
percent by 2020 or something like that.
    Ms. Norton. I see.
    Ms. Bacon. But some of the States have RPSs in, but it is 
just something to think about. You were asking for other ideas 
that really might, in the longer term, solve the problems and 
get the private sector involved.
    Ms. Norton. Well, particularly if you are guaranteed this 
large government sector would be buying from you, perhaps, in 
Michigan and elsewhere.
    Ms. Bacon. Exactly.
    Mr. Dorn. That is one of the things we are doing, Madam 
Chair, with the EISA 2007 that you all passed. You are 
requiring the Federal agencies to increase their purchases of 
renewable energy by, I believe it is, 2 to 3 percent a year.
    Ms. Norton. So it all could come together. Yet, of course, 
there is the notion that, even before this, the private sector 
was wanting to invest its capital, its own capital, its own 
risk capital. It is very discouraging to see. Now, of course, 
they do not have any capital. So I am not sure whether 
utilities would do this. Although, the utilities, obviously 
more than almost anything else, ought to be able to get loans 
to do what they have to do because they have guarantees.
    Ms. Bacon. Yes, I think they can, and we are going to get 
out of this capital mess. It is going to take some time, but 
utilities are also notoriously slow, but I think, you know, a 
12-month to 18-month thought about getting them involved this 
way could be very interesting to see how we could put that and 
American made and your budget constraints all together somehow.
    Ms. Norton. Just a couple more questions.
    Ms. Juon, you have a revolving loan fund?
    Ms. Juon. We are just getting one, yes.
    Ms. Norton. You are just getting the revolving loan fund?
    Ms. Juon. We just applied for one as part of the disaster 
relief through EDA. So we are just getting revolving loan funds 
for our six counties, but certainly there are ones----
    Ms. Norton. Are they used generally by similarly situated 
counties across the United States?
    Ms. Juon. Yes. We have 17 councils of government in the 
State of Iowa. So we deal with them on an ongoing basis. They 
are all economic development districts, and the majority of 
them have revolving loan funds, and so I am visiting with them 
as we are looking to set up our own.
    Ms. Norton. Have they produced and paid back the money?
    Ms. Juon. They are one of the most effective uses of 
Federal economic funds that we have found in the United States 
because of their payback, because of the job creation, because 
of the sustainability of the businesses that have been working 
with those RLFs. In fact, I think the GAO did an assessment of 
EDA and their funding, and it was one of the most successful of 
any funding at the Federal level for job creation.
    Ms. Norton. I am a big fan of these revolving funds, and am 
crying in my soup about what has happened to the way we repair 
Federal buildings with a revolving fund.
    Finally, I have to ask you, Ms. Bacon, something that I 
still do not quite understand. You have made me understand that 
essentially you came forward with a product that allowed you to 
move forward in this market. I looked at this very colorful and 
interesting circle about where your product is used. So in the 
first place you were into innovation that separated you from 
Europe and China and the rest of them who are your competitors. 
You are from Michigan?
    Ms. Bacon. Right.
    Ms. Norton. So the first thing I want to know is how you 
got to be in Michigan. Particularly when you look at this 
handout, you do see that you have your photovoltaic in a few 
places like New Jersey, but your largest contract is in Spain. 
That is interesting. They were, obviously, attracted by this 
new product. Imagine buying American by the leadership there in 
Europe. But the others are places like Riverside, California; 
Hawaii; Arizona; Long Beach--places, it occurs to me, which 
have a lot of sun relative to Michigan or, for that matter, 
relative to even the District of Columbia and to the East 
Coast. Although, obviously, you know, yesterday was a nice, 
sunny day. I am not sure what that would have done for us 
because I was cold as I could possibly be out there.
    Indeed, there have been problems with wind, for example, 
because of other kinds of infrastructure that is needed. I am 
trying to understand whether these new forms of energy really 
work. If they work only, for example, in a part of the country 
where it is warm, that is great because at least they are 
working, but wind, it seems to me, has to be in some place 
where at least there is some wind. Solar has to be in a place 
where at least there is some sun. Then you have got to store 
the stuff, I suppose, if you want to use it the way advanced 
societies always use it.
    Are these new forms of energy--these are direct forms of 
energy--capable of serving in all parts of the country? Do you 
have any in Michigan?
    Ms. Bacon. Yes, we do, and they are capable of producing 
power anywhere. Germany has less sunlight than Michigan does, 
and it is the biggest market in the world because they put very 
robust incentives in in Germany. What we do--and I may not----
    Ms. Norton. Excuse me. Incentives to----
    Ms. Bacon. Incentives. What they have in Germany--and it is 
being adopted in many places in Europe--is what they call a 
feed-in tariff. This is what we also did in Spain. That 
facility, that 12-megawatt facility, is on a roof of a General 
Motors building. General Motors gets rent for letting them use 
the roof, and then the power from the photovoltaic array, this 
12-megawatt array, is sold to the utility at very attractive 
prices like 60 cents a kilowatt hour. In Germany it is 
sometimes even more than that. France has adopted it. Italy has 
adopted it, and so has South Korea.
    What they have done is--the countries are making an 
investment in being able to buy the power at initially high 
prices with the view that all of the fossil fuel prices are 
going up and that solar is coming down. They are more 
effective, of course--photovoltaics--in sunny places because 
you get more sunlight, and that is the reason it is done in 
places like California and in other places, but we can put 
solar anywhere and it will work. It is just a matter of how 
much electricity you get out of the array and depending on the 
sunshine.
    Ms. Norton. So you would have a combination of photovoltaic 
and regular energy just like my hybrid?
    Ms. Bacon. Yes, exactly. That was a very good question you 
asked.
    What we typically do is--these are grid-tied systems. So 
what happens is we size it for a facility. Another example of a 
General Motors facility is in California, in Rancho Cucamonga. 
It produces power during the day that they use for their own 
use. Then what happens is, during the night, they buy power 
from the utility because, in the evening, the utility typically 
has excess power, and peak power is when the sun shines, so the 
economics depend on how much sunshine you have. It depends on 
the competition of what the power utility is charging.
    You look at a place in Hawaii, and that is also in the 
handout. There are 6 megawatts we have provided for military 
housing in Hawaii. That is cost effective because in Hawaii 
their prices are like 30 cents a kilowatt hour, so that is cost 
effective without any kind of incentives.
    If you look at a place like Michigan, we pay about 11 cents 
a kilowatt hour from the utility. With not much sunlight and 
without incentives it is not going to be a big market.
    California could be. Of course, we have the ITC that has 
just been passed and extended, which is the Investment Tax 
Credit for solar, which helps as well, but it is a nice match 
because the sun shines during the peak power needs.
    The other point I want to make is, if we think longer term, 
also it can be cost effective in places where they charge time-
of-day pricing. Typically, when the peak comes, when industry 
is working, which is, you know, during the day, they have to 
bring on dirty peakers, which sometimes are generated with 
diesel and so on. In some places, they just blend that rate. In 
other places, like San Diego, when they need to put on the 
peakers, they are paying more money for the conventional power, 
and they will charge more money for price per kilowatt hour 
during the peak time. Maybe it will be 23 cents a kilowatt 
hour, whereas at night they may charge 5 cents a kilowatt hour.
    So they are trying to blend this in to have the price of 
power to be somehow correlated to the cost of producing that 
power. If we did that in this country, throughout the country, 
we could avoid building a lot of power stations because I think 
lots of people would be doing things in the evening instead of 
during the peak power, whether they are using their washing 
machines or using their dishwashers or putting lights on or 
whatever. It is another way that they could save energy.
    Ms. Norton. There is no storage of this energy?
    Ms. Bacon. There can be. There are a lot of off-grid 
applications where there is storage, and then you use either 
lead acid batteries or sometimes advanced nickel metal hydride 
batteries, which is another product our company invented. But 
the most cost-effective way, if there is a grid and you get 
electricity is just to use the electricity grid, and you as a 
homeowner or you as a business do not know if you are getting 
power from the sun, because even during the day, if you are 
needing more power----
    Ms. Norton. The climate knows.
    Ms. Bacon. What was that?
    Ms. Norton. The air knows.
    Ms. Bacon. Yes, the air knows.
    If you need more power than the solar array is producing--
say it is a cloudy day or something--then the utility will 
bring in the power, and all those interfaces have been very 
well worked out by industry and by the utilities.
    Ms. Norton. Finally, I indicated this bill is all about 
jobs. Mr. Fuller, you testified also on behalf of the 
Associated General Contractors. Others of you may have an 
opinion on this final question.
    The jobs that everyone likes to talk about and that are 
often talked about in terms of the people who are less skilled 
than the people who do typical work, like sheet metal or 
electrical work, are the building trades. I know Ms. Bacon said 
in one of these projects that she did some retraining. People 
were very grateful.
    I need to understand who will be doing these jobs and 
whether special training is necessary given the priorities that 
everybody from the leadership of the Congress to the leadership 
of this committee put on jobs and jobs not only for the people 
who are best able to do construction jobs but for others as 
well. So you say, okay, we will go to green jobs, and nobody 
gets beneath that word.
    Would a typical contract for energy conservation be able to 
use skilled and not-as-skilled labor? How would that occur? I 
can tell you what will happen if you are building a bridge. I 
can tell you what will happen if you are building a building, 
but I am not sure I have any idea if what you are doing is 
weatherizing or greening some building in some form or fashion.
    Mr. Fuller. Well, first, given the circumstances of the 
growing unemployment that has focused most heavily on the 
construction sector over the last several years, with 900,000 
fewer contract jobs today than a year ago, there is a reservoir 
of trained workers that can be brought in. That is where 
investment and infrastructure in these circumstances has a 
potentially large payoff because there are workers who can be 
put to work. There are major construction projects that are 
wrapping up all over the country. The States and the localities 
at this point are unable to start new projects because they are 
running out of money. They cannot get financing or their 
budgets are not balanced and so forth. So there are workers who 
are going to go off line who can be put to work.
    Ms. Norton. Say that again. Workers who are going to go off 
line?
    Mr. Fuller. Well, the Wilson Bridge is finished. Where did 
those workers go? There are no new bridges for them to build. 
Some of them have retired. Others are doing different kinds of 
jobs. We know that there is a surplus of construction workers, 
and they range from very low skills--people who happen to be 
quite mobile, who work on golf courses and who do landscaping 
when they cannot do construction work. There is a lot of 
substitution in here--to very high-skilled workers. These are 
machine/equipment operators. There will be workers who decide 
to work past the age of 50 or 55 because now they have another 
job they can work on. Many of these workers can do a full range 
of things--an electrical worker on an office building or on a 
power plant or one who wires a building for solar cells or 
solar panels. They can adapt pretty quickly if there is work. 
Construction workers tend to be very adaptable. They are 
different than an assembly line worker in an auto plant who 
knows how to do a more narrow range of skills.
    I think there are training opportunities here, too. The 
construction industry, historically, has had apprenticeship 
programs and has brought younger people in, and it looks for 
people who can do work that other people do not want to do. I 
think there can be some requirements about who gets some of 
these jobs because there is such a surplus of semi-skilled and 
skilled workers out there who were in the construction sector 
in 2005 and 2006 who have lost their jobs since then.
    Ms. Norton. Yes. I am just trying to anticipate, as I heard 
from the women at this meeting I spoke of, about the jobs and 
about where they go.
    I think the unemployment rate in the construction trades is 
almost unfathomable it is so large, and there is no question in 
my mind that it will drink up these jobs because there are so 
many unemployed, and that is interesting because there has been 
a labor shortage in many trades.
    At the same time, Congress over promises, and the Congress 
represents all kinds of districts, including many districts 
where workers are not particularly well skilled. Again, we keep 
hearing, well, there are the green jobs. We know that small 
business jobs will be some of those jobs, but I am anticipating 
some real feedback when this money gets out on the street about 
who gets the jobs.
    Now, some of us have been working to make sure that some of 
this money goes into pre-apprentice and apprentice programs, 
and I cannot stress enough what will happen in a district like 
mine, and I will just say it right out here, because we have a 
disproportionate number of Federal sites, but you will see the 
same thing. Whatever the source of the funds for bridges, 
highways and the like, you will see the lowest income groups, 
which are always the hardest hit.
    For example, just to give you the one I know in this 
district, one thing we have never been able to conquer is the 
black unemployment rate in particular, which is always twice. 
It already is. So whatever the six point or seven point that we 
have been using, already we see the doubling in these 
communities.
    Well, the women already see initially that this is a sector 
they have not been in. Construction had a terrible reputation 
until recent decades because they were father/son jobs. It was 
overtly discriminatory. You know, everybody took them to court, 
and a program was set up until it was abolished in the 1980s--
labor and management cooperating with some Federal funding for 
training and for the placement of workers.
    Well, think about how many decades now--two or three 
decades--there has been no such training. That is why in some 
sections of this bill we have incorporated some for training, 
but I still anticipate in a climate like this that people would 
begin to count heads, to look at unemployment rates, to look at 
where they are going down.
    I mean I just am warning everybody up front. That is what 
is going to happen. We have tried to at least anticipate it 
here because the labor movement has been the most open movement 
for African Americans and for other minority workers. We do not 
believe that those trades, those building trades, are anything 
like what they were before the Civil Rights Act was passed. In 
fact, I know they are not. The building trades have been 
recruiting with a labor shortage literally until very recently. 
At least the unions have been training ex-offenders in pre-
apprentice programs because the people who used to want these 
jobs, the sons, do not even want them anymore. They are in 
high-tech or are wherever young people go these days.
    Instead of having the kind of clash we had in the 1960s and 
1970s where minorities and women then were not even considered 
for construction jobs and where it was basically minorities 
versus whites and where it was an overtly discriminatory 
industry--that was racial clash--what we are left with are 
decades where we are not going to have that this time because 
disproportionately minorities have not been trained in the 
building trades, and that has to do with the elimination of 
these programs in the 1980s.
    I am very cautious about this and about what, if anything, 
that can be done about it. I think the apprenticeship programs 
are very important and the pre-apprenticeship programs. I think 
that the women, for example, at the meeting that I attended 
seemed visibly relieved that there was going to be apprentice 
training possible through these bills.
    At the last hearing, we asked what it would take to tool 
up. This was another day-long hearing that we had. We had the 
construction trades in, and they said that, as to these green 
jobs, this stuff was transferable, and they did not anticipate 
any problems.
    I just want to put everybody on notice because in a part of 
the sector that my subcommittee works we have the closest 
relationship with the construction trades. These are some of my 
best friends in the labor movement, and they have been 
extraordinary and extraordinarily open, but I see what could 
happen, and I think the only hope for avoiding recrimination is 
that people are very alert to this possibility. When you put 
this much money out into the sector and it all comes from the 
government--and I had to even explain to women why we were 
funding these male-dominated jobs, and these were very well-
educated women--you cannot imagine what people who are in the 
unemployed sector and who are in the sector that we do not even 
count in the unemployment rate are going to think when their 
organization is saying, "What about us?"
    So everybody is on notice that that is how this is almost 
surely going to play out, and I hope all will do whatever they 
can to avoid that kind of clash. We do not need a clash between 
the hordes--that is the only word for it--of skilled 
construction workers on the one hand and the surplus having 
nothing to do or very little to do with the sector of untrained 
people who would be among those available for those jobs if 
several decades ago we had continued to do what we should have 
done.
    We just have to use this occasion to help them get a 
foothold in the construction trades and to make everybody 
understand this is an opportunity to do that and that training 
and immediate jobs are not in conflict because, as I have 
sometimes said, when I have had unions in the room, my hat is 
off to them because they went to school, as it were, longer 
than I did to become a lawyer in order to learn their trades. 
These are very difficult trades, and they have been more 
difficult as high-tech has come into it and as more education 
has been necessary.
    Your testimony has been particularly valuable to this 
subcommittee, and I listened to part of the testimony when I 
was in my office for other parts of this bill. It was the 
chairman's, I think, wisdom to understand it, even though we 
had to work directly with the Appropriations Committee to get 
this money out, and that we should not forego the normal 
authorizing committee process even though the numbers are out. 
There is still a lot of room for decision-making here, and we 
on this subcommittee perhaps have the greatest and the most 
authority to make and to ratify decisions of any of the other 
subcommittees. I can tell you, to the best of our ability, we 
intend to use it. We could not have used it nearly as well 
without the extraordinary testimony that you have been good 
enough to give us this evening. Thank you again for the 
testimony and for bearing with us so long.
    The hearing is adjourned for the day.
    Ms. Bacon. Thank you as well. I think I can speak for 
everybody that you can count on us. If you have any other 
questions, we would love to work with you. Thank you.
    Ms. Norton. Thank you very much.
    [Whereupon, at 6:40 p.m., the Committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
